<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2015</title>
<body><pre>[Senate Hearing 113-]
[From the U.S. Government Publishing Office]


 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2015

                              ----------                              


                       WEDNESDAY, MARCH 12, 2014

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:07 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Mary L. Landrieu (chairman) 
presiding.
    Present: Senators Landrieu, Leahy, Tester, Coons, Coats, 
Cochran, Murkowski, and Moran.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENT OF HON. JEH JOHNSON, SECRETARY


             opening statement of senator mary l. landrieu


    Senator Landrieu. Welcome to this afternoon's meeting. I 
would like to call the Homeland Security Subcommittee of 
Appropriations to order to consider the budget of this 
Department. Welcome, Secretary Johnson. This is your inaugural 
presentation before our Committee on the budget, and we welcome 
you.
    Let me begin by, of course, noting to the members of the 
Committee that the Secretary has been on the job for 3 months. 
A lot of this budget was put together before he arrived, but he 
will be, of course, presenting it to us today, and we look 
forward to a very robust and helpful discussion.
    Let me just begin by pointing out just a couple of 
priorities that I have as chair. Some of these priorities are 
shared by other members of the Committee and we have worked 
very well with Democrats and Republicans alike. I want to thank 
my ranking member, Senator Coats, for all of his cooperation as 
we have built these budgets.
    First, let me point out a couple of very important 
priorities as I review the budget for this year for me and 
others. We talk about Customs and Border Protection (CBP), 
which is very, very important. In last year's budget we plussed 
up that number to secure our borders. You will hear some 
discussion about that this morning. But when we talk about CBP, 
we sometimes overlook Customs. And I want you and the members 
of the Committee to know, I am going to be focusing on the 
resources in this budget that help our Customs officers to make 
sure that our business are treated fairly in these global 
markets. So when we are talking about crawfish farmers in 
Breaux Bridge, Louisiana, Mr. Secretary, I want to make sure 
that we are using the tools that are available to us to make 
sure that if illegal dumping is occurring, if their businesses 
are being constricted, if their abilities to make a profit and 
hire people in America are being restricted because Customs 
officers are not either bringing cases that are valid or 
collecting fees, it is something that this Committee is going 
to be focused on this year.
    We have had some problems in the past. I know Senator 
Cochran has shared those concerns with some fishery issues 
along the gulf coast, and I am sure there are members that have 
issues with some of their home State products. So we are going 
to be focused on that.
    Number two, flood insurance. The Senate is right now in the 
final stages of passing a reform of a bill that had good 
intentions. But in the view of the vast majority of Senators 
and over 300 Members of the House of Representatives, the flood 
insurance bill that falls under the jurisdiction of this 
Committee with the Federal Emergency Management Agency (FEMA) 
had good intentions, but it had absolutely draconian 
consequences to middle class families, over 5 million flood 
insurance policy holders. We have or are in the process of 
rebuilding that program, restructuring it to give immediate 
relief to middle class families so that they can stay in 
communities, whether they are in Vermont, Louisiana, 
Mississippi, or New York.
    So I am going to be conducting some hearings and expect 
your help and cooperation--I know we will have it--to make sure 
that as this bill passes and gets signed by the President, 
which looks like it will, that we implement it with FEMA, 
giving them the resources, flood maps, accurate flood maps, and 
accurate community input.
    Third, I am going to continue my work as chair here with my 
members to continue to help build a smarter and better FEMA. 
Now, I came to this as an unwilling participant. As a Senator 
from Louisiana, I did not want Hurricane Katrina to hit. 
Senator Cochran did not enjoy the experience of Hurricane 
Katrina that devastated our two States. But then we have had to 
live through that. More recently Superstorm Sandy and some 
other terrible storms have struck the east coast, and there are 
wild fires out west. And so we feel like we are surrounded here 
by disasters. We keep our eyes on trying to mitigate against 
them, preventing them from happening where we can, but giving 
quick and able help. Our budget is what stands between 
communities either rebuilding or not.
    I am not going to go through verbally this morning all of 
the things that we have done through this Appropriations 
Committee and through the authorizing committee on which I 
serve to help build a stronger FEMA but you can be sure that 
that is a bipartisan priority of this Committee. I am proud of 
the arbitration panel that has been created, the ability for 
relief of loan forgiveness. We will continue to work on that.
    A fourth priority which Senate Coats and I most certainly 
share, and you do as well--I noticed in your testimony--is 
cybersecurity and cybercrime. The members of this Committee may 
be shocked to know that Norton, which is a premier, global 
software security company, has estimated that the cost of 
cybercrime is $398 billion--$114 billion direct, another $274 
billion in consequences concerning that. But what is alarming 
about this is that this is more than the total global black 
market in marijuana, cocaine, and heroin combined. So again, 
this is a priority to deal with cybercrime that is being 
committed to try to reduce it, minimize, respond to it, and 
protect not only our Government operations, but as far as we 
can to help our private sector.
    Let me just end 1 or 2 minutes on a few things that are 
specifically in the budget that I want to make note of because 
this was our work in the past year, too, which I am proud of. 
Today, 35 percent of the traveling public receives expedited 
security screenings due to a number of risk-based initiatives 
being undertaken by the Transportation Security Administration. 
This Committee was very aggressive in making sure that we were 
screening people smartly for their safety, for their security, 
but for their convenience, Mr. Secretary, and for our promotion 
of global trade and travel, which to many States, not just 
Louisiana, not just Indiana, not just New York and California, 
and Illinois, but to many States people being able to travel 
freely is important to the development of their business.
    This budget includes full funding for future disasters, $7 
billion, with an ability to draw down another five if necessary 
in the emergency fund. So I believe starting this year, Senator 
Coats, that we are prepared for whatever disasters may come our 
way. And hopefully if we need additional funding, the Congress 
will step up. But we should have adequate funding for us to 
deal with what this year may present.
    A couple of just comments about concerns. Our budget is 
below last year's budget. While it is promoted that it is a 
2.8-percent cut, without being able to raise the fees that are 
required in the President budget, which are quite a lot--almost 
$1 billion. If we are not able to do some of that, which I do 
not believe we will be able to do all of it, and perhaps not 
even some of it, we will be almost 6 percent below where we 
were last year without some important priorities like Coast 
Guard recapitalization, et cetera.
    I am going to submit the rest of my statement for the 
record. Immigration and customs enforcement, Coast Guard aging 
fleet continues to be a challenge. And then, of course, the 
financial operations of the Department itself, making sure that 
we are cutting out waste, fraud, and abuse, streamlining 
operations, and moving into the second 10 years of this 
virtually newest department of the U.S. Government.
    [The statement follows:]
             Prepared Statement of Senator Mary L. Landrieu
    Good afternoon. I call the subcommittee to order.
    This afternoon, I am pleased to welcome Secretary Johnson for his 
inaugural hearing in front of this subcommittee to kick off our review 
of the Department of Homeland Security's fiscal year 2015 budget and 
ongoing activities. Secretary Johnson, you have been on the job for 
about 3 months now. And you have been tasked with taking a fresh look 
at where the Department of Homeland Security (DHS) has been and setting 
its course for the future.
    From the U.S. Customs and Border Protection (CBP) agents who make 
sure that the crawfish producers in Breaux Bridge, Louisiana, are able 
to compete fairly and the Transportation Security Administration (TSA) 
officers who keep travelers secure--whether visiting New York for 
business or Florida for vacation--to the communities like Moore, 
Oklahoma, and Hoboken, New Jersey, that are still rebuilding after 
disasters--this budget impacts Americans' daily lives.
    In thousands of community newspapers across the country, there has 
been story after story about the impacts one agency of this Department 
is having in particular: the Federal Emergency Management Agency 
(FEMA). My office, along with many of my colleagues, has heard from 
many of the 5.5 million working, middle-class families facing 
skyrocketing flood insurance rate increases due to a well-intentioned--
but flawed--law that Congress passed in 2012 to reform the National 
Flood Insurance Program (NFIP). That law, Biggert-Waters, which I 
raised objections about before it passed, removed affordability as a 
centerpiece of our National Flood Insurance Program.
    In January, the Senate--with strong support from Members of both 
parties--passed a fix that received 67 votes. Last week, the House 
passed a compromise bill that reestablishes affordability as a critical 
and necessary cornerstone of the NFIP, and I urge my colleagues to pass 
that bill this week.
    While far from perfect, the bill will stop the most draconian rate 
increases and reestablish affordability as a critical element of the 
program. I am proud that we were able to include an annual limit on 
individual rate increases and an overall affordability target to 
protect people against $20,000 and $30,000 premiums. FEMA will have to 
effectively coordinate with local, State and Federal stakeholders 
throughout the implementation process, and I will work with you to 
ensure FEMA has the resources it needs to accomplish this in a timely 
and transparent manner.
    Even after this bill passes, it will be the responsibility of this 
subcommittee, as well as other Committees in the Senate and House, to 
craft a program that works decade to decade so generation after 
generation can continue to affordably and safely live along our coasts 
and inland waterways where they work to power our Nation's economy.
    I look forward to talking more about the NFIP and ensuring that 
flood maps are reliable and accurate later in the question and answer 
session. As chair of this subcommittee, I intend to hold one of my 
first hearings on the implementation of the new flood insurance fix.
    I represent a State that has experienced its fair share of 
disasters, some natural and others of our own making. During the last 9 
years, I have worked tirelessly to create a more agile and responsive 
FEMA and provide it with the right tools that allow communities to 
recover faster and rebuild smarter. One of those tools is an 
arbitration process created to provide Americans impacted by disasters 
a fair and unbiased third party to resolve disputes between FEMA and 
local communities. Since I established this arbitration panel in 2009, 
it has ruled on dozens of cases ensuring the right people receive the 
assistance they need to rebuild smarter and stronger. Even today, the 
arbitration panel is considering a case involving Livingston Parish in 
Louisiana. The long delay has had a serious financial impact on the 
parish and local contractors, many of whom are small and family-owned. 
It is a victory that we have gotten to this point, but the battle is 
not finished. I am confident that the arbitration panel will review the 
merits of the parish's claims and find favorably on behalf of the 
people of Louisiana.
    In addition to the arbitration panel, I changed the way FEMA 
calculates the impact of disasters to allow recovering communities the 
ability to accurately measure the devastation in the parish, county, 
and municipality when Federal funds are loaned to them for recovery. 
Through this change, communities in Louisiana have had $233 million in 
Community Disaster Loans forgiven, and that total will continue to 
rise. Finally, I continue to advocate for smart mitigation programs 
that save taxpayers $4 for every dollar spent for actions like 
elevating a home or office building. In this budget, I was encouraged 
to see a request for $400 million to promote resiliency before disaster 
strikes through Predisaster Mitigation Grants--I share this as a 
priority of the Administration--however I am disappointed that this 
request was not in the base appropriations bill but instead comes from 
a proposed funding source that is unlikely to be enacted.
    After reviewing some of your recent speeches and trip reports, I 
was pleased to find that you and I share many common goals when it 
comes to homeland security. I believe we are both firmly committed to 
strengthening our borders, deploying an agile and professional Coast 
Guard, as well as effectively training and educating our cyber 
workforce. In the budget I noticed a $379 million or 4.4-percent 
decreases in discretionary spending for the Coast Guard. We must be 
careful where we cut our national maritime defense, especially as we 
increase exports and trade through our waterways. In Louisiana where 
our shipbuilding industry is second to none, we are proud to build some 
of the finest cutters in the Coast Guard fleet, and I look forward to 
working closely with you to ensure that our Coast Guard has a robust 
and modernized fleet.
    According to Norton [software security company], the annual cost of 
global cybercrime is $114 billion with another $274 billion lost in 
terms of time spent on cybercrime and its effects. That total is more 
than the global black market in marijuana, cocaine, and heroin 
combined. During previous conversations, you expressed the need for a 
robust cyber education push from the Department of Homeland Security. I 
echo those sentiments and look forward to building on the groundwork 
I've already laid in the fiscal year 2014 appropriations bill.
    In the last year, we have faced multiple threats to our homeland. 
The Boston Marathon bombing was followed by serious chemical incidents 
in Texas and West Virginia. A physical attack on electrical substations 
in California was also uncovered. Daily, we face a constant onslaught 
of cyber intrusions and attacks on our Government networks and critical 
infrastructure. While we must defend ourselves against these attacks 
and strengthen our borders, those same borders must also welcome travel 
and trade. We must strengthen acquisition and procurement practices and 
foster research and development partnerships with the private sector 
and academia so that we can outpace our adversaries.
    [Submit from here to the next bracket for the record if short on 
time.]
    After reviewing the budget, there are many commendable items and 
efforts:
  --Currently over 35 percent of the traveling public receive expedited 
        security screening due to a number of risk-based initiatives 
        being undertaken by TSA. By moving away from a one-size-fits-
        all approach to security, screening is expedited for all, 
        shortening wait times and improving efficiencies, including a 
        reduction in screening staff levels. I look forward to further 
        expansion of this program, with up to 50 percent of the 
        traveling public receiving some form of expedited screening by 
        the end of 2014.
  --The budget includes full funding to respond to future disasters and 
        recover from disasters of the past through $7 billion in the 
        FEMA Disaster Relief Fund.
  --The budget includes $75.8 million to begin replacing aging 
        inspection and detection equipment used by CBP, the Coast Guard 
        and TSA to keep our ports secure from illicit radioactive and 
        nuclear materials.
  --The budget includes $45 million to continue modernizing the 
        Department's financial systems for more accurate and timely 
        reporting of fiscal data. It should be noted that for the first 
        time ever, DHS received a clean financial audit in fiscal year 
        2013, which is a significant milestone for this maturing 
        Department.
    [Continue delivery from here forward.]
    While this budget proposal is respectable, Secretary Johnson, I 
have a number of serious reservations about the fiscal year 2015 budget 
you are presenting today. This budget is more than $1 billion below the 
level we enacted for your Department less than 2 months ago. Yet what 
you claim is a 2.8-percent cut is really just the tip of the iceberg. 
The budget before us assumes the collection of new fees and taxes that 
have been rejected by this Committee previously. Notably:
  --This request reinstates the $420 million air carrier security fee, 
        which was repealed in the bipartisan budget agreement the 
        President signed less than 3 months ago. Couple this with an 
        increase in aviation passenger security fee means that TSA has 
        a $615 million shortfall that this subcommittee will have to 
        fill with appropriated funds if these fee proposals are not 
        adopted.
  --The request assumes $332 million more in CBP fees, nearly half of 
        which are out of this subcommittee's jurisdiction. This means 
        that in order to hire the additional 2,000 CBP officers you 
        have requested, we will need to take unacceptably deep cuts in 
        other DHS accounts.
  --The budget reduces funding for Immigration and Customs Enforcement 
        by $255 million as compared to fiscal year 2014. This request 
        reduces detention beds by over 10 percent when the agency has 
        shown a need for a substantial number of beds due in part to a 
        73-percent increase in the apprehension of illegal immigrants 
        coming through the Rio Grande Valley this year compared to last 
        year. Many of these individuals are requesting asylum, which 
        requires longer stays in our detention system.
  --Desperately needed acquisitions to update the Coast Guard's aging 
        fleet continue to receive less funding than is necessary to 
        keep these upgrades on track. For the second year in a row, the 
        budget only requests two fast response cutters (FRCs); yet for 
        the past 3 years, this Committee has funded six FRCs, saving 
        more than $30 million annually with these block purchases.
  --This request assumes a new grant structure, which for the past 2 
        years Congress has clearly stated must be enacted by the 
        appropriate authorizing committees before we will consider 
        change. We need to work together with the Chairman Carper and 
        Ranking Member Coburn to enact these changes before we can 
        consider them in the Appropriations Committee. In doing so, we 
        can provide a clear path for our first responders to acquire 
        they resources they need to do the hard work we demand from 
        them every day.
    Since this subcommittee was established, we have striven to do our 
work professionally, collaboratively, and in a bipartisan fashion. I 
look forward to continuing this strong, bipartisan working relationship 
with Senator Coats and the Department this year. With that, I will turn 
to my ranking member, Senator Coats, for his opening statement.
    After that, we will hear from Secretary Johnson. Once the Secretary 
concludes his statement, each member will be recognized in order of 
arrival for up to 5 minutes for remarks and questions. I now recognize 
Senator Coats for any opening remarks he may wish to make.
    Senator Coats.
    Mr. Secretary, thank you for being here today. I appreciate your 
commitment to tackling our many diverse and prolific homeland 
challenges head on. And I look forward to welcoming you to my great 
State of Louisiana in the months to come. Please proceed with your 
statement.
    [Recognize members in order of arrival for 5 minutes of remarks and 
questions.]

    Senator Landrieu. So we look forward to having you as a 
partner to work with you. We will try to be as honest and as 
forthright in our assessments of what this budget is 
reflecting. We share some of these priorities, but we will push 
you on some other things that are not as, shall I say, high up 
on the priority list as I think some of the members of this 
Committee would like to have.
    And with that, let me turn this over to Senator Coats for 
his opening statement, and then we will hear your opening 
testimony, Mr. Secretary, and then do a round of questions for 
the members that are here.
    Senator Coats.

                   STATEMENT OF SENATOR DANIEL COATS

    Senator Coats. Mr. Secretary, welcome. First of all, I 
congratulate you. Though I wonder if it is really 
congratulations given the work yet to be done. But 
congratulations to you for assuming this vital position, and 
best wishes to you as we go forward with a number of important 
issues and threats to address.
    You know, a year ago when your predecessor was here 
testifying before us, it was the week when the Boston Marathon 
attack took place. A Texas fertilizer plant exploded. There was 
a mysterious attack on a power substation in California and 
ricin incidents, and at the time, we were discussing 
immigration reform. That was all in 1 week. Are you sure you 
want this job? Let us hope you do not have weeks like that 
going forward.
    But I do appreciate and I know the chairman appreciates the 
way you have reached out to us. You have been in my office. You 
have been in Senator Landrieu's office. We had breakfast 
yesterday. Starting a good relationship, dialoguing with each 
other about the breadth of homeland security and all that 
encompasses, and working together at a time when budgets are 
tight. There are things that we would all like to do that we 
cannot afford to do. We have to find a way to do those things 
better, more efficiently and in a cost-effective way.
    I have a number of things that I want to ask you about. I 
want to second the chairman's mention of the passenger security 
fees that present a potential budget problem for us over and 
above the cuts already taken. It may not be politically 
feasible to impose those fees, particularly since the Murray-
Ryan budget that we just enacted included an increase of these 
same fees. And that increase has not even kicked in yet. So 
imposing new fees on top of the increase being implemented is 
very problematic. So we are going to have to look at where we 
find money to pay for aviation security, unless we are 
successful in advancing fee changes, and I do not believe we 
will be.
    There are a number of other issues that we have talked 
about previously, which I want you to address--first border 
security and the Rio Grande Valley issue. A surge of illegal 
immigrants is coming across the border there, and a great 
number of them are juveniles in particular.
    And then I just want to say something about cybersecurity. 
I think this clearly has become an essential priority because 
of the threat that it poses. Whether you are talking to 
military officers in uniform or those representing our 
intelligence community or our various law enforcement agencies, 
cyber has moved to the top of the list as a threat to America. 
And the Department of Homeland Security plays a significant and 
essential role in all that. Working through cybersecurity 
issues, implementing protective measures, and establishing the 
right kind of coordination is very essential.
    So I will wait until the question time, and if others do 
not bring up these topics, I will, and we can talk through 
these issues. Mr. Secretary, we are glad you are here. We look 
forward to working with you. Madam Chairman, we look forward to 
the hearing today.
    Senator Landrieu. Thank you so much.
    Mr. Secretary.

                 SUMMARY STATEMENT OF HON. JEH JOHNSON

    Secretary Johnson. Thank you very much. And I want to begin 
by, first of all, saying you have my prepared statement for the 
record. In my 5 minutes, let me just say a couple of things. 
First of all, I appreciate the personal courtesy and friendship 
that I have received from the members of this Committee in this 
new appointment. You probably cannot appreciate how 
invigorating it is for someone to step into a public position 
like mine when I have your support and friendship and the 
various courtesies that you have shown me. It is a 
reaffirmation for me. So I very much appreciate that on a 
personal level.
    I was chatting with Senator Leahy before we got started, 
and it reminded me that every time I walk into this office 
building, I think back to the summer of 1978 when I was a 
college intern for Daniel Patrick Moynihan. We worked in this 
building on the first floor on the other side. And one day I 
was on mail room duty, and it was a day when I thought the 
Senate was in recess. And the Senator's driver convinced me to 
take a ride with him on the Senators-only elevator because we 
thought no one would be around. It has been 36 years, so any 
statute of limitations has probably run out by now.
    And so, we pushed the button, and I am dressed in my jeans 
and T-shirt. And the door opens, and I am standing in front of 
the door, and there--it is one of these moments you will never 
forget--and there is Barry Goldwater. And he looks at me eye to 
eye, and I cannot remember exactly what he said, but what I 
think he said, without batting an eye, was, ``Hello, Senator,'' 
and just kept right on walking. One of those memorable moments.
    Let me say this. You know the basic missions of the 
Department of Homeland Security (DHS). It is a large, 
decentralized organization. I believe it made tremendous sense 
in 2002 to consolidate these various functions under the broad 
theme of homeland security. I have already seen, in 2\1/2\ 
months in office, the various symmetries that are achieved by 
having the components that manage land, port, air, maritime 
security when we look at threats to the homeland.
    The basic missions obviously are counterterrorism, border, 
port security. One of the things that has been brought home to 
me in my brief time in office is that the job of the Secretary 
of Homeland Security is to also facilitate trade at our 
various--lawful trade and travel at our various ports of entry. 
I appreciate that that is an important mission of the 
Department of Homeland Security. It is not just simply 
preventing unlawful trade and travel, but promoting lawful 
trade and travel.
    Cybersecurity is a big priority, which I think is satisfied 
by this budget request. Responding to natural disasters, as the 
chair mentioned, is obviously an important priority. I believe 
that FEMA is doing a better and better job of that, and we have 
learned from the days of Hurricane Katrina. I hope to 
personally travel to places that have been affected by 
hurricanes, like Hurricane Katrina, very soon. I hope to travel 
to Louisiana, Mississippi, and other places.
    Filling the various vacancies that exist at the senior 
levels of our Department is an important priority of mine. I 
spend virtually some part of every day filling vacancies, 
recruiting highly qualified personnel for these vacancies. I am 
very, very happy and pleased that the Senate last week 
confirmed three of our nominees to senior leadership positions: 
CBP, National Protection and Programs Directorate (NPPD), and 
our new inspector general. We have three more awaiting Senate 
confirmation. I believe one had his confirmation hearing this 
morning. The other had a confirmation hearing last week. So we 
are making good progress filling the vacancies there. My 
mission is to fill the vacancies with highly talented public 
servants because I believe good leadership begins with finding 
other good leaders.
    Last, because of the environment in which we operate, I 
will repeat here what I have said many times. I believe I am 
obligated to look for, identify inefficiencies, duplications of 
effort wherever they exist within the Department. One of the 
things that we are doing is building a budget process that is 
very mission oriented, getting away from budget requests that 
are made through stovepipes from each component where we begin 
the process by developing the basic strategy, the basic 
mission; developing the requirements to satisfy that mission, 
and then looking at and helping the components develop their 
own budget requests based on the larger mission. My hope is 
that we reduce inefficiencies in that way.
    We are developing a similar approach when it comes to 
acquisition, the acquisition process, to try to make it a 
little more department-centric so that we avoid duplications in 
acquisition requests, the acquisition process. And overall, one 
of my goals is to make the Department of Homeland Security a 
more efficient place, a more effective place, and to improve 
morale, which I believe that we are doing every day through 
visible, aggressive, and effective leadership.
    So I look forward to your questions.
    [The statement follows:]
                 Prepared Statement of Hon. Jeh Johnson
    Chairman Landrieu, Ranking Member Coats, and members of the 
subcommittee: I begin by thanking this subcommittee for the strong 
support you have provided to the Department the past 11 years. I look 
forward to continuing to work with you in the coming year to protect 
the homeland and the American people.
    I am pleased to appear before the subcommittee to present President 
Obama's fiscal year 2015 budget request for the Department of Homeland 
Security (DHS). The fiscal year 2015 budget request builds on our 
accomplishments over the past 11 years while providing essential 
support to national and economic security.
    The fiscal year 2015 budget reflects President Obama's strong 
commitment to protecting the homeland and the American people. It 
supports and continues our focus on preserving frontline priorities 
across the Department by cutting costs, sharing resources across DHS 
components, and streamlining operations wherever possible. It will 
ensure our men and women on the frontlines are well trained, equipped, 
and supported while continuing to maximize Department-wide 
efficiencies. It will also continue to make responsible investments in 
personnel, technology and asset recapitalization that are critical to 
ensuring our future security, while recognizing that difficult fiscal 
choices must be made.
    The basic missions of DHS are and should continue to be preventing 
terrorism and enhancing security; securing and managing our borders; 
enforcing and administering our immigration laws; safeguarding and 
securing cyberspace; and strengthening national preparedness and 
resilience. The President's fiscal year 2015 budget request provides 
the resources necessary to maintain and strengthen our efforts in each 
of these critical mission areas.
    In all, the fiscal year 2015 budget requests $60.9 billion in total 
budget authority, $49.0 billion in gross discretionary funding and 
$38.2 billion in net discretionary funding.
    The cornerstone of the Homeland Security mission is protecting our 
Nation against terrorist attacks. Through the efforts of both the Bush 
and Obama administrations, we have put al-Qaeda's core leadership on a 
path to strategic defeat. But the terrorist threat has continued to 
evolve. We must remain vigilant in detecting and preventing terrorist 
threats that seek to penetrate the homeland from the land, sea or air. 
We also must continue to build relationships with State and local law 
enforcement, and the first responders in our communities, to address 
the threats we face from those who self-radicalize to violence, the so-
called ``lone wolf'' who may be living quietly in our midst, inspired 
by radical, violent ideology to do harm to Americans--illustrated last 
year by the Boston Marathon bombing.
    The fiscal year 2015 budget strengthens the Department's 
antiterrorism efforts. It requests $3.8 billion for TSA screening 
operations to continue improving aviation security effectiveness by 
aligning passenger screening resources based on risk. It also requests 
more than $1 billion for FEMA's preparedness grants with particular 
emphasis on building and sustaining capabilities that address high 
consequence events that pose the greatest risk to the security and 
resilience of the United States and can be utilized to address multiple 
threats and hazards.
    Border security is essential to homeland security. Good border 
security is both a barrier to terrorist threats, drug traffickers, 
transnational criminal organizations, and other threats to national 
security and public safety, and a facilitator for legitimate trade and 
travel. We are gratified by the support Congress has provided to 
improve security at our borders and ports of entry. With that support, 
we've made great progress. There is now more manpower, technology and 
infrastructure on our borders than ever before, and our men and women 
in and around the border are producing results. But we must remain 
vigilant.
    The fiscal year 2015 budget builds on this progress by providing 
$362.5 million to maintain the necessary infrastructure and technology 
along the Nation's borders to ensure that law enforcement personnel are 
supported with effective surveillance technology to improve their 
ability to detect and interdict illegal activity in a safer 
environment. The budget invests $90 million in technology that will 
improve remote and mobile video surveillance systems and $11.7 million 
to recapitalize non-intrusive inspection equipment. The budget will 
allow DHS to complete the hiring of up to 2,000 new Customs and Border 
Protection officers, which commenced in fiscal year 2014, and an 
additional 2,000 officers funded by fees in fiscal year 2015, resulting 
in faster processing and inspections of passengers and cargo at U.S. 
ports of entry, which is projected to add nearly 66,000 new jobs, add 
$4 billion to GDP and result in more seizures of illegal items, such as 
drugs, guns, and counterfeit goods. The fiscal year 2015 budget 
supports the salaries, benefits, and operating costs for 21,370 Border 
Patrol agents and 25,775 CBP officers.
    With respect to removals and immigration enforcement, we must 
continue to prioritize our resources on those who represent threats to 
national security, public safety and border security. The fiscal year 
2015 budget will provide $2.6 billion to support Immigration and 
Customs Enforcement (ICE) activities to identify, apprehend, and remove 
aliens from the United States. The fiscal year 2015 budget also 
includes $124.8 million to continue expansion and enhancement of the E-
Verify program.
    We will continue to streamline and facilitate the legal immigration 
process while enforcing U.S. immigration laws through the smart and 
effective use of resources. As I have said many times, we must also 
take serious steps forward on immigration reform legislation and find 
common sense solutions to a problem we all know we have. I am committed 
to working with Congress to achieve that goal.
    In addition, we must continue efforts to address the growing cyber 
threat to the private sector and the ``.gov'' networks, illustrated by 
the real, pervasive, and ongoing series of attacks on public and 
private infrastructure. The fiscal year 2015 budget includes $1.27 
billion for DHS cybersecurity activities, including $377.7 million for 
Network Security Deployment, including the EINSTEIN3 Accelerated (E3A) 
program, which enables DHS to detect malicious traffic targeting 
civilian Federal Government networks and prevent malicious traffic from 
harming those networks. It also includes $143.5 million for the 
Continuous Diagnostics and Mitigation program, which provides hardware, 
software, and services designed to support activities that strengthen 
the operational security of Federal civilian networks. In support of 
Executive Order 13636, the budget will also provide $8.5 million to 
establish a voluntary program and an enhanced cybersecurity services 
capability.
    DHS also must be vigilant in preparing for and responding to 
disasters, including floods, wildfires, tornadoes, hurricanes, and most 
recently, chemical leaks like the 2014 spill into the Elk River in West 
Virginia that threatened the water supply of hundreds of thousands of 
people. We have come a long way since the days of Hurricane Katrina. We 
have improved disaster planning with public and private sector 
partners, nonprofit organizations, and the American people. With the 
help of this Committee, we have also improved the Department's 
emergency response agility through important changes to the structure 
of the Disaster Relief Fund, which brings immediate help and resources 
to our communities in their most dire times of need.
    Of particular note, the President's fiscal year 2015 budget funds 
production of national security cutter 8, as part of the 
recapitalization of the Coast Guard, and requests $300 million to 
complete the funding necessary to construct the National Bio- and Agro- 
Defense Facility, a state-of-the-art bio-containment facility central 
to the protection of the Nation's food supply and security.
    The fiscal year 2015 budget will provide $10.2 billion to support 
disaster resiliency, primarily through the grants programs that are 
administered by FEMA and the Disaster Relief Fund. Of this total, $2.2 
billion in total grant funding will support State and local government 
efforts to prevent, protect against, respond to, and recover from 
incidents of terrorism and other catastrophic events. Also included are 
Firefighter and Emergency Management Performance Grants that support 
local first responders in achieving their missions, and $7 billion in 
DRF funding to provide immediate and long-lasting assistance to 
individuals and communities stricken by emergencies and major 
disasters.
    Lastly, the budget includes the President's Opportunity, Growth, 
and Security Initiative, which provides a roadmap for additional 
investments to help secure our Nation's future. Specifically, this 
initiative funds $300 million for FEMA's reformed, risk-based approach 
to increase preparedness, mitigation, and emergency response to 
disasters and other threats in communities across the country. The 
Opportunity, Growth, and Security Initiative also dedicates significant 
resources to help our communities prepare for the effects of climate 
change, including $400 million to support planning and pilot projects 
for cities and communities through FEMA hazard mitigation assistance 
and national preparedness grants, and $10 million to help the National 
Protection and Programs Directorate identify critical infrastructure 
facilities and analyze their ability to remain functional after 
disasters.
    As Secretary of Homeland Security, I am mindful of the environment 
in which we pursue each of these important missions. The days are over 
when those of us in national and homeland security can expect more and 
more to be added each year to our top line budgets. I therefore believe 
I am obliged to identify and eliminate inefficiencies, waste, and 
unnecessary duplications of resources across DHS's large and 
decentralized bureaucracy, while pursuing important missions such as 
the recapitalization of the aging Coast Guard fleet. Over the past 2 
years, the Department has found innovative ways to reduce cost and 
leverage efficiencies, reducing DHS-wide expenses by over $2.7 billion 
during that period. We also reached a major milestone last year when 
the Department achieved its first unqualified or ``clean'' audit 
opinion on its financial reporting. These are important steps in 
maturing the Department's management and oversight functions, but there 
is more to do.
    As part of this agenda we are tackling our budget structure and 
process. DHS currently has 76 appropriations and over 120 projects, 
programs or activities, and there are significant structural 
inconsistencies across components, making mission based budget planning 
and budget execution analysis difficult. We are making changes to our 
budget process to better focus our efforts on a mission and cross-
component view. I, along with the Deputy Secretary, am personally 
engaged to provide the necessary leadership and direction to this 
process. I look forward to further discussing these ideas and 
strategies with this subcommittee as we develop ways to refine our 
planning process and appropriation account structure in order to 
improve how the Department resources its missions.
    As part of a management reform agenda, I am also doing a top to 
bottom review our of acquisition governance process--from how we 
develop our strategies, to the development of our requirements, to how 
we sustain our platforms, equipment and people and everything in 
between. Part of this will include the thoughtful, but necessary, 
consolidation of functions to provide the Department with the proper 
oversight, management and responsibilities to carry out this task. This 
will allow DHS to more fully ensure the solutions we pursue are 
responsive to our strategy, technologically mature, and cost-effective. 
I look forward to sharing our ideas and strategies with this 
subcommittee as we move forward in this area.
    In closing, the Department's fiscal year 2015 budget request 
recognizes our current fiscal realities and works within them. It is a 
responsible plan that will strengthen our Nation's security while 
allowing the Department to continue to achieve its core objectives. I 
thank the Committee for inviting me to appear today. In the pursuit of 
our important mission, I pledge to this Committee my total dedication 
and all the energy I possess. I look forward to working with you to 
meet our shared priorities.

    Senator Landrieu. Thank you, Mr. Secretary, very much. 
There have been two votes called at 2:30 p.m. I am going to 
start the line of questioning, and then I will go vote. Senator 
Coats will continue. We will try to keep the hearing moving 
through the voting process if we can.
    Secretary Johnson. I can stay past 4 p.m. if you need me 
to.

                        NATIONAL FLOOD INSURANCE

    Senator Landrieu. Yes, that is okay. We are going to try to 
do our work before 4 p.m.
    Let me begin where I started, national flood insurance. And 
I hate to sound like a broken record, but I have got 400,000 
people in Louisiana, 500 million across the country affected by 
this. This budget was put together before, Mr. Secretary, as 
you know our new bill had passed. So the budget that we are 
looking at now was built on an old law, which hopefully will be 
old in just a few weeks when the President signs a new one.
    It was built on Biggert-Waters, which is happily going out, 
and a new bill coming in. The new bill requires limiting annual 
individual premium increases, putting affordability back in the 
formula, issuing refunds to people that were overcharged in the 
last year, and, as I said, reinstating affordability.
    You know that only 60 percent of the people in our country 
that should be compliant with flood insurance are currently 
compliant, which is one of the problems with the program, 
limiting the premiums being paid into the program. So I have 
questions. Do you agree that increasing program participation 
is critical to the long-term solvency of this overall program? 
What efforts do you plan to take to accomplish that objective?
    Secretary Johnson. Yes, I agree with that basic principle. 
The more participants you have in an insurance program, the 
healthier the program ought to be. That depends in part on the 
nature of who the participants are, but an overall goal ought 
to be to broaden the base of those who participate in the 
program.
    I think the overriding objective has to be, whether it is 
through Biggert-Waters or some other law that the Congress may 
pass, to ensure that we have a solvent program for the benefit 
of everyone who needs it or who might need it. So solvency has 
got to be the key. That was an objective of Biggert-Waters, but 
there are issues with affordability and I understand that.
    I think one of the things that I can do on the executive 
branch side is to ensure that communities understand that when 
they have issues with the maps, there is a process, under 
current law at least, that they raise objections and that they 
work with FEMA on any issues they have with resolving the maps. 
There is a public process, and there is an appeal process to 
that.
    I have had conversations with several Governors in which I 
thought it was not apparent to them that there was this built-
in process to raise issues like this. And so, I want to make 
sure that we are highlighting that. But I support the overall 
goal of a solvent program that does not raise all kinds of 
affordability issues for people who need it.

                           COAST GUARD FLEET

    Senator Landrieu. Well, I appreciate that because if people 
cannot afford to be in the program, then you will not have a 
program, and the debt will increase, and the program will 
collapse. So the issues of solvency and affordability are two 
equally important goals, and that is what our new law attempts 
to secure.
    On the Coast Guard, your testimony notes the importance of 
pursuing important missions, such as recapitalizing the aging 
Coast Guard fleet. That is a high priority of several of us on 
this Committee, and thank you for mentioning that in our 
meetings that we have had.
    Can you talk about your efforts to modernize the fleet, 
specifically the fast response cutters and others, and what 
your impressions are of our efforts to be successful in that 
regard? This budget includes only two. Ideally we need six. 
Please respond.
    Secretary Johnson. I am convinced that there is a need for 
all three classes of ships--the national security cutter (NSC), 
the offshore patrol cutter (OPC), and the fast response cutter 
(FRC). I know that the Coast Guard fleet is supposedly the most 
aged fleet of any navy in the world. We need to recapitalize, 
so I support the overall goal of recapitalization.
    I am pleased that in this budget request, we have made a 
request to fund the last NSC. We have a funding request to 
continue production down the line toward production of the OPC. 
And we had to make some choices, but we wanted to also maintain 
each line of recapitalization effort. So in our request is a 
request for two additional FRCs. In different times, I would 
have preferred that we had asked for more, but I thought it was 
important that we maintain that assembly line; we maintain that 
flow. So we have asked for two to keep each of these lines 
open.

                        CYBERSECURITY: EDUCATION

    Senator Landrieu. We will continue to work. And my final 
question is on the cybersecurity education. I was really happy 
to hear you say that that is a concern of yours because it is a 
concern of mine, that the threats are obviously real and 
growing, and the numbers are being calculated each day. But the 
kinds of graduates that we see from our high schools, our 
technical schools, are they producing what we need to address 
these cyber threats? Could you comment about some of your ideas 
and thoughts about that? And as we have discussed, we have got 
a fairly robust model in Shreveport, Louisiana, actually in 
Bossier, a cyber innovation center. I have been pleased to have 
the former Secretary there who was very impressed with our 
cyber education component that can be scalable and moved to 
other areas of the country as well. Would you just take a 
minute to comment on your understanding of the challenge before 
our Nation in terms of educating the workforce in cyber defense 
and offense?
    Secretary Johnson. In addition to the basic missions of 
securing the dot.gov world and the private cyber world, I think 
that a key to all of that is recruitment of the next generation 
of cyber specialists. And so I am personally on a recruitment 
tour. I have visited various colleges and universities so far 
to talk about this issue, to try to recruit young talent who 
will not only consider cybersecurity in the private sector, but 
also cybersecurity serving their country.
    So I am on that personal mission, and I believe cyber 
education and recruitment of those in cyber education is 
crucial. It is a high priority of mine. And one way or another, 
I think we need to fund these programs. And I want to work with 
the Committee to ensure that we do that. Senator, you and I 
have had conversations about some of the cyber talent that 
exists in your State, and I definitely want to tap into that.
    Senator Landrieu. Thank you, and believe me, there is 
talent all over the country outside of what we call the blast 
zone, which is the zone that we are sitting in.
    I am going to turn it over to Senator Coats, but please 
note, members, that there has been an $8 million reduction of 
cyber education in this budget, and I think it is very 
important for our budget to maintain a commitment, along with 
education and defense, on meeting the challenge today and 
working cooperatively with those other departments.
    So I am going to turn it over to Senator Coats. I am going 
to go vote and then come back, and we will try to continue the 
hearing.
    Senator Leahy. And then after Senator Coats finishes, I 
will ask my question.
    Senator Landrieu. Senator Leahy, okay.
    Senator Leahy. We still have time.
    Senator Landrieu. Yes.
    Secretary Johnson. That is fine. If you need to break, that 
is fine.
    Senator Coats. Well, we can kind of juggle back and forth.
    Senator Landrieu. Senator Leahy can chair.
    Senator Coats [presiding]. The chairman will go and vote, 
and then I will go and vote. And I will try to be brief also, 
Mr. Secretary.
    Since we ended on cyber, let me start on cyber. There is no 
question that DHS plays a seminal role in cybersecurity, and 
you are responsible for protecting the dot.gov domain, which is 
critical, I think, in many, many different ways. But despite 
the nature of the threat and the elevation of the threat, in 
fiscal year 2014 when it was clear that DHS could not spend all 
of the funds that were requested, Congress reduced the level of 
funding.
    Would you comment on that and tell me where are we in terms 
of getting cybersecurity capabilities in place? Are they up and 
running, are they effective? If we need more, if you need more, 
tell us what is needed. Clearly it is a top priority, and we 
ought to make sure that it is adequately funded. There have 
been a number of question marks about whether DHS can handle 
this mission. I think you can. But what do you need in order to 
do it?
    Secretary Johnson. We made a funding request for $377 
million for the EINSTEIN system to protect the dot.gov world. I 
am told that we expect to deploy that system very soon----
    Senator Coats. What does ``very soon'' mean?
    Secretary Johnson. Perhaps within the next year or so, I 
believe.
    Senator Coats. Okay.
    Secretary Johnson. So we are close to being ready with 
that. I, too, believe that DHS should be the coordinator of the 
Federal Government's efforts in this regard, both with respect 
to the civilian government world and the private sector. I 
think DHS is the appropriate interface with the dot.com world 
in this regard. But we made a significant funding request so we 
can get EINSTEIN up and ready, and I hope to do that soon, 
certainly on my watch.

                           IMMIGRATION REFORM

    Senator Coats. And I would just urge you--I think you are 
very effective in reaching out to private industry, and I would 
urge you to work with them. Information sharing is critical to 
cybersecurity. It must be done in a way that protects privacy 
while providing security for our Nation. We are going to make 
another attempt at legislation this year. I serve on the 
Intelligence Committee and the Commerce Committee, and both 
Committees feel the urgency of the need to get some legislation 
in place.
    So I simply want to say we want to work with you. You will 
play an essential role in all of this. But we have to assure 
members and the public that the role you are playing is going 
to be an effective one. So I want you to keep that high on your 
list of priorities for the Department.
    Let me just address the issue of the proposed passenger 
security fee increases. My suggestion is that we start working 
together to find a potential plan B. I am not saying that you 
ought to give up on the budget proposal. What I am saying is 
that having just gone through fee changes in the agreed-upon 
budget, the Ryan-Murray budget agreement, I cannot find a lot 
of political support for another fee increase. And I'm not 
pushing for any such support. So, it is likely we will not see 
more fee changes this year.
    That creates a hole in the budget, and I think we need to 
start looking at where we can try to fill that hole. I am not 
asking you for an answer on that now, but that is something we 
need to work on.
    I would like you to talk to me a little bit about the 
reduced funding for detention beds. We talked about border 
security and the situation in the Rio Grande Valley. If we are 
going to move forward on immigration reform, the public has to 
understand and the Congress has to understand the basis on 
which we have secured the border. And without that preceding 
comprehensive immigration reform, I do not think we are going 
to be successful moving forward. At least that is what I hear 
from the House of Representatives.
    So my question is, with the decrease in funding for 
detention beds and with the surge that is coming across, 
particularly in the Rio Grande Valley, does that not 
potentially jeopardize our ability to arrest, detain and remove 
illegal immigrants?
    Secretary Johnson. I think comprehensive immigration reform 
is critical as a matter of Homeland Security. Others talk about 
it in terms of economic growth. I agree with that. But from my 
perspective, as a matter of homeland security, it is critical 
that we have comprehensive immigration reform.
    A component of that is border security. I believe that we 
can secure the borders in a number of ways, including detention 
space. You are correct that the current law for fiscal year 
2014 requires us to maintain 34,000 beds--an average of 34,000 
beds in the course of the fiscal year. Our best estimate is 
that and our best assessment is that we need space for 30.6 
thousand, coupled with other things to promote border security.
    We are putting an unprecedented level of assets on border 
security, and I think we are making good progress. And we are 
also asking for $94 million for a program for alternatives to 
detention. So those are a number of ways in which I think we 
need to secure the border.
    Senator Coats. Thank you. And now onto someone who has had 
a lot of experience chairing a committee, Senator Leahy. I am 
going to turn it over to you, Senator. I am going to run to the 
floor for the vote. Hopefully Mary will be back, but take 
charge. You know how to do it.

                      BORDER PATROL AGENT STAFFING

    Senator Leahy [presiding]. I am going to ask and run also, 
but, Secretary Johnson, I have enjoyed the times we have met 
and talked, including today when you talked about Barry 
Goldwater. In 1980, I had the second closest election in the 
United States. Back home right after, somebody said, ``Did that 
election teach you nothing, the closeness?'' And I said, ``It 
must be my philosophy.'' So I said I am going to call the 
Senator who had the closest election in the United States. So I 
called him up and I said, ``Senator Goldwater, what is the 
lesson they are telling us?'' After that, he asked the retiring 
Senator from New England, Senator Ribicoff, he said we have to 
change--I am moving into Senator Ribicoff's office, you move 
into mine. I have been there since 1980. Senator Goldwater, he 
was a good friend. I can just imagine him making that comment.
    You were very helpful and the Department of Homeland 
Security and FEMA were very helpful when we got hit with 
Tropical Storm Irene. And I appreciate that. I spent a lot of 
time with them. We have some things to be completed yet, so 
please tell FEMA do not forget the little State of Vermont. 
They have done a wonderful job, and we still have things to get 
done.
    The other thing, Senator Coats and you talked about border 
staffing. Usually when we talk about our border, everybody 
thinks of the southern border, and when we add more people, 
they go to the southern border. Canada is our biggest trading 
partner. It's a very long border. I can drive to the Canadian 
border in an hour from my home in Vermont. My wife's family 
came from Canada, used to going back and forth. It has become 
far more difficult.
    We included funds in the omnibus for hiring 2,000 new 
agents, and that is good. But we also have agents retiring. I 
am afraid they will all go to the southern border, and the 
problem we have now, even though they are our biggest trading 
partner, we have huge delays. People are just used to going 
back and forth easily on that border, even so much so that 
radio stations in Montreal are telling people do not go down 
and spend in the United States. Here is how long the border 
crossing is as of this moment.
    They are expanding their Auto Route 35, the U.S. border in 
Vermont. A lot of these travelers come to upstate New York, to 
Vermont, New Hampshire, Boston. Can you assure me that as you 
fill these positions, attention will be given to the northern 
border?
    Secretary Johnson. Yes, Senator, absolutely.

                  CYBERSECURITY: COLLABORATIVE EFFORT

    Senator Leahy. It has become really worrisome, and I know a 
lot of these people--businesspeople in Vermont and others, and 
people who are tourists, members of my own family, who suddenly 
will sit there for 2 hours to go across the border, but they 
are going up for just 2 hours or 3 hours.
    Cybersecurity I think is very important. You submitted 
budget justification materials for $1.25 billion for 
cybersecurity. Will you work with private institutions and 
public agencies and try to bring everybody together so that we 
do not end up with a situation where all of a sudden the day 
after a cyberattack, everybody is coming together?
    Secretary Johnson. I agree with that. The request is for 
funding across the entirety of DHS, which includes, for 
example, Secret Service's law enforcement efforts. Secret 
Service is responsible for finance crimes, including the 
current investigations of the Target matter and the Neiman 
Marcus matter. So the request is significant, and I believe it 
should be, for purposes of cybersecurity.

                            NORTHERN BORDER

    Senator, if I could just go back to your other comment 
about the northern border, I have had conversations with a 
number of Members of Congress about the importance and the 
emphasis on the northern border both in terms of trade and 
travel and border security. I have had conversations with the 
Canadians about this, too. I think a big milestone for us was 
what we did at the Peace Bridge in Buffalo a couple of weeks 
ago.
    So I can assure you that when we make these allocations, we 
are paying attention to the northern border as well as the 
southern border.

       IMMIGRATION: EMPLOYMENT CREATION IMMIGRATION VISA PROGRAM

    Senator Leahy. I will invite you to come to Vermont with me 
some time, not today. We are having about 20 inches of snow, 
and it is so bad that some of the schools will open an hour 
late tomorrow with that kind of snow. Some may not open, which 
would be unusual.
    And lastly, the EB-5 program has been extremely helpful to 
us. We used to adjudicate applications within 6 months. It is 
now taking 12 to 14 months, which really cripples the program. 
I do not expect a full answer here, but will you look into that 
and find out why they have gone from 6 months to as much as 14 
months to adjudicate applications?
    Secretary Johnson. Yes, and I have already begun looking 
into that.
    Senator Leahy. I am sure. Thank you, and remember that 
invite to Vermont at some time.
    Secretary Johnson. Thank you.
    Senator Leahy. And we will stand in recess subject to the 
call of the chair.
    [Whereupon, at 2:46 p.m., the hearing was recessed, subject 
to the call of the chair.]
    Senator Landrieu [presiding]. The subcommittee will come to 
order. Let me continue with the line of questioning, and 
members will be coming back as the votes continue on the floor 
of the Senate. I know that Senator Coats had his questions 
asked and answered. Senator Leahy, he brought up another 
important program, the EB-5, which is under evaluation and 
restructuring. Very promising program, as you know, to create 
jobs and spur investment here if it can be worked and improved.
    Before I go into my question, could you do another 2 
minutes--I can read the testimony, but 2 minutes on the EB-5 
program and what you are doing to make it work effectively, 
transparently, and what are your hopes for, let us say, the 
next 18 months in terms of job creation in America?
    Secretary Johnson. Well, we have a review ongoing of the 
EB-5 program that several people have asked me to do. And I 
agree that it is an important, worthwhile program for job 
creation in this country. At the same time, we have to be 
mindful of any security concerns that may exist around the 
program, which often can lead to delays in the application 
process.
    So I think that we can always do a better job in terms of 
efficiency and security, and I want to look for ways to 
accomplish that. And so, I am waiting to hear from my people 
about how we might do a better job around the EB-5 program 
because I believe that overall, it is a very worthwhile 
program.

                       GRANTS: MITIGATION GRANTS

    Senator Landrieu. Okay. Mr. Secretary, I noted in the 
President's budget the $400 million in Pre-Disaster Mitigation 
Grants was included not as a part of the base budget because of 
restrictions, but as part of the aspirational budget, as I 
should say, should we be able to identify revenues.
    Can you talk for a minute about your views or understanding 
of what these mitigation grants might be used for and how they 
would be distributed? Is it based on need or competitive 
proposals? Do you have any detailed information? If you do not, 
you could submit it. But any general ideas about how these 
mitigation grants might be used around the country and for what 
purposes?
    Secretary Johnson. I would like to give you an informed, 
detailed answer. So if I could take that question for the 
record, I would very much appreciate doing that.
    [The information follows:]

    Answer. Enactment of the Opportunity, Growth, and Security 
Initiative (OGSI) would provide $400 million for this program. Funding 
would support competitive grants to State, local and tribal governments 
through the Pre-Disaster Mitigation program. This program provides 
grants for eligible mitigation planning and projects that reduce 
disaster losses and protect life and property from future disaster 
damages. This includes support for adaptation planning and pilot 
projects for cities and communities through hazard mitigation 
assistance, building on administration efforts to implement the 
National Mitigation Framework. Furthermore OGSI provides cost-effective 
project grants to reduce flood losses, structure elevation, retro-
fitting of existing buildings, soil stabilization; and management costs 
for the State to help administer mitigation programs.
    Projects that propose mitigation to address climate change weather 
extremes such as winter storm severity; landslides; flooding; 
earthquake; tsunami; and drought, for example, will receive additional 
consideration.
    Each State will receive a minimum allocation of 1 percent of total 
funds available. FEMA will allocate the remaining funds to States, 
territories and tribal governments on a competitive basis.

                    CYBERSECURITY: EINSTEIN PROGRAM

    Secretary Johnson. If I could, and I will not take too much 
of your time on this, Senator, but I did want to clarify 
something I said earlier about the EINSTEIN program. We are 
right now at phase three. The program is operational in certain 
limited respects. We expect to complete phase three, which is 
the last phase, within the next year. But it is operational 
with respect to email and denial of services right now, and so, 
we are getting to the last phase. So I just wanted to clarify 
that. Sorry.

                            BORDER SECURITY

    Senator Landrieu. Okay. Thank you. Let us go to illegal 
border crossings, which is a very important issue before our 
Committee and the authorizing committee as well. Members that 
represent States along the southern border tend to be more 
concerned and focused than others, but it is an issue for the 
Congress.
    I think we have done some extraordinary work in the last 
couple of years securing our border, building a smarter fence, 
not just a higher fence, but a smarter fence. We have been 
apprehending--in the past at least, apprehensions have been up. 
But I understand that there has been a recent change--in 
apprehensions.
    And I would like you to talk about that and explain to the 
Committee the ages of people that are being apprehended. Are 
they adults? Are they teenagers? Are they children? I 
understand undocumented children or unescorted children are an 
increasing concern to you and to your Department. The Rio 
Grande Valley sector has now surpassed the Tucson sector as the 
busiest crossing on the Southwest border. Forty-four percent of 
all undocumented aliens are apprehended along this border 
entering through the valley. Over the past 6 months, they have 
grown by 72 percent compared to the same time in 2013, and 
again, one of the increases that is troubling is unaccompanied 
children.
    So what we can attribute this increase in illegal border 
crossings to? It is good that they are being apprehended, but 
what are your thoughts on that? And what can we do to get a 
handle on it? What are some of the suggestions you have, and 
what is represented in this budget to address it?
    Secretary Johnson. That is a very good and big question. 
Where do I start? I want to say all of the above. Border 
security is something that can be very fluid because there are 
different magnets that operate at different points of time in 
different regions of the border. It is a constantly evolving 
situation.
    So right now, for example, we are seeing--we have an 
overall decrease in the number of apprehensions, which I regard 
as a good thing as reflective of overall attempts to cross the 
border illegally. But we have seen a recent backup again just 
within the last year or two of some small measure, but overall 
we have seen a decrease in the level of apprehensions. The 
spike upward some would attribute to an improving economy in 
the United States.
    The phenomenon that I noticed that was called to my 
attention very vividly when I was in south Texas not long ago 
was the number of third country nationals who were attempting 
to cross our borders in south Texas from places other than 
Mexico. So the day I visited the detention center in 
Brownsville, we had 995 detainees--you and I have discussed 
this, Senator--and only 18 percent of those were Mexican. And 
there were some from 30 other nationalities there.
    Senator Landrieu. What would be the three or four other 
countries that were most notable? I think you said Guatemala?
    Secretary Johnson. Guatemala is one, but it is not at all 
limited to the American continent. It is nationals from the 
other continents as well who are coming to the American 
continent, working their way up through Mexico, trying to get 
into our border. So this is an issue that I am working with the 
Mexican Government on.
    And the good news here is that we have devoted a lot of 
resources to the overall effort, an unprecedented level. 
Overall I think we are making good progress, but we have to 
remain vigilant. And we have an issue with third country 
nationals, as you point out. We have an issue with 
unaccompanied minors. By law, when we have an unaccompanied 
minor, we are obligated to turn that child over to the 
Department of Health and Human Services (HHS) to reunite with 
his or her family, either in the country of origin or some 
family unit in the United States. We try to accomplish that as 
quickly as possible.
    I am concerned about aspects of the system that may serve 
as magnets for additional immigration--illegal immigration, and 
so we have to be mindful of that. But overall, we have to 
remain vigilant and monitor the challenges as they may migrate 
from one part of the border to the other.
    And so, this budget request I think accomplishes that with 
new personnel and with about $100 million, maybe $90 million 
for increased mobile and remote surveillance on the border. I 
think that is very important. And our border security 
specialists have told me that added surveillance equipment, in 
particular, is important.
    Senator Landrieu. Thank you. I think this is shocking 
actually--70 percent of all Southwest border apprehensions are 
apprehensions other than Mexican.
    So the vast majority are not Mexicans that are being 
apprehended. They are people from all other countries.
    I noticed on the list, which I do not have in front of me, 
but it was over 30 or 40 additional countries. And you are 
right, it is not focused just on the Americas. It was from 
other countries and continents as well. In addition, the 
increase in unaccompanied alien children, that would be defined 
as children under the age of 17 or 16, or do we know what the 
cut off is? Does anybody know?
    Secretary Johnson. I am not sure whether it is 17 or 18 or 
16.
    Senator Landrieu. Or 18?
    Secretary Johnson. I can get that for the record for you.
    [The information follows:]

    Answer. The Homeland Security Act of 2002 first defined the term 
unaccompanied alien child as a child under the age of 18 years with no 
lawful immigration status who has no parent or legal guardian in the 
United States or no parent or legal guardian is available in the United 
States to provide care and physical custody.

    Senator Landrieu. Okay. Let us be clear about the ages. And 
can you talk about children under the age of, let us say, 10, 
what you noticed when you went on your trips down there? Were 
there dozens, hundreds of children under the age of 10 that 
would be unaccompanied?
    Secretary Johnson. I have not personally observed that 
phenomenon on my trips to the border. I know it is a phenomenon 
of great concern. It should be of national concern to us. And 
so, I want to really work on this problem with HHS to make sure 
that when it happens, we unite the child with a family member 
as quickly as possible, and that there is nothing in our 
process that may serve to encourage this type of migration 
because it is obviously not a good phenomenon.
    Senator Landrieu. And I think it is important for the 
record that 65 percent of all the border juvenile 
apprehensions, with 65 percent is almost--well, it is 18,500. 
So I am assuming that is between the ages of zero and 16 or 
zero and 17. We put language in our budget last year on this 
subject because this issue came up. We have not had a major 
piece of legislation regarding it. I think there might have 
been some pieces of the immigration reform that passed the 
Senate addressing this.
    But in our appropriations bill last year, we put in 
language requiring you to work with HHS on this issue because, 
you know, that is 19,000, 20,000 very young people. I think 
when people think of illegals crossing the border, they are 
thinking of 20-, 30-, 40-year-olds. But there are 19,000 that 
are under the age of 16, many of them unaccompanied. And we 
know what happens when children are not in the protection of 
the family. Horrible things happen. So let us stay focused on 
that.
    I have got to go vote and come back. I have got two 
additional questions, but I am going to turn the questioning 
now over to Senator Coats. And I will come back, and I just 
have a few more questions for the record. Thank you, Mr. 
Secretary.
    Senator Coats. Well, Madam Chairman, thank you. It just 
occurs to me, the Secretary and I can come to some conclusions 
here and wrap this baby up. But I will not do that.
    Senator Landrieu. Okay.
    Senator Coats. I promise you.
    Senator Landrieu. I could ask my two questions.
    Senator Coats. Yes, you can.
    Secretary Johnson. Senator, really I can be flexible. So if 
you need to break for another vote, that is totally fine. It is 
at your convenience.
    Senator Coats [continuing]. Madam Chairman, you can 
probably ask your questions, because they are going to hold the 
vote open for you.
    Senator Landrieu. Okay. Well, why do we not take a recess 
for just a few minutes and vote, and I will have a few when I 
come back? Thank you, and if you want to continue you can.
    Senator Coats [presiding]. Okay. We will make keep the 
hearing going. Well, I do not, Mr. Secretary, know exactly what 
you talked about while I was away. My staff has indicated that 
you discussed the tragic and complex issue of unaccompanied 
minors. And so, I will get back briefed on that discussion.
    But talk a little bit about your border security strategy 
and how you fight this sort of Whack-a-Mole problem that 
happens when you secure the border in California or deal with 
issues in Arizona, and they find an opening in the Rio Grande 
Valley. How do you attempt to address this so that we put in 
place the security we need across the Southwest border?
    Secretary Johnson. That is a good question. And I think the 
key is--you are correct. If you plug a hole one place, somebody 
is going to dig a hole in another place. I think the key is to 
stay one step ahead of the problem. Our budget includes about 
$90 million for remote and mobile surveillance equipment on 
boats that patrol the border and the Rio Grande and other types 
of mobile surveillance equipment, in addition to personnel. 
That aligns with what patrol border agents have told me when I 
visited the border. And I asked them what do you need, and they 
talk in terms of more surveillance equipment.
    So I think that surveillance is a very important way of 
staying one step ahead of the trends that may emerge each time 
you concentrate a lot of assets in any one particular place. My 
predecessor used to say, build a 50-foot wall, and I will build 
a 51-foot ladder or a tunnel. So I think we need to stay one 
step ahead of the issue, and I think technology goes a long way 
in that regard.
    Senator Coats. As you know, there was a run made at that 
putting a ``virtual'' border in place with sensors and so 
forth, and it did not turn as effectively as people had hoped. 
Now we are making a second attempt. What kind of confidence do 
you have that that technology has now arrived and can give us 
the kind of border security and situational awareness that we 
need?
    Secretary Johnson. I think our technology is pretty good, 
and we need to make further investments in it. I know from my 
experience at the Department of Defense (DOD) that technology 
in this regard is pretty sophisticated. It exists, and we just 
need to invest in it.
    Senator Coats. I think it is a great asset for us that you 
have experience with the military and with DOD. That you know 
who to talk to, and how to track down what works and what would 
be most suitable. I think that experience is going to be very 
valuable for DHS. Senator Cochran, have you had an opportunity 
to ask questions?
    Senator Cochran. No, I have not.
    Senator Coats. Well, I am going to give you that right now.
    Secretary Johnson. Senator, the United States military for 
4 years was my client. The military is a very can-do 
organization, and I hope I have brought some of that with me to 
the Department.
    Senator Coats. Good. Thank you.

                       DATA CENTER CONSOLIDATION

    Senator Cochran. Let me ask you this. Mr. Secretary, your 
Department has led the Federal Government in finding cost 
savings through the consolidation of data centers. This 
activity is already resulting in millions of dollars in annual 
savings, with even greater savings predicted for the future. 
How critical do you believe data center consolidation is to the 
Department's ability to operate effectively and efficiently? 
And how much can it save the taxpayers?
    Secretary Johnson. I think consolidation of data centers 
and other resources we have to achieve efficiencies is 
important. It is important. It is one of my goals. I know we 
are working on data center consolidation right now. I believe 
we have funding adequate to complete the projects that we have 
in this regard. And I would like to see us do more of this kind 
of work for the benefit of the taxpayer.

                   NATIONAL SECURITY CUTTER: FUNDING

    Senator Cochran. I noticed, too, in the budget request 
submitted by the Department there is included a request for 
full funding to construct a seventh national security cutter--
    Secretary Johnson. Yes.
    Senator Cochran [continuing]. And to begin the procurement 
of parts of the eighth national security cutter. With 
increasing concerns about border security and protection of our 
natural resources, the maritime domain's strategic importance 
continues to grow. How have the current national security 
cutters improved your capabilities to accomplish the missions?
    Secretary Johnson. We have an aging fleet. As I said 
earlier, I am told that the current Coast Guard fleet is the 
most aged fleet of any navy in the world. I tend to believe 
that is true when you look at the age of a lot of our vessels.
    I have had several conversations with the commandant of the 
Coast Guard about how a more modern fleet can promote maritime 
security, national security, and border security, and I am 
convinced that that is correct. I am convinced that a more 
modern fleet can also promote commerce, and it is something 
that we need to remain committed to doing.
    We exist in a fiscally constrained environment, but I am 
determined to continue forward progress on Coast Guard 
recapitalization in every respect that we can.

                        CYBERSECURITY: RESEARCH

    Senator Cochran. Mr. Secretary, recent cyberattacks have 
highlighted vulnerabilities in our critical infrastructure and 
in private companies as well. I think we all recognize the 
important role that cybersecurity research and development 
plays in keeping head of our adversaries in order to protect 
our national computer systems and critical infrastructure.
    Because the Department is still a relatively young one and 
you do not have a robust laboratory network, how important is 
it for you to leverage other departments' laboratories and 
existing university capabilities to complete important research 
in cybersecurity?
    Secretary Johnson. I am also interested in leveraging the 
assets, know-how, and experience of other agencies, and I would 
like to try to accomplish that. I would note also that in our 
budget request, there is within Science and Technology 
Directorate a request for an investment of $72 million in cyber 
research by the Department of Homeland Security. And I do think 
that that is a priority.
    But I agree if we can leverage experience, assets from 
other departments, like the Department of Defense, we should 
try to do that.
    Senator Cochran. Mr. Chairman, thank you.
    Senator Coats. Thank you.
    Senator Murkowski.

                           ARCTIC OPERATIONS

    Senator Murkowski. Thank you, Mr. Chairman. Secretary, 
welcome. Thank you for your leadership in so many different 
areas. I will start off my questions to you by inviting you to 
Alaska. You do not need to come right now. It is still winter 
there, but it is actually going to be a little bit colder here 
in Washington, DC, than it will be back home. So any time you 
want to come north, it is going to be safe, and we will welcome 
you warmly.
    I want to ask you the same question that I will be asking 
all of the secretaries throughout the appropriations hearings, 
and that is to define or clarify from your Department's 
perspective where this Administration is placing its budget 
priorities when it comes to the Arctic.
    You will recall that the President released the 
implementation plan for the national strategy for the Arctic 
region in January. This plan lists the Department of Homeland 
Security as the lead agency for seven different objectives 
here, and the supporting agency for a host of others.
    As I look through the budget, I see that there is $2.1 
million for Arctic operations. Of course, we are going to be 
stepping up next year as the United States will be chair of the 
Arctic Council, a leadership role that really the rest of the 
Arctic world and truly the globe is looking at our leadership.
    Very briefly, if you can define for me what level of 
emphasis are you placing on the Arctic objectives, and how do 
you anticipate that you will implement this Arctic plan in the 
next several years--and specifically in the next fiscal year.
    Secretary Johnson. First of all, I have no trepidations 
about Alaska cold weather. I was in Dead Horse, Alaska exactly 
3 years ago----
    Senator Murkowski. You are a tough one, I know.
    Secretary Johnson [continuing]. To get on a submarine going 
to the ice in the Arctic. That was exactly 3 years ago in 
March, and I have been to Barrow, Alaska, in December--in the 
month of December. So I know cold.
    I believe, first and foremost, that our priorities in the 
Arctic surround increasing commerce there. I think that people 
might debate the cause, but as the Coast Guard has observed 
less freezing over of the Arctic, more open water, that leads 
to more commerce. Therefore, we need an increased Coast Guard 
presence in the Arctic, which is why--it is one of the reasons 
why I think recapitalization of the Coast Guard is so 
important.
    So that, to me, is first and foremost in my mind in terms 
of the importance of the Arctic region and the emphasis we 
ought to place in investments there.

                 NATIONAL SECURITY CUTTER: HOME PORTING

    Senator Murkowski. Well, I appreciate you saying that, and 
I appreciate your response to several different members on the 
significance of the recapitalization. I could not agree with 
you more. I also acknowledge, as I am sure that you do, the 
role the Coast Guard is taking on increased priority and 
presence as we are seeing different levels of operations in the 
Arctic, whether it is cruise ships coming up over the top, or 
whether it is container vessels through the Bering Strait. The 
level of activity that we are seeing there is unprecedented, 
and how we handle that is going to be key going forward.
    We mentioned that one of the aspects of Customs and Border 
Patrol that perhaps many folks are not thinking about is you 
have some wide open border along the coast of Alaska where you 
might have German tourists that are disembarking off of a 
cruise ship coming into Barrow. How we handle that going 
forward is going to be something of interest. And I just want 
to make sure that it truly is on your radar screen.
    You have mentioned the national security cutters. I would 
agree with you on their significance and that they are a 
priority. I have asked for the Coast Guard to look very, very 
critically at home porting a national security cutter in 
Kodiak. Currently, the closest home port for the national 
security cutter is based out of Alameda, California. I am told 
that it takes 24 days to get a national security cutter from 
Alameda up to the Chukchi Beaufort sea area. That is a long way 
to be underway when we have an incident that would require that 
type of vessel up there.
    So I would ask if you would consider taking another look at 
the Coast Guard's home porting strategy and locating a national 
security cutter there in Kodiak, really closer to where we are 
seeing such a greater degree of activity.
    Secretary Johnson. We could look at that, yes.

                              ICEBREAKERS

    Senator Murkowski. I would appreciate that. And then 
because probably none of my colleagues are going to be asking 
about polar ice breakers, as you know, the Coast Guard high 
latitude study back in 2011 identified a need for three heavy 
and three medium ice breakers. Currently we have got one heavy 
icebreaker in the water. We have one medium strength 
icebreaker, the Healy, and then of course we have one heavy 
icebreaker that is currently out of service.
    This is an issue that as we deal--as we prepare for an 
increasing role in the Arctic, quite honestly you have to have 
a way to move through the ice. The question to you is three-
fold. How many heavy ice breakers do you think we need to keep 
us safe and protect U.S. Arctic interests, whether or not the 
Coast Guard has plans for additional ice breaking capability as 
we advance the Arctic strategy, and whether or not there are 
plans--further plans to recapitalize and repurpose the Polar 
Sea, which is currently up in dry dock right now.
    Secretary Johnson. Let me try to answer the question this 
way. The Polar Star is quite old.
    Senator Murkowski. Yes.
    Secretary Johnson. We need to replace it. We have a long-
term acquisition plan to do that, which the cost of that will 
be considerable because, as you know, heavy ice breakers are 
big ships, and they tend to be very expensive. But we recognize 
the need to replace the Polar Star. The Polar Sea is not quite 
as old, and as you point out, it is dry docked right now. We 
have not made a decision yet as to what its future will be. 
There have been no decisions at that point.
    But overall, I do recognize the importance of having heavy 
ice breakers, not just for maritime security, but to keep the 
flow of commerce open in the Arctic and other places. That is 
the principal reason we have them, and the ones we have are 
pretty effective at doing that. So I am not familiar with the 
particular assessment that we need three. I am happy to look at 
it. But it is something that I have paid close attention to in 
listening to the Coast Guard about what their needs are.
    Senator Murkowski. Well, I appreciate that, Mr. Secretary. 
I look forward to working with you on many of these Arctic 
issues. I think this is an area, again, where in many senses 
this is a new frontier out here. We are asking more of the 
Coast Guard, and yet we are not giving them sufficient assets 
to do what we are asking of them. And so, how we stay on top of 
this is going to be key, and I look forward to working with you 
on that.
    Thank you, Mr. Chairman.
    Senator Coats. Good. Senator Moran, Senator Coons has 
graciously offered to let you go first since--we go back and 
forth normally, but he has always been a gentleman and 
continues to be. He saw that you were here first and said my 
friend Jerry ought to go.
    Senator Moran. The trouble with that scenario is that now 
it makes me feel guilty.
    Senator Coats. Good. You owe him one.

                NATIONAL BIO- AND AGRO-DEFENSE FACILITY

    Senator Moran. That also makes me nervous. Mr. Chairman, 
thank you very much. Senator Coats, thank you very much for the 
opportunity to question. I am actually going to take advantage 
of the offer that you have given me. Secretary Shinseki is 
testifying in the Veterans Committee Appropriations 
Subcommittee as well at this time, and I am anxious to hear and 
question him as well.
    Mr. Secretary, thank you very much. It has been a pleasure 
to get to know you. I appreciate the outreach that you have 
provided to me and my office, and how kind and accommodating 
you and your staff have been to us.
    Kansans and really the country have a significant issue 
that the Department of Homeland Security has been fully engaged 
in, and we are very grateful for that. Thank you for your 
continued support for a facility called the National Bio and 
Agro-Defense Facility (NBAF), and we appreciate the President's 
budget recommendation of an additional $300 million with the 
plan of completing the construction of that project as a result 
of this hopefully final appropriation.
    Let me just ask the general question because this is the 
first time at least on the record that you have been able to 
express your opinion about the value of this facility, what is 
means to the safety and security of our animal industry, our 
husbandry, as well as the food supply, why it is important in 
regard to any potential terrorist or accidental threat to the 
United States.
    Secretary Johnson. Senator, as you and I have discussed 
privately, I am fully committed to the NBAF project. I am 
convinced of the need for a new facility in this regard, in 
part because of the capabilities or better research, more 
aggressive research that a brand new facility like this one 
would create for us.
    And so, we have made a considerable ask of $300 million to 
complete this facility. I am fully committed to doing that. And 
I very much appreciate that the State will contribute to the 
support and the funding of this as well, which is evidence 
obviously of the importance of the mission. So I am fully 
committed to the mission, and I want to see it get done.
    Senator Moran. I appreciate that, and I particularly 
appreciate it in respect to your experience and background as 
someone who has for a long time been involved in trying to 
protect the United States from a variety of threats. So thank 
you for your expert as well as your testimony as the Secretary.
    Secretary Johnson. Thank you.
    Senator Moran. Let me ask the significant question of the 
moment. We have appropriated significant amounts of money in 
the past in Congress based upon, and the President has 
approved, a number of appropriations--last year $404 million; 
previous to that $202 million. Now, there is a request for $300 
million. And as you indicate, the State of Kansas has made a 
significant commitment to this project, initially $105 million, 
and then followed by an additional $202 million based upon the 
Department of Homeland Security's request that we increase our 
commitment--the State of Kansas increases its commitment as a 
result of the cost going up.
    And it is that cost going up issue that I want to raise 
with you, as well as the--based upon your indication of how 
important this facility is. If it is important to accomplish 
the goals that NBAF will accomplish, my assumption is it is 
important to accomplish them sooner rather than later, as early 
as possible. As that facility is operational, the safer and 
more secure our country will be. Is that accurate?
    Secretary Johnson. My experience in the Department of 
Defense and the Department of the Air Force, and of the 
Department of Homeland Security is that the longer a project 
takes, the more expensive it tends to become. The quicker you 
can complete the project, the more efficient the cost. And so, 
if there are ways to finish this project with funding Congress 
has given us sooner, I think that would be a good thing.
    Senator Moran. Well, Mr. Secretary, what I would like to 
ask you to agree to do is to work with perhaps it is Office of 
Management and Budget (OMB), the Administration, the as well as 
your folks at the Department of Homeland Security. We are happy 
to participate in that process.
    What we would like to see happen is the opportunity for a 
contract for construction to begin based upon the amount of 
money already appropriated, which is that $202 plus $404. So 
there's $606 million Congress has already appropriated, plus 
Kansas is prepared to release its additional $307 million. And 
I think what is missing today is an ability or willingness on 
the part of the Department of Homeland Security to secure bids 
and enter into the contract.
    And what I am hoping that you would agree to do is to work 
with us to see that we do not have to prolong that process 
while we accomplish the additional $300 million appropriation 
that the President has requested.
    Secretary Johnson. If it is something that will save the 
Federal and State taxpayer money to accomplish the same 
mission, then I definitely think we should look into that.
    Senator Moran. And based upon your experience, you just 
testified that--I do not know that you said never, but I would 
guess there has never been an experience in which delaying 
actually saves money. So based upon your previous comment, I 
assume that you are----
    Secretary Johnson. I cannot think of one.
    Senator Moran. I cannot either. And we look forward to 
trying to accomplish that. If we can have a conversation about 
how to resolve this and move forward between you and OMB, let 
us see if we can accomplish that we mutually share.
    Secretary Johnson. I am going to look into that.
    Senator Moran. Thank you very much.
    Senator Landrieu [presiding]. Thank you. I believe Senator 
Coons is next, and I thank the members for being so cooperative 
on attending in between votes.
    Senator Coons.

                 IMMIGRATION: ALTERNATIVES TO DETENTION

    Senator Coons. Thank you, Madam Chair. And it is always a 
delight when I have the opportunity to facilitate Senator Moran 
doing his duty on behalf of the people of Kansas, so I was 
happy to defer on the previous round. And great to have you 
with us, Madam Chair and ranking member. You are next, I know.
    If I might, Mr. Secretary, thank you so much for the chance 
to be with you again. I would like to start with two questions 
around issues relating to immigration that we have discussed 
before, but that I think are worth pursuing in a little more 
detail given that we now have the budget.
    First, alternatives to detention have been proven to be 
significantly less costly, incomparably effective in terms of 
our larger goals of deporting those who ultimately need to be 
deported, and retaining here for trial those who need to be 
trained. I think one study suggested $17 for an alternatives to 
detention program versus $159 per person per day. And yet DHS 
has continued to have imposed upon it or provided to it, 
depending on your view of Congress, a bed count.
    In the latest budget, you are requesting $1.3 billion for 
detention beds and only about $94 million for alternatives to 
detention. Do you think that pursuing alternatives more 
actively might produce good results? Is there something I am 
missing here where alternatives to detention have not proven to 
be effective? Would you welcome more resources to work with the 
alternatives program?
    Secretary Johnson. The answer is yes, which is why we have 
asked for $94 million to support an alternatives to detention 
program, which I am told has been pretty effective. I have had 
many discussions with Members of Congress about the 34,000 bed 
requirement, which is an average requirement over the course of 
the years. Our request, based on what we assess to be our 
current needs for prioritization is 30.6 thousand, but coupled 
with that, very importantly, is the request for the 
alternatives to detention program.

                       IMMIGRATION: REPATRIATION

    Senator Coons. I would like to support that and work 
closely with you on it because, at least my very local 
experience, there was an unintended result that there were 
people being detained longer than needed to be and in ways that 
were not entirely constructive to achieving our law enforcement 
goals.
    Second, the Alien Transfer Exit Program, known as ATEP, has 
in the past led to lateral repatriation, nighttime 
deportations, and deportations to dangerous locales in which 
families are broken up, some elements of the families bussed 
hundreds of miles away, and then folks being forcibly returned 
to their country of origin, often at night and sometimes in 
ways that have been dangerous for them.
    Having conducted a review, do you think lateral 
repatriation, nighttime deportations, and deportations in 
arguably dangerous circumstances will continue to be a broadly 
used practice by the Department?
    Secretary Johnson. This is something that--this exact issue 
is something that I am looking at right now. In the course of 
looking at the issue, I found out that there is 2004 guidance 
that says that, in the repatriation process, we should not 
break up families.
    Senator Coons. Right.
    Secretary Johnson. And so, I am contemplating various 
things to address this particular issue. It has been raised 
with me from a number of different sources, and so we are 
assessing it right now.
    Senator Coons. I think we have some international 
obligations at issue here as well, and I would welcome a chance 
to be supportive when you complete your----
    Secretary Johnson. That is why I mentioned a number of 
sources.

               CYBERSECURITY: SECRET SERVICE CAPABILITIES

    Senator Coons. Thank you. Third, if I might, on 
cybersecurity, others have asked questions on some of the 
broader cybersecurity issues I might have brought up. The 
Secret Service, relatively smaller in scale than some of the 
other elements of the Department, has a highly skilled and 
relatively low head count, Electronic Crimes Task Force. And 
they make it possible for us to leverage their expertise with 
law enforcement and intelligence agencies around the world.
    And I wondered, given the scope of the cyber threat and 
given the significant demands we have scaling up the workforce 
needed to meet the cyber threat, whether you were giving any 
thought to scaling the Secret Service's counter cyber 
capabilities.
    Secretary Johnson. Our total proposed investment in 
cybersecurity is $1.2 billion across the entire Department. We 
have capabilities in a number of different components. I am 
very impressed by the Secret Service's capabilities in this 
regard as a matter of law enforcement investigation of 
cybercrime. As you probably know, the Secret Service is the 
lead investigative agency for the Target investigation. I think 
that that is also the case with regard to the Neiman Marcus 
investigation, and they are doing an excellent job.
    And so, I believe we need the Secret Service to remain 
committed to the cybersecurity mission and do so consistently 
with the fiscal constraints that we face. But I believe it is 
an important mission, and I think the Secret Service needs to 
continue to pursue it.

                      PUBLIC-PRIVATE PARTNERSHIPS

    Senator Coons. Thank you. Last question, if I might, Mr. 
Secretary, about Customs and Border Patrol. My hometown port, 
the Port of Wilmington, lands a significant amount of produce, 
produce that spoils rapidly and that arrives sort of in a wave 
in particular times of the year, whether it is grapes from 
Chile or bananas from Central and South America. And one of the 
things that surprised me most about the CBP and its role there 
was that they literally cannot pay overtime to get inspectors 
there at times of the year when it would be particularly 
valuable in terms of the timeliness to market.
    There is an issue there, a longstanding challenge, between 
Animal and Plant Health Inspection Service (APHIS) and CBP, and 
there is an initial authority in the fiscal year 2014 omnibus 
to establish public-private partnerships. This is something I 
know is at a very small scale, but has significant impact for 
those of us who have active ports.
    The private sector has repeatedly raised to me that they 
are willing, even eager, to pay overtime. Impacts of the 
sequester have led to a number of unfilled inspector and other 
customs clearance positions. And so, when we have an 
opportunity through resolving what is an accounting issue 
between two different agencies, we should take it. And if I can 
be helpful in advancing this, I would really like to. It would 
make a big difference for a few businesses that employ a lot of 
people in my home port.
    Secretary Johnson. We can look into that, Senator.
    Senator Coons. Thank you, Mr. Secretary. Thank you, Madam 
Chair.
    Senator Landrieu. Thank you, Senator Coons.
    Senator Tester.
    Senator Tester. Thank you, Madam Chair, and I apologize.
    Senator Landrieu. No worries.

                   SURVEILLANCE DRONES: PRIVACY RULES

    Senator Tester. And to Senator Coons from Delaware. Senator 
Moran and I have had somewhat of a battle over the NBAF, and 
the first thing I heard when I walked through the door was a 
discussion about NBAF.
    I did not have any questions, but I just wanted to say that 
I know this project started long before you came on board. In 
fact, it started long before President Obama was in office. And 
it still mystifies me how a decision was made to do research on 
very, very contagious diseases in the middle of Tornado Alley 
in the heart of this country. I will just leave it at that. He 
has won this battle. It is going to be funded. It is going to 
be built. And I hope I am wrong.
    I would say that in the area of drones, the Associated 
Press reported last month that DHS loaned its drones to other 
agencies--local sheriffs, National Guard--700 times over the 
last 3 years. It brings up some questions about how many hours 
DHS loaned out drones, who paid for the operations and 
maintenance, how the missions are related to border security, 
and, most importantly, what kind of surveillance was done 
potentially on Americans.
    DHS was tasked to develop privacy rules governing the use 
of drones for surveillance. Could you give me an update on 
where the agency is in the development of those rules?
    Secretary Johnson. Senator, if you do not mind, I would 
like to take that question for the record so I can give you a 
more detailed answer. I believe that aerial surveillance is 
important----
    Senator Tester. Yes.
    Secretary Johnson [continuing]. Coupled with adequate 
privacy policies and restrictions. And I think that is 
something you and I have discussed.
    [The information follows:]

    Answer. U.S. Customs and Border Protection (CBP) employs several 
types of aircraft including manned helicopters and fixed-wing aircraft, 
and Unmanned Aircraft Systems (UAS) for border surveillance and law 
enforcement purposes. These aircraft are equipped with video, radar, 
and/or other sensor technologies to assist CBP in patrolling the 
border, conducting surveillance as part of a law enforcement 
investigation or tactical operation, or gathering raw data that may 
assist in emergency response. Video, images, and sensor data collected 
through these aircraft systems alone cannot be used to identify a 
person, but they may later be associated with a person as part of a law 
enforcement investigation or encounter with CBP officers or agents.
    The Department of Homeland Security (DHS) recently conducted a 
Privacy Impact Assessment (PIA) to evaluate the privacy impact of 
sensor technology use on CBP aircraft, both manned and unmanned. The 
PIA concludes that the DHS/CBP collection of data by its aircraft 
assets is within the scope of its authorities, but that there are 
privacy risks associated with using sensors on aircraft to collect 
personally identifiable information (PII). A privacy concern, specific 
to UAS, is that they present a perceived risk to privacy because they 
are able to fly for longer hours than manned aircraft and conduct 
surveillance undetected. CBP manages this risk by following strict 
mission priorities, by operating its aircraft in accordance with 
Federal Aviation Administration requirements, and by controlling access 
to data collected by UAS. The PIA finds that CBP has rules in place to 
exercise strict control over the collection, use, retention and 
dissemination of information obtained from the deployment of cameras, 
radar, and other sensor technology on its air assets. The PIA found 
that the raw information collected from technology deployed on aircraft 
rarely provides images that may independently identify persons, and is 
not maintained in and covered by a Privacy Act System of Records Notice 
(SORN) until it is associated with a person as part of a law 
enforcement investigation or encounter with CBP officers or agents. The 
PIA notes that images associated with case information allow for the 
identification of persons in the image and are subject to the full 
range of privacy protections (Privacy Act SORNs, PIAs, and Redress) 
accorded law enforcement case information. Lastly, the PIA concludes by 
noting that as technology improves, DHS and CBP will review and update 
the PIA to ensure that it remains current with the use of the aircraft 
and the information collection technology.
    Personally identifiable information obtained through the sensors/
cameras on an unmanned aircraft is treated no differently by the 
Privacy Act of 1974, the E-Government Act of 2002, the Homeland 
Security Act of 2002, and departmental privacy policies and directives 
than personally identifiable information input into an online form or 
handwritten in a proffered document. Nonetheless, the DHS Privacy 
Office is working with the DHS components that operate, or may operate, 
unmanned aircraft to communicate and clarify unmanned aircraft 
operators' privacy obligations. Thus far, the DHS Privacy Office has 
conducted two PIAs and has analyzed three prospective acquisitions of 
unmanned aircraft. These are the first PIAs addressing Government use 
of unmanned aircraft in the Federal Government.
    DHS is finalizing a UAS ``best practices'' document that is being 
submitted to OMB for comments and clearance. DHS is also working with 
other executive agencies to develop common privacy, civil liberties, 
civil rights, transparency, and accountability principles that would 
apply to all agencies' UAS programs.

    Senator Tester. Yes.
    Secretary Johnson. I am committed to further refining those 
protections. But I would like to take this question for the 
record.
    Senator Tester. Yes, you absolutely can. I mean, I think 
that you touched on it. I think the fact that drone technology 
is being loaned out to local agencies is not necessarily a bad 
thing, as long as the surveillance and civil liberties are 
respected in that process.
    Secretary Johnson. That is correct.

                CUSTOMS AND BORDER PROTECTION FACILITIES

    Senator Tester. And the other thing is if you can give me 
an idea on how much it was not used for border security 
purposes. And by the way, I think drones on the border, 
particularly the northern border, which is what I know better 
than anything, is something that can save some money and 
probably some time, and stop some bad guys.
    CBP facilities. I recently learned that an under-used 
Border Patrol facility--and I am not being critical--in Shelby, 
Montana, is costing the Federal Government about $30,000 bucks 
a month, and that lease will continue until 2025. Now, $30,000 
bucks a month for a facility in Washington, DC, is probably 
pretty cheap. In Shelby, you could probably buy a decent house 
for $30,000, okay?
    The General Services Administration (GSA) has said that due 
to the necessity of Border Patrol facilities, remote areas, CBP 
specifications, they had a long-running list of things that 
were wrong. This also happened on a port when they were talking 
about building housing some time ago. And I said--I cannot even 
remember how much it was, but it was well, well into the 
hundred thousand, maybe even a quarter million for this house. 
And I said are you kidding me? You can buy the town for what 
you are spending on this house. And do not tell me because it 
costs money to get the products up there.
    The fact is that I live there. It was way, way, way 
overpriced. They were using different metrics than what they 
needed to use to determine what the rental fees are supposed to 
be.
    I guess it is a management issue. I think that as I look at 
it, are there things that your Department can do, working with 
the GSA, to make sure that we get fair market value for the 
money that we are spending when taxpayers are dropping this 
kind of money, because quite frankly, I mean, it is one of 
those $500 hammer kind of deals.
    Secretary Johnson. I cannot argue with anything you just 
said.
    Senator Tester. Okay.
    Secretary Johnson. I cannot. And it is part of my mission 
to look for inefficiencies in the Department.

                          DISASTER RELIEF FUND

    Senator Tester. That would be great. I mean, if you could 
just take a look at it because it does not--and maybe there is 
a perfectly good reason and I just missed it. And there might 
be, but I missed it, and I need to figure it out because it 
does not make any sense to me.
    We have got a winter that started out pretty easy and it 
ended up pretty extreme in the last actually 3 weeks. Record 
snow. It is going to flood. I do not think there is any doubt 
about it. We have seen it with past disasters. There will be 
damage whether it is to infrastructure--roads, bridges, 
whatever. And given the past decade with more and more costly 
weather events--we can have the debate about climate change, 
but things are changing.
    Do you believe you have allotted enough money for your 
Disaster Relief Fund?
    Secretary Johnson. We have asked for an additional $7 
billion to the Disaster Relief Fund. There is no doubt that we 
have seen in recent years weather of a severe nature coupled 
with aging infrastructure that causes things like the Brooklyn 
Battery Tunnel to completely flood. When I saw that happen 
during Hurricane Sandy, I asked myself, well, it is amazing 
that it has not happened before in the history of that tunnel. 
And there are reasons for those kinds of things.
    So we exist in a fiscally constrained environment. I 
believe that what we have asked for should be adequate. If 
there is an emergency that requires emergency relief, we will 
need to come back to Congress for additional funding.

                            REAL ID PROGRAM

    Senator Tester. That is good. I just wanted to make sure 
you were thinking about it when you put the budget together. 
That is basically where I was coming from.
    One last question, and I have got some others I may submit 
for the record. I want to talk about REAL ID for a second. 
There are 15 States facing this issue mainly because the 
national ID issue is a bit of a hot potato. And I know this is 
a different world we live in after 9/11, and I know that there 
are some out there that have no--they are going to use it for 
all the right reasons and not abuse it.
    The fact of the matter is, though, that what we are doing 
here is at this point in time, DHS will be able to enforce 
compliance by denying access to Federal buildings, even getting 
on a plane, and residents from other States have opted out of 
REAL ID.
    I guess the bottom line and the big concern is you have got 
one database with all this information. We can talk about 
breaches. They happen all the time. And then the fact that 
Montanans' personal information could be accessed by somebody 
from, say, Louisiana or Indiana, which is scary in and of 
itself.
    But the fact is that, number one, is that something that we 
should be concerned about? Number two, is it really going to 
improve national security?
    Secretary Johnson. Well, I guess--I recently had a 
discussion with my staff about the REAL ID Program because I 
wanted to get an update on where we are and understand fully 
the nature of the program. At the end of the day, this is a 
program enacted by Congress. Congress saw the wisdom of a REAL 
ID Program, and it passed by a majority of its members signed 
into law. And so, my obligation is to enforce the law. I am 
trying to do so in a phased-in, reasonable manner. I understand 
the resistance to this program, but it is a Federal legal 
obligation that I have been charged with enforcing.
    I mean, to answer your question, though, I do see a 
national security value to having certain basic standards that 
go into how someone obtains a driver's license. So I do not 
want to make light of that at all. I do see a value to that.
    Senator Tester. Okay. Well, I would just say thank you for 
that. I mean, I voted for your confirmation, and I would do it 
again. I think you have the toughest job in Government, in the 
Administration right now. This is a big department. It has a 
lot of issues, a lot of concerns around civil liberties. The 
REAL ID issue is a hot button issue. I was going to ask you if 
you would support repealing it. Since you said it was law, we 
could certainly do something like that, but I think you 
answered that question as a no.
    So I would just ask that you do all you can do to respect 
the States' rights as you move forward with this issue. I think 
it may not be able to be done, but I will tell you that it is a 
difficult issue, and it is an issue that being a libertarian 
tilt in the State of Montana, it is an issue that people are 
concerned about. So thank you very much for your service.

                     GRANTS: CONSOLIDATION PROPOSAL

    Senator Landrieu. Thank you, Senator Tester. Mr. Secretary, 
I have only two final questions, and as promised we will be out 
of here before 4 p.m. I thank the members for their excellent 
questions and review of the budget.
    My last two have to do with the State and local 
preparedness grants reorganization legislation that was 
submitted with this budget. You may be familiar with the work 
that has gone on to reform the local community preparedness 
grants. It combines State, urban area, port, and transit into 
one program. It requires participation by previous grantees on 
the advisory board to prioritize future investments.
    There is a requirement in this new proposal that 80 percent 
of the grant funding must be passed onto local communities and 
States, local communities not held by States or Federal. And 
the requirement that ensures at least 25 percent are committed 
to law enforcement is eliminated.
    Do you support this proposal? If so, what do you think its 
strengths are? If not, why?
    Secretary Johnson. My understanding of the grant 
consolidation proposal is that it will add efficiencies, both 
in terms of Federal oversight and State oversight, such that 
the overhead to the administration of the grants program is 
reduced, and more grant dollars reach the intended 
beneficiaries. I know that there are a number of people in our 
Government who think that is a very good idea that will promote 
efficiencies, and this Administration supports doing that.

                               JONES ACT

    Senator Landrieu. Thank you. Many Senators, including 
myself, strongly support the Jones Act, which has been a very 
important part of our maritime infrastructure in this country 
for a long time. The Department has over the past several 
years, and I think going back some time, but definitely in the 
last few years, has requested waivers for the Jones Act 
periodically.
    And it got to be such an abusive, in my view, situation 
that I put language in last year's appropriations bill to 
prohibit you all from moving around the Jones Act, which 
requires you to use U.S. flag vessels, building ships in 
America. Our merchant marines, our maritime industry is a very 
important industry to our country, not just to the State of 
Louisiana, which is a proud tradition.
    So what are your views of the Jones Act, and under what 
circumstances can you imagine it would have to be waived, and 
can you anticipate--I know we cannot anticipate anything. But 
in what circumstances would you think that it would have to be 
waived?
    Secretary Johnson. I have had occasion to deal with the 
Jones Act both at DOD and at DHS. Waivers under the Jones Act 
can be granted for reasons of national security and if there is 
no--I may not be getting the words exactly right--readily 
available U.S.-flagged alternative.
    I have had occasion to consider waivers under the Jones Act 
and reached the determination that the waiver request did not 
meet the legal standard. So I think that there are 
circumstances where a waiver would be appropriate. In my 
experience as Secretary of DHS, I have not seen that yet. And 
so, we have maintained and enforced the general rule that U.S. 
port to U.S. port should involve a U.S.-flagged vessel.
    Senator Landrieu. Well, excellent because I think that the 
vast--I could be wrong, but I think that the vast majority, or 
let me just say the majority of members of Congress would feel 
strongly about that. And that is the law, and I appreciate that 
answer. We will be carefully monitoring it, and thank you for 
your response.
    I think, Secretary, this has been a very good and complete 
hearing and review of the budget. Of course, we will submit 
more questions for the record. You have some to submit to us.
    This is going to be a challenging year for all of us, but I 
am committed to doing what I can to see that your Department 
has the resources that it needs to do the job that we have 
asked you to do. I look forward to working with my ranking 
member. We had a very cooperative and, I think, helpful and 
productive year last year.

                     ADDITIONAL COMMITTEE QUESTIONS

    So the record will remain open until close of business 
Wednesday, March 26.
    [The following questions were not asked at the hearing, but 
were submitted to the Department subsequent to the hearing:]
                Questions Submitted to Hon. Jeh Johnson
            Questions Submitted by Senator Mary L. Landrieu
                national flood insurance program reform
    Question. The current budget proposal includes funding for 331 
employees for implementation of the National Flood Insurance Program 
(NFIP), an increase of 6 percent over fiscal year 2014. This budget was 
formulated after Biggert-Waters Flood Insurance Reform passed but prior 
to the Homeowner Flood Insurance Affordability Act now enacted into 
law.
    The Homeowner Flood Insurance Affordability Act places significant 
new requirements on the Federal Emergency Management Agency (FEMA) such 
as limiting annual individual premium increases, issuing refunds, and 
reinstating affordability as a priority of the program. With only a 60-
percent compliance rate among those required to have a flood insurance 
policy, program participation has been a systemic issue for many years. 
I included language in the compromise flood bill now directing the 
Administrator of FEMA to strive to limit premiums to no more than 1 
percent of the value of the policy and report any instances when 
premiums exceed that level.
    Additional effort will be required to ensure the provisions are 
implemented in a timely and transparent process that ensures impacted 
homeowners get the immediate relief they deserve. I am committed to 
working closely with FEMA to ensure the proper implementation of this 
new law.
    When will you know the estimated additional number of employees 
needed to effectively implement the new legislation?
    Answer. It is too early to determine the impact of new legislation 
on our resourcing. We were in the process of expanding our workforce 
when the new legislation passed. In fiscal year 2014, FEMA was 
authorized 14 new staff positions and, in the fiscal year 2015 request, 
we have requested an additional 17 new positions. These positions will 
support development of the required regulations, provide additional 
actuarial support and ensure full implementation of the Biggert-Waters 
Flood Insurance Reform Act. FEMA is assessing the use of temporary 
measures to support rapidly implementing some of the newer reform 
requirements.
    Question. What other resources will FEMA need to properly implement 
the law (i.e., unique expertise, data collection, etc.)?
    Answer. No additional resources are required until a full 
assessment of the legislation's impact is completed.
    Question. How do you intend to work with Congress to ensure we know 
your new requirements as we draft the Department of Homeland Security 
(DHS) appropriations bill over the coming months?
    Answer. FEMA is still assessing the impacts of the new law. We will 
keep your office informed of progress and any challenges in 
implementing the law.
                               flood maps
    Question. Accurate flood maps are crucial to informing citizens 
about their risk and setting their flood insurance rates.
    The justification of the fiscal year 2015 budget request touts that 
the relationships and flood risk data developed through FEMA's mapping 
program had a ``profound impact on the speed and strength of recovery 
in New York and New Jersey'' during Hurricane Sandy. While this is a 
good news story, not all communities are satisfied with the accuracy of 
their maps. Lafourche Parish has been appealing its new FEMA flood map 
since 2008 because FEMA cannot figure out how to give them credit for a 
16-foot, $450 million, 40-mile ring levee that was initially authorized 
by Congress in 1965 and has held through Hurricanes Katrina, Rita, 
Gustav, Ike, and Isaac.
    The budget justification also highlights stakeholders have 
expressed concern about the remainder of areas that do not have 
modernized maps. Yet, just like last year, the budget request only 
includes $84 million for flood hazard mapping. An 11-percent decrease 
from fiscal year 2014 and a pittance compared to the $400 million 
annual authorization established in Biggert-Waters. I am happy I was 
able to restore the proposed cut in fiscal year 2014.
    Are there other resources proposed in the fiscal year 2015 budget 
to be dedicated to mapping activity through fees or other accounts?
    Answer. Yes, FEMA's Risk MAP program, which encompasses the 
National Flood Insurance Program mapping activities, is funded from two 
sources--the $84 million in appropriated funds under Flood Hazard 
Mapping and Risk Analysis and another $121 million in fee income from 
the insurance program under the National Flood Insurance Fund. The 
funding from fees advances mapping while also paying for things like 
call centers, data management and archive, Web presence, business 
functions, internal controls and program management. The appropriated 
funding is focused exclusively on map production and update.
    Question. If funds are restored to the fiscal year 2014 level of 
$95 million--as I was able to accomplish last year--will you commit to 
ensuring the mapping effort is implemented with urgency?
    Answer. FEMA, through Risk MAP, is committed to addressing the most 
urgent flood data update needs. The Risk MAP program is focused on the 
importance of making sure communities and property owners understand 
their flood risk accurately. However, map updates take time to 
complete. The process is designed to allow for public engagement, 
careful, technically credible analysis, public review and legal due 
process for affected parties.
    Question. In the 2012 Risk MAP Progress Report, FEMA was striving 
to have quality data that could be relied on to reflect current 
conditions for 56 percent of their flood maps in fiscal year 2013. What 
percentage of FEMA's flood maps currently meet this definition and how 
much funding is needed to bring all the flood maps into compliance?
    Answer. The percent of the flood map inventory reflecting current 
conditions as defined in the 2012 progress report is 61 percent. Under 
this older definition, the percentage was measured as a fraction of the 
maps that have been converted to digital format under Map 
Modernization. FEMA has transitioned to measuring this percentage 
against the full map inventory including the modernized maps and the 
legacy paper inventory. Under this definition, the percentage meeting 
new, validated, or updated engineering (NVUE) currentness standards is 
48 percent.
    One of the core goals of Risk MAP is to reach 80 percent NVUE. It 
is not possible to have 100-percent compliance because older maps 
continually move out of compliance until they are reviewed and because 
map updates take several years to complete, resulting in a significant 
number of updates in progress. The Risk MAP strategy is to continually 
increase the percentage of the inventory that complies with the NVUE 
standard over a number of years as proposed in the budget. Under this 
approach, the ongoing costs for Risk MAP include both the costs to 
validate or update the inventory that is currently not verified as 
meeting the standard, and also to revalidate or update the inventory 
that is in compliance today, but will expire in future years. They also 
include related costs for outreach and coordination, call centers, data 
management and archive, Web presence, business functions, internal 
controls and program management. The long-term costs have a high degree 
of uncertainty. The recent flood insurance reform legislation from 2012 
and 2014, calls for implementation of a number of new mapping 
requirements in coordination with the new Technical Mapping Advisory 
Council (TMAC). Until the coordination with TMAC is completed and the 
new mapping requirements are fully defined, the costs will be very 
difficult to estimate. The extent to which the preliminary flood maps 
are appealed by communities also has an impact on costs, and 
advancement in technology and progress in complimentary Federal, State, 
and local mapping efforts also affect future costs.
    Currently there are about 550,000 miles that do not meet the NVUE 
standard and where updates are not underway. Some of these miles have 
already been identified as needing new analysis, but most still need to 
be assessed. A thorough cost analysis of the remaining miles that 
require study has not yet been conducted.
                   protecting federal cyber networks
    Question. The Department of Homeland Security (DHS) plays a 
critical role in protecting Federal civilian cybersecurity networks. 
The proposed funding level for cybersecurity programs across DHS is 
about $1.25 billion--the same amount as last year. Funding for Secret 
Service and ICE investigations is similar to last year and there seems 
to be a few prudent, but small, adjustments in some programs due to 
timing of contract execution. But, I could not find any proposed new 
and innovative efforts or prevention measures.
    I am worried that budget constraints are stifling critically needed 
proactive efforts to combat a known economic and security threat.
    The lead DHS component for protecting the Federal Government--the 
National Protection and Programs Directorate (NPPD)--has a budget 
request that merely maintains current programs. In last year's act, I 
included a requirement to do an in-depth review of the Federal computer 
intrusion detection system, known as EINSTEIN, to ensure effectiveness 
of design and innovation in developing future requirements. And while I 
look forward to those findings, treading water in the meantime is not 
acceptable.
    Are you satisfied that this budget proposal is as cutting edge as 
the issue of cybersecurity demands? If so, what programs specifically 
provide you this assurance?
    Answer. The fiscal year 2015 builds upon the investments that the 
Department has already made in investigating cyber-crimes and 
protecting critical infrastructure; Federal civilian agencies; and 
State, local, tribal, and territorial partners. DHS leverages its 
interagency partnerships to complement its cyber capabilities resident 
in the National Protection and Programs Directorate, U.S. Immigration 
and Customs Enforcement's Homeland Security Investigations, U.S. Secret 
Service, U.S. Coast Guard, and the Science and Technology Directorate.
    NPPD has made great strides over the last several years in 
developing core cybersecurity capabilities, such as the National 
Cybersecurity Protection System (NCPS) (EINSTEIN), Continuous 
Diagnostics and Mitigation Program, and the National Cybersecurity and 
Communications Integration Center. These capabilities enable DHS to 
protect Federal civilian agencies, support the protection of critical 
infrastructure, and respond to and mitigate cyber incidents. The fiscal 
year 2015 request continues to build on these foundational programs by 
providing $746.4 million in funding for NPPD cybersecurity efforts to 
drive toward innovative technologies and programs to better understand 
the cybersecurity and communications environment, reduce risk, and 
build capacity of our partner's capabilities.
    The Secret Service is a leading law enforcement agency in 
investigating cyber-crime, having first been assigned jurisdiction for 
investigating unauthorized access to computers in 1984. Today, the 
Secret Service continues to investigate the largest data breaches 
experienced by our businesses and bring to justices the sophisticated 
cyber criminals responsible. The fiscal year 2015 request builds upon 
this by providing the Secret Service $100.4 million for its efforts to 
investigate cyber-crime, implement cybersecurity measures as part of 
its protective mission, and secure its own computer systems.
    DHS deploys a comprehensive cybersecurity approach in which each 
part of DHS's cyber efforts contributes to the mission. The programs 
and operations run by the Department have matured considerably over the 
past several years and lead national efforts to enhance the security 
and resilience of the Nation's critical infrastructure; Federal 
civilian agencies; and State, local, tribal, and territorial partners.
  --The Department has stood up the Critical Infrastructure Cyber 
        Community Voluntary Program (C\3\ Voluntary Program) to link 
        critical infrastructure owners and operators to resources and 
        capabilities that reinforce cyber risk management planning and 
        promote use of the National Institute of Standards and 
        Technology Cybersecurity Framework.
  --The C\3\ Voluntary Program (pronounced ``C-Cubed Voluntary 
        Program'') is the coordination point within the Federal 
        Government for critical infrastructure owners and operators 
        interested in improving their cyber risk management processes. 
        The goals of the C\3\ Voluntary Program are to support industry 
        in increasing its cyber resilience, increase awareness and use 
        of the framework, and encourage organizations to manage 
        cybersecurity as part of an all-hazards approach to enterprise 
        risk management.
  --DHS established the Enhanced Cybersecurity Services Program to 
        protect critical infrastructure from cyber threats. This 
        program enables the private sector to leverage Government 
        resources to provide enhanced protection to the Nation's 
        critical infrastructure, which is mostly owned and operated by 
        the private sector. This program is based upon the capabilities 
        of EINSTEIN 3 Accelerated, which provides intrusion prevention 
        capabilities to Federal civilian agencies.
  --EINSTEIN 3 Accelerated provides intrusion prevention capabilities 
        to .gov networks. The program focuses on providing a wide range 
        of protection capabilities to improve the security of Federal 
        civilian Executive branch networks.
  --The Continuous Diagnostics and Mitigation (CDM) Program provides 
        tools and services to Federal civilian agencies to 
        automatically identify known cybersecurity vulnerabilities on 
        an ongoing basis and prioritize vulnerability mitigation based 
        upon the likelihood and impact of a cybersecurity incident.
  --By identifying basic cybersecurity problems and prioritizing them 
        for mitigation, CDM will measurably reduce cybersecurity 
        incidents across .gov.
  --The Secret Service has continued to develop and grow its Critical 
        Systems Protection program, to provide cybersecurity protection 
        in direct support of Presidential and Vice-Presidential 
        domestic and international visits, as well as DHS-designated 
        special security events.
  --Both the Secret Service and ICE-HSI continue to partner through the 
        Secret Service's growing network of Electronic Crimes Task 
        Forces (ECTFs), to develop innovative means to investigate and 
        apprehend transnational cyber criminals.
    Question. What in the budget before us is most critical to you in 
our war against cyber attacks?
    Answer. Cybersecurity is an integrated effort that leverages the 
strengths of multiple programs and partners. Singling out one program 
or aspect of the Department's cybersecurity efforts is impractical due 
to the nature of our work and the threat. The Government's 
cybersecurity efforts depend on numerous programs and operations that 
span multiple agencies. These programs and operations depend upon the 
strength of other programs and operations. For instance, the National 
Cybersecurity and Communications Integration Center (NCCIC), which 
shares cyber information and analysis, among other things, depends on 
programs such as Continuous Diagnostics and Mitigation, the National 
Cybersecurity Protection System, the Enhanced Cybersecurity Services 
program, and the development of frameworks, data models and 
specifications for information sharing, including the Structured Threat 
Information eXpression and the Trusted Automated eXchange of Indicator 
Information. Programs like CDM and NCPS, for instance, depend upon the 
NCCIC and the Industrial Control Systems Cyber Emergency Response Team 
to disseminate threat information and act on it.
    Ensuring that the Government maintains a robust cybersecurity 
capability requires continuous integration of the programs and 
operations within DHS and across the Federal Government.
       disaster spending--federal status and state responsibility
    Question. With a record number of disasters in recent years, we 
have to plan for spending on response and recovery. Through the FEMA 
Disaster Relief Fund (DRF) we obligated $7.5 billion in fiscal year 
2012 and $11 billion in fiscal year 2013. Since 2005, a total of $115 
billion has been obligated.
    After Hurricane Katrina, I had to battle to make sure that DRF 
funding was spent in a way that made common sense. We have learned how 
to do disaster recovery in Louisiana and through the Post-Katrina 
Emergency Management Reform Act and the Sandy Recovery Improvement Act 
we have modernized disaster recovery.
    I am proud to say that 11 of the 18 major requirements in the Sandy 
Recovery Act are complete. A legitimate arbitration process is now 
available to expedite funding decisions, communities are taking 
advantage of the alternate procedures for rebuilding by consolidating 
projects, and debris removal procedures have been simplified. And the 
law is just over 1 year old.
    Can I get your commitment that FEMA will be supported in its 
efforts to continue to implement its improved authorities? Further, 
please provide a report on the savings in costs and time the new 
authorities have produced?
    Answer. DHS is committed to continue implementing the improved 
authorities provided to FEMA. The authorities allow FEMA new 
opportunities to be innovative and to continue to improve ways to 
provide disaster assistance to the survivors.
    FEMA is collecting data to determine the effectiveness (savings in 
costs and time) of the procedures introduced under the new authorities. 
The implementation of the most recent programs/authorities has not been 
established long enough to be able to provide a report at this time. 
FEMA implemented its pilot programs for Alternative Procedures for 
Debris Removal and Alternative Procedures for Permanent Work on June 
28, 2013, and May 20, 2013, respectively. Most subgrants are in project 
formulation and/or the subgrantees are continuing to complete the work. 
The Dispute Resolution Pilot Program for Public Assistance Appeals was 
effective on August 15, 2013, but to date, no subgrantee has requested 
use of this process. The new Simplified Procedures thresholds were 
effective on the date of publication in the Federal register, February 
26, 2014. Four disasters have been declared since this date.
    Question. Do you believe the request of $7 billion is adequate to 
respond to future disasters and support recovery from past disasters 
such as Hurricane Sandy, recent tornadoes, wildfires, and floods with 
these expedited procedures in place?
    Answer. Based on current projected resources needs, FEMA believes 
that absent a new catastrophic event, the $7 billion requested for 
fiscal year 2015 is sufficient to both respond to new events and 
continue ongoing support for survivors and communities recovering from 
past events.
    There is certainly no doubt that Federal assistance is appropriate 
when a State is overwhelmed. Of course, the Stafford Act requires a 
cost share for the Federal contribution. Our State governments have a 
responsibility for disaster response costs. This is a highly 
predictable expenditure, especially in light of the fact that every 
State has been hit by a major disaster within the last 3 years. It is 
frustrating to hear some States rail against spending in Washington 
when so few plan ahead for disaster costs.
    Question. Will you work with me to incentivize States to plan ahead 
for disaster costs? What current ideas do you have to create this 
incentive?
    Answer. We are committed to working with the Congress to create and 
promote incentives to plan ahead for disasters. While traditional 
approaches to disaster preparedness, including mitigation, response and 
recovery, have leaned heavily toward a Government-centric model, the 
evolving nature of disasters in the United States calls for a broader 
perspective by bringing the whole community--local, State, tribal, and 
Federal governments, along with private sector and voluntary 
organizations--together to identify and implement ways of addressing 
the escalating financial and social costs tied to these catastrophic 
events.
    The following are examples of areas in which incentives could be 
more closely aligned to promote disaster cost reduction and increased 
resiliency across all levels of government, the private sector, and 
individuals:
  --Consider tying community participation in the NFIP to eligibility 
        for post-disaster assistance. Currently, if a community with a 
        special flood hazard area decides not to participate in the 
        NFIP, the individual residents are not eligible for post-
        disaster assistance. However, a strategy could explore 
        ramifications of limiting post-disaster assistance for both 
        individual homeowners and public infrastructure within flood-
        prone communities that do not participate in the NFIP. This 
        could generate greater incentives for a community to practice 
        flood plain management techniques that protect development from 
        future flooding.
  --Explore alternative disaster declaration criteria and reimbursement 
        approaches, such as a deductible model. Under the Sandy 
        Recovery and Improvement Act (SRIA) of 2013, FEMA is currently 
        examining criteria for Individual Assistance (IA) disaster 
        declarations, while Public Assistance (PA) disaster 
        declarations are based in part on estimates of per capita 
        disaster damages to eligible infrastructure and other costs 
        under the PA program. However, a deductible model might 
        encourage States and communities to take additional disaster 
        preparedness measures that could positively affect disaster 
        planning efforts and contribute to a reduction in costs, lives 
        lost, or injuries.
  --Explore options to align incentives between Government and private-
        sector companies to promote risk reduction and resilience 
        actions. For example, the World Economic Forum's 2012 Global 
        Risk Report features a special chapter on the global impacts of 
        the Fukushima, Japan, tsunami and earthquake, citing examples 
        of disruptions to global supply chains and stating that the 
        Development Bank of Japan became the first bank in the world to 
        offer better borrowing terms to companies that take steps to 
        increase resilience. We should seek to improve understanding of 
        private-sector incentives and to capitalize on practices that 
        promote disaster risk reduction and resiliency.
  --Promote improved coordination and efficiency measures in all phases 
        of emergency management. Adopt mechanisms for more effective 
        funds management at all levels of government. For example, FEMA 
        could fully implement a strategic funds management approach to 
        ensure funds are made available once States have the capacity 
        to execute them.
                      disaster funding resiliency
    Question. Building communities to withstand the disasters they are 
likely to face is just common sense. Smart building also saves money--
$4 for every $1 invested. As we watch communities rebuild--from New 
York and New Jersey to Louisiana and Mississippi, we are encouraged by 
their innovation as they build stronger, smarter and more resilient 
communities.
    For the third year in a row the budget request proposes eliminating 
the $25 million Pre-Disaster Mitigation Grant Program. These grants 
help officials plan for and build more resilient communities, 
ultimately saving money and lives when the next disaster strikes.
    I do note that $400 million in Pre-Disaster Mitigation Grants was 
included as part of the President's Opportunity, Growth, and Security 
Initiative but the funding source for this Initiative is not under the 
jurisdiction of this Committee and is not likely to come to fruition.
    Through the passage of the Sandy Recovery Improvement Act we have 
given FEMA authorities to build communities better and stronger after a 
disaster. But I am disappointed Pre-Disaster Mitigation funding can 
only be found in an initiative that is unlikely to pass.
    If not through this program, what viable funds are included in the 
request to promote resiliency which will save Federal funds in future 
years?
    Answer. The Pre-Disaster Mitigation Grant Program helps officials 
plan for and build more resilient communities, ultimately saving money 
and lives when the next disaster strikes. The Administration's fiscal 
year 2015 request includes $400 million in Pre-Disaster Mitigation 
Grants as part of the Opportunity, Growth, and Security Initiative.
    Risk MAP and the National Flood Insurance Program (NFIP) also 
promote resilience. One of the key features of the NFIP being based on 
accurate flood maps is that it builds resilience before disaster hits. 
Homeowners with flood insurance are much more likely to quickly and 
fully recover from a flooding disaster than uninsured homeowners who 
must rely on their own resources and the limited funds available if 
there is a Federal disaster declaration. Risk MAP provides communities 
data and tools, including a new suite of flood risk analysis products 
designed to complement the regulatory flood maps, that can help inform 
State and local preparedness, hazard mitigation plans, emergency 
response plans, and disaster recovery plans. The NFIP requires 
communities to take basic actions to regulate land use and building 
codes in the floodplain, and Risk MAP works with communities to 
identify other actions to reduce risk and increase resilience. The Risk 
MAP program also increases State and local Risk Management capabilities 
by building relationships and fostering an ongoing dialog about flood 
risk and flood risk management throughout the Risk MAP process. In many 
cases, State and local governments build even greater capabilities by 
taking the lead in implementing Risk MAP through the Cooperating 
Technical Partner program.
           state and local preparedness grants reorganization
    Question. The legislative proposal to reform the preparedness 
grants which accompanied the budget combines the current State, urban 
area, port, and transit security grants into one program and requires 
participation by previous grantees on an advisory board to prioritize 
future investments.
    How will this process ensure all security needs receive the 
required analysis and consideration?
    Answer. Under the proposed National Preparedness Grant Program, 
States will submit one application which will address capability 
requirements identified at the State and sub-State level, including 
those of local governments, ports, transit agencies, and nonprofit 
organizations as applicable and appropriate. Separate funding will be 
reserved, as is presently the case, to meet the unique needs of high-
risk urban areas.
    While FEMA cannot prescribe the makeup of any statewide governance 
structure, the agency has issued guidelines on how States should engage 
with their various partners to carry out their Threat and Hazard 
Identification and Risk Assessments and investment justifications. To 
ensure that States are adequately engaging with local governments, port 
and transit agencies, urban areas, nonprofit organizations, and other 
``whole of community'' partners, FEMA will require that the State 
Administrative Agency submit:
  --A detailed description of the Senior Advisory Committee's 
        composition and an explanation of key governance processes, 
        including how the Senior Advisory Committee is informed by the 
        State or territory's Threat and Hazard Identification and Risk 
        Assessment and State Preparedness Report data reflecting 
        capability shortfalls and the approach to address shortfalls in 
        core capabilities;
  --A description of the frequency with which the Senior Advisory 
        Committee will meet;
  --How existing governance bodies such as Urban Area Working Groups 
        and Transit Security Working Groups will be leveraged by the 
        Senior Advisory Committee;
  --A detailed description of how decisions on programmatic priorities 
        are made and how those decisions will be documented and shared 
        with its members and other stakeholders as appropriate; and a 
        description of defined roles and responsibilities for financial 
        decisionmaking and meeting administrative requirements.
    Question. While a specific program for urban areas is no longer 
separate, a requirement that 80 percent of the grant funding must be 
passed on to local communities is included.
    Is that correct?
    Answer. While the legislative proposal does eliminate the Urban 
Area Security Initiative as a stand-alone program, the Administration 
recognizes the on-going requirements of high-risk, high-density urban 
areas and intends to set aside funding under the proposed National 
Preparedness Grant Program to address the capability requirements of 
those urban areas.
    The requirement that States pass on to sub-State recipients at 
least 80 percent of the non-urban areas grant funding they receive will 
remain in effect.
    Question. How will this ensure the areas at most risk receive 
adequate consideration of their security needs?
    Answer. Allocations to States and to high-risk urban areas will 
continue to be risk informed, using the formula currently in effect as 
prescribed in the 9/11 Act.
    Question. The requirement to ensure at least 25 percent of the 
grant funds are committed to law enforcement activities would be 
eliminated. The requirement to ensure at least 25 percent of the grant 
funds are committed to law enforcement activities is eliminated.
    Why?
    Answer. The proposed National Preparedness Grant Program aims to 
strengthen coordination among States, local governments, ports, transit 
agencies and other stakeholders to ensure that preparedness grant 
dollars are utilized strategically to address the highest priority 
capabilities within a State. The Threat and Hazard Identification and 
Risk Assessment process and the capability estimation process that 
stems from it are essential to that strategic decisionmaking.
    Question. States, in collaboration with their partners, will 
determine where to apply grant dollars in any given year to address 
capability requirements across the five National Preparedness Goal 
mission areas of protect, prevent, mitigate, respond and recover. The 
proposed National Preparedness Grant Program is designed to provide 
States and their partners with the flexibility to allocate dollars to 
address their self-identified priorities; requiring that 25 percent of 
their funding to be allocated to specific activities removes a 
significant amount of that flexibility and is inconsistent with the 
overall approach envisioned in the National Preparedness Grant Program 
proposal.
    How will this impact security investments?
    Answer. Maintenance and sustainment of core law enforcement 
prevention capabilities--including fusion centers, countering violent 
extremism and State, territory and local information sharing--remain 
key Administration priorities, and law enforcement activities 
previously funded under other grants, such as Operation Stonegarden and 
the Port and Transit grant programs, will continue to be eligible 
activities under the proposed National Preparedness Grant Program.
    The National Preparedness Grant Program also will continue to 
support State, territory, and local law enforcement efforts to 
understand, recognize, and prevent pre-operational activity and other 
crimes that are precursors or indicators of terrorist activity, in 
accordance with applicable privacy, civil rights, and civil liberties 
protections. Such efforts include:
  --Maturation and enhancement of State and major urban area fusion 
        centers, including training for intelligence analysts and 
        implementation of Fusion Liaison Officer Programs;
  --Implementation of the Nationwide Suspicious Activity Reporting 
        Initiative, including training for frontline personnel on 
        identifying and reporting suspicious activities;
  --Continued implementation of the ``If You See Something, Say 
        Something <SUP>TM</SUP>'' campaign to raise public awareness of 
        indicators of terrorism and violent crime.
    Question. Great emphasis has been placed on the Threat and Hazard 
Identification and Risk Assessment (THIRA) process to identify risks 
and ultimately influence funding distribution. THIRA in its current 
form is still relatively new to communities.
    What improvements need to be made to THIRA to ensure it is as good 
a tool as possible?
    Answer. FEMA's ongoing effort to strengthen the Threat and Hazard 
Identification and Risk Assessment is focused on developing and 
providing tools and technical assistance to support grantees in 
refining and updating their Threat and Hazard Identification and Risk 
Assessments. FEMA's specific efforts include:
  --Developing and providing Threat and Hazard Identification and Risk 
        Assessment technical assistance which can be delivered to 
        grantees both virtually and in-person; and
  --Streamlining and improving the Unified Reporting Tool to make it 
        easier for grantees to input their Threat and Hazard 
        Identification and Risk Assessment information in a consistent 
        fashion.
    Question. What data is still needed to improve the information we 
have to work with and who has it (Federal agencies, private sector, 
etc.)?
    Answer. FEMA believes that data, expertise, and experience of the 
whole community is crucial in our collective efforts to prevent, 
protect against, mitigate, respond to, and recover from the threats and 
hazards that pose the greatest risk to the Nation. FEMA is continuing 
to work with partners to enhance the participation of the whole 
community in the Threat and Hazard Identification and Risk Assessment 
process. Specifically, FEMA is working with the DHS Office of 
Intelligence and Analysis to assist jurisdictions with better 
understanding their threats of concern. In addition, FEMA is 
coordinating with the DHS National Protection and Programs Directorate 
to assist jurisdictions with engaging their protection partners, 
including Government and non-Government partners--academia and the 
private sector in the Threat and Hazard Identification and Risk 
Assessment process. Lastly, FEMA is working on the release of the 
National Protection Framework, which will provide the whole community 
with additional information on the protection core capabilities. This 
additional information will help grantees better refine capability 
targets and capability estimation within the Threat and Hazard 
Identification and Risk Assessments.
    Question. What funding is included in the budget to address the two 
previous questions?
    Answer. FEMA's fiscal year 2015 budget request accounts for the 
personnel and activities needed to develop and deliver technical 
assistance to support the evolving needs of grantees in improving, 
refining and analyzing their Threat and Hazard Identification and Risk 
Assessment. This includes funds for two full-time employees plus 
additional subject matter expertise and support staff as needed, travel 
for in-person technical assistance delivery and instructional 
materials, and required training and equipment for virtual technical 
assistance delivery. Threat and Hazard Identification and Risk 
Assessment content development and delivery is funded through TAP 
appropriations; staff support is funded through National Integration 
Center and TAP salary budget.
                    aviation security fee proposals
    Question. Mr. Secretary, your budget proposes to increase TSA 
offsetting collections by $615 million in fiscal year 2015. First, it 
reinstates the annual $420 million in aviation fees billed directly to 
the airlines, which was eliminated in the Ryan-Murray budget agreement. 
Second, your budget would generate $195 million in additional 
collections by raising the current per-passenger fee from $5.60 to $6 
for a one-way trip. This fee was just increased in the Ryan-Murray 
budget agreement.
    While there is merit to having users pay for their security rather 
than general taxpayers, the reality is that there is little chance 
Congress will re-open the bipartisan budget agreement this year and 
enact these proposals. So as chairman of this subcommittee, I will 
either have cut TSA's budget by $615 million or find scarce 
appropriated funds from somewhere else to fund your request.
    For the record, will you provide the Committee with the impact in 
fiscal year 2015 of cutting TSA's budget by $615 million below what you 
are proposing--specifically the impact to security, personnel, 
passenger wait times, and procurement of screening technology?
    Answer. A reduction of that magnitude would have to be accommodated 
across the Department. The proposed reinstatement of the Aviation 
Security Infrastructure Fee and increase in the Aviation Security 
Passenger Fee is intended to reflect a better alignment of costs to the 
direct beneficiaries of aviation security, and thus the total 
discretionary funds required for the Department of Homeland Security 
programs. It was not the intent of the fee proposal to imply that the 
funding requirements of the Transportation Security Administration's 
(TSA) programs would be reduced absent the proposed fee changes. This 
is especially true given the efficiencies and program savings already 
included in the request for TSA.
               enhancing tsa officer safety and security
    Question. On March 26, 2014, in response to the deadly shooting at 
the Los Angeles International Airport in November 2013, TSA released a 
report entitled ``Enhancing TSA Officer Safety and Security: Agency 
Actions and Path Forward.'' The report's conclusions included the need 
for mandatory training, improved communication systems and policies, 
and enhanced law enforcement presence.
    What is the timeline for ensuring that airports are in compliance 
with TSA's updated requirements for law enforcement presence?
    Answer. On March 26, 2014, and in accordance with its discretionary 
authority under 49 CFR 1542.303, the Transportation Security 
Administration issued Information Circular 14-01 (IC 14-01) to all 
Airport Operators regulated under 49 CFR part 1542 to notify them of 
security concerns. IC 14-01 sets forth recommended standards for 
airport operators to increase law enforcement officer or airport 
security guard presence at high traffic locations within the airport 
such as during peak travel times at checkpoints and ticket counters to 
provide visible deterrence and quicker incident response. While there 
is no explicit timetable for implementation, the Transportation 
Security Administration recommends airports authorities incorporate 
these standards as soon as practicable.
    Question. Does TSA anticipate any changes to the Law Enforcement 
Reimbursable Program as a result of these requirements?
    Answer. The Transportation Security Administration is beginning the 
process of assessing the funding distribution methodology for airports' 
law enforcement and will consider the degree that risk can be reduced 
as a component of that analysis. Given constrained resources, any 
change in the reimbursement distribution to target higher risk airports 
may result in less support for lower risk airports.
               creative financing for coast guard cutters
    Question. Mr. Secretary, given your Defense background and DOD's 
use of multi-year procurement authority, I wanted to ask you about 
similar authority for Coast Guard cutters. The Coast Guard plans to 
build 25 offshore patrol cutters (OPCs) to replace its medium endurance 
fleet of cutters that are technologically obsolete and poorly suited 
for performing deepwater missions. It is estimated that the total 
acquisition cost of 25 cutters will exceed $10 billion. The Coast Guard 
recently awarded three design contracts for the OPC, will downselect to 
one shipyard in fiscal year 2016, and have the lead ship commissioned 
in 2020.
    Multi-year procurement authority provides the potential for 
significant cost savings in the acquisition of major vessels by using a 
single contract to buy multiple ships over a number of years. Savings 
are achieved because the shipyard has more certainty in funding, which 
allows for efficiencies in planning, a steady workforce, and lower 
overhead costs. The Department of Defense has used this type of 
contracting for DDG-51 destroyers, Virginia-class submarines, and the 
V-22 Osprey. According to a recent CRS report, this type of contracting 
arrangement could save more than 15 percent over the life of an 
acquisition. For a $10 billion effort like the OPC, that could result 
in real savings.
    Would you exercise such authority if it was provided for the 
acquisition of offshore patrol cutters? Would you please look into this 
and follow up with the subcommittee?
    Answer. The Coast Guard currently has multi-year procurement (MYP) 
authority under 10 U.S.C. section 2306b. While the OPC acquisition 
strategy is not currently structured to use this authority, I will 
consider all available options to ensure cost efficiencies are 
maximized.
                      unaccompanied alien children
    Question. There have been large annual increases in the number of 
unaccompanied alien children (UACs) crossing the Southwest border. Many 
of the children are smuggled into the United States by individuals, 
paid by their parents' who are already in the United States (often 
illegally), to get them here.
    The majority of these children come from Honduras, Guatemala, and 
El Salvador. A smaller number are from Mexico. The most heavily 
impacted area is the Rio Grande Valley, which consists of 316 border 
miles between Del Rio and Brownsville, Texas.
    There has been a 200-percent increase in UACs apprehended in the 
Rio Grande Valley sector in fiscal year 2014 compared with the same 
time period in fiscal year 2013 (17,708 vs. 5,906).
    Under the Violence Against Women Reauthorization Act of 2013 
(Public Law 113-4), these children are to be transferred to the custody 
of Health and Human Service's Office of Refugee Resettlement (ORR) 
within 72 hours of their being encountered. Unfortunately, ORR often 
does not have sufficient shelter space to accept these children within 
the legal timeframe. This results in children being kept in Border 
Patrol and other Department of Homeland Security (DHS) facilities which 
were never designed for more than temporary detention of children.
    When shelter space is found for these children, it is generally in 
another State away from the border. This requires DHS law enforcement 
personnel to escort these children frequently on a commercial air 
flight. On average, it costs $1,622 to escort one child. In fiscal year 
2013, Immigration and Customs Enforcement (ICE) escorted more than 
23,000 children at a cost of more than $37 million. In fiscal year 
2012, ICE escorted just over 12,000 children at nearly $19.5 million.
    There has been a large and growing increase in the number of 
unaccompanied alien children entering this country annually. What are 
the major factors driving this increase?
    Answer. Generally migration push and pull factors are not static 
and can be very fluid and even cyclical. With regard to unaccompanied 
alien children (UACs), a myriad of reasons are motivating this 
migration, which include but are not limited to family reunification, 
violence in the home country, especially due to the rise in 
transnational criminal organizations and gangs, poverty in the 
countries of origin, and the perception that once they enter the United 
States they will be allowed to remain. The Department of Homeland 
Security (DHS) remains committed to working with our partners at U.S. 
Department of Health and Human Services, U.S. Department of State, and 
the U.S. Department of Justice to better understand what is motivating 
the continued increase of UAC migration. For example, in February 2013, 
U.S. Customs and Border Protection (CBP), through the DHS Working Group 
on UACs, launched ``Dangers of the Journey to Cross the Border,'' a 
non-branded public awareness campaign in El Salvador, Guatemala, and 
Honduras to highlight the dangers of the journey north. Campaign 
materials for radio, television and print media were placed in popular 
media outlets in all three countries. The goal of this campaign is to 
dissuade potential migrants, particularly 12- to 17-year-olds from El 
Salvador, Guatemala, and Honduras, from embarking on the dangerous trip 
north to attempt to enter the United States illegally via Mexico. The 
campaign was live in Central America from January to July 2013 and 
continues today with assistance from Federal and nongovernmental 
organizations (NGO) partners. The campaign was coordinated across DHS 
components, and with interagency partners, NGO representatives, and 
Central American Embassy representatives to ensure that the message 
resonated with the target audience.
    Equally important is the U.S. Government's engagement with other 
actors. This includes with the countries of origin, especially the 
Governments of Mexico, Guatemala, El Salvador, and Honduras; 
international organizations, such as United Nations High Commissioner 
for Refugees; regional bodies, such as the Regional Conference on 
Migration; and non-governmental organizations. These parties are key 
players to better understand and address the root causes for migration 
and also assist with the safe reintegration for those children who do 
not stay in the United States. Continued engagement and programs 
tailored to prevention and reintegration are instrumental to deterring 
the continued migration of UACs to the United States.
    Question. The growth of this issue has a large impact not only on 
the Department of Homeland Security's budget, but on the budgets of a 
number of agencies and departments funded by Congress. Does this budget 
request provide the resources your Department needs to fully meet its 
legal obligations to care for these children?
    Answer. ICE and CBP are not funded separately for the care or 
transportation of unaccompanied alien children (UAC) but rather 
accomplish this task through their normal operating budget. Several DHS 
components are involved in processing and caring for UAC prior to their 
transfer to U.S. Health and Human Services (HHS). The increased inflow 
of UACs has significantly impacted operations at CBP and ICE and 
resulted in significant increases in costs associated with manpower and 
direct travel costs. ICE manpower costs associated with escort services 
both domestically and internationally have been impacted.
    Question. Given that this issue touches a number of Departments, it 
requires a whole-of-Government approach. What additional steps do you 
think the Government--not just your Department--needs to take to 
responsibly address this issue?
    Answer. The Department of Homeland Security remains committed to 
developing and implementing policies and procedures that take into 
account the needs and safety of each unaccompanied child we encounter. 
Developing a whole U.S. Government approach remains essential to 
addressing these issues whereby the U.S. Government align our existing 
policies and procedures in a manner that recognizes the special 
vulnerabilities of this population and, uniformly develop new policies 
and procedures that build on existing best practices.
    As such, DHS is working very closely with the Department of Health 
and Human Services (HHS) to continue to closely track the rising trend 
of unaccompanied alien children (UAC) traveling to the United States, 
primarily from Honduras, El Salvador, and Guatemala. Both departments 
are working together to develop short-term and long-term goals. In the 
short-term, DHS and HHS operators meet bi-weekly to discuss day-to-day 
operations and develop effective measures to streamline existing 
procedures and processes to assist with the quick and safe transfers of 
UAC. For example, DHS and Office of Refugee Resettlement (ORR) have 
streamlined the UAC referral process by conducting dual notification to 
both ORR and ICE to expedite both placement and transport of the UAC. 
In addition DHS and HHS have developed effective information sharing 
tools to reduce length of stay in CBP facilities, such as daily 
capacity reports and interagency access to operational databases, this 
level of engagement between the two Departments has been essential to 
managing the operational and fiscal impacts on both Departments in 
their work along the Southwest border.
    Furthermore, in the January 2014 Consolidated Appropriations Act, 
HHS, in coordination with the Office of Management and Budget (OMB), 
DHS and Department of State (DOS) was directed to develop a long-term 
interagency strategy to address the challenges presented by the growing 
number of UAC arriving in the United States. This group is currently 
reviewing the U.S. Government's UAC policies and operations to develop 
and/or identify efficiencies within and across agencies. These 
discussions include reviewing mechanisms, across the U.S. Government, 
to reduce the flow patterns, identify alternative program/process 
models to process, transport and transfer UAC that focus on 
streamlining the process while ensuring the needs and safety of the 
child are considered, and review existing UAC services to address area 
of improvement.
    Equally important is the U.S. Government's engagement with other 
actors. These partners include the governments of the primary countries 
of origin, which are Mexico, Guatemala, El Salvador, and Honduras; 
international organizations such as United Nations High Commissioner 
for Refugees; regional bodies such as the Regional Conference on 
Migration and non-governmental organizations. These partners help the 
U.S. Government better understand and address the root causes of 
migration and assist with the safe reintegration of those children who 
are returned. Continued engagement and programs tailored toward 
prevention and reintegration are instrumental to deterring the 
continued migration of UACs to the United States.
                  increase in illegal border crossings
    Question. One measure of how well the Government is doing at 
securing our borders is tracking the number of apprehensions of illegal 
crossers at the border. From a low of just over 340,000 apprehensions 
in fiscal year 2011, there has been a steady increase in the number of 
aliens apprehended by the Border Patrol to nearly 421,000 in fiscal 
year 2013. At this rate, we could expect nearly 500,000 apprehensions 
by the end of this year. While this does not compare to the almost 1.2 
million apprehensions in fiscal year 2005, this is a disturbing trend.
    The Rio Grande Valley sector of the Border Patrol has surpassed the 
Tucson sector as the busiest crossing area along our Southwest border. 
Now 44 percent of all undocumented aliens apprehended along the 
Southwest border are entering through the Valley. Over the past 6 
months, these apprehensions have grown by 72 percent as compared to the 
same period in 2013.
    Most troubling is the skyrocketing increase in the apprehension of 
unaccompanied alien children. According to the Department of Health and 
Human Services, there is estimated to be an 815-percent increase in 
child apprehensions by the end of this fiscal year compared to fiscal 
year 2011. There were 6,500 children apprehended in fiscal year 2011 
but in fiscal year 2013 that number rose to nearly 25,000 unaccompanied 
children.
    Clearly this is a growing problem and we must do more to tackle it.
    To what can we attribute this increase in illegal border crossings 
and what more can we do to get a handle on it?
    Answer. The Department of Homeland Security (DHS) remains committed 
to developing and implementing policies and procedures that take into 
account the needs and safety of each unaccompanied alien child (UAC) we 
encounter. Recognizing the unique strains the short-term care of UAC 
places on DHS operational components as well as the intricacies of 
managing the external relationships, DHS instituted an internal UAC 
working group in 2011. This group, co-led by DHS's Office of Policy and 
Civil Rights Civil Liberties with representations from U.S. Immigration 
and Customs Enforcement (ICE), U.S. Customs and Border Protection 
(CBP), U.S. Citizenship and Immigration Services, and other DHS 
offices, is tackling several internal topics. External agency 
coordination with the Department of Health and Human Services, the 
Department of Justice and other agencies as required. DHS continues to 
review its contingency planning to ensure that operations are minimally 
impacted in the event of an emergency. CBP launched a successful 
unbranded public awareness campaign aimed at children, particularly 12- 
to 17-year-olds, and their families from El Salvador, Guatemala, and 
Honduras. Children, especially young girls, who migrate to the United 
States without the protections of their parents or legal guardians 
often face myriad dangers on the dangerous trek north to attempt to 
enter the United States illegally via Mexico. The campaign was live in 
Central America from January to July 2013 and continues today with 
assistance from Federal and NGO partners. The campaign was coordinated 
across DHS components, and with interagency partners, NGO 
representatives, and Central American Embassy representatives to ensure 
that the message resonated with the target audience.
    The goal of the campaign is to dissuade potential undocumented 
migrants from El Salvador, Guatemala, and Honduras and includes both 
the children themselves and their parents or guardians.
    Feedback from a survey conducted at the conclusion of the campaign 
found it to be highly credible, reaching over 70 percent among every 
population segment (Youths: 73 percent, Parents: 73 percent). The 
campaign's affinity level was the highest value (86 percent) being 
capable of capturing people's imagination and reflect their concerns.
    The high level of the campaign's credibility was the result of 
reinforcing real instances that respondents had experienced firsthand 
or through a close relationship.
    DHS has also led a successful public awareness campaign (Dangers of 
the Journey), conducted successful ICE Field Office Juvenile 
Coordinator training(s) that included a cross section of participants 
from the DHS and U.S. Department of Health and Human Service, and 
launched nationwide the CBP ``Know What to Expect Video.'' DHS also 
continues to assess its operational and fiscal needs to manage this 
population by responding to specific influx or emergency events by 
implementing and conducting planned operations.
    Equally important is the U.S. Government's engagement with other 
actors. These include with the countries of origin, especially the 
Governments of Mexico, Guatemala, El Salvador, and Honduras; 
international organizations, such as United Nations High Commissioner 
for Refugees; regional bodies, such as the Regional Conference on 
Migration; and non-governmental organizations. These parties are key 
players to better understand and address the causes for migration and 
also assist with the safe reintegration for those children who do not 
stay in the United States. Continued engagement and programs tailored 
to prevention and reintegration are instrumental to deterring the 
continued migration of UACs to the United States.
    Question. Given the increase in crossings, I am concerned about 
some of the reductions in your budget to immigration enforcement, 
including to detention beds and alternatives. Are we returning to the 
bad old days of ``catch and release'' because we will not have the 
resources to enforce our immigration laws?
    Answer. The President's fiscal year 2015 budget request proposes 
resources sufficient to fund 30,539 immigration detention beds. This 
bed level is consistent with U.S. Immigration and Customs Enforcement's 
(ICE) stated enforcement priorities and recent policy guidance and will 
allow ICE to continue to detain those aliens that fall into ICE's civil 
enforcement priorities or are subject to mandatory detention by 
statute, while shifting lower risk aliens into Alternatives to 
Detention (ATD) programs. Without a mandated minimum number of 
detention beds required by past appropriations, ICE is able to avoid 
inefficiencies and budget resources based on need. The requested bed 
level of 30,539 accommodates the current fiscal year 2014 mandatory 
detained population (22,417 year-to-date average as of March 31, 2014) 
and provides a sufficient number of beds dedicated to the accommodation 
of higher risk, non-mandatory detainees who present a risk to public 
safety, while placing lower risk, non-mandatory individuals in lower 
cost ATD programs. Although they are not detained, ATD participants are 
subject to monitoring and reporting and are placed in proceedings with 
the Executive Office of Immigration Review's immigration courts. 
Moreover, the President's budget calls for an increase in funding for 
ATD programs in the amount of $2.7 million.
             cuts to ice transportation and removal program
    Question. There has been a growth in the number of people illegally 
crossing our Southwest border. Given scarce resources, Immigration and 
Customs Enforcement (ICE) has established detention and removal 
priorities. These priorities are criminal aliens, repeat immigration 
violators, and recent border crossers.
    In fiscal year 2013, 216,180 aliens--or 59 percent--of the total 
368,344 aliens removed from the United States by ICE personnel were 
convicted criminals. ICE is also responsible for the transportation of 
unaccompanied alien children from where they are encountered along our 
borders to shelters operated by the Office of Refugee Resettlement 
within the Department of Health and Human Services. In fiscal year 
2012, ICE escorted just over 12,000 children at a cost of nearly $19.5 
million. In fiscal year 2013, that number nearly doubled to more than 
23,000 children at a cost of more than $37 million.
    Even if Congress agrees to fund a lower number of detention beds 
for next year, ICE still will require a robust transportation budget to 
remove aliens who meet its immigration priorities as well as transport 
even more children to appropriate official shelters. Yet the budget 
request for the transportation and removal program within ICE is $48 
million less than what was appropriated in fiscal year 2014.
    How much of the total Transportation and Removal Program funding 
(and what proportion) was dedicated to transporting UACs to ORR in the 
past 3 full fiscal years 2011-2013?
    Answer. While under the current appropriation structure UAC 
transport is funded under the Transportation and Removal Program (TRP) 
programs, projects, and activities budget line, ICE has developed a 
cost model to assist in breaking out the costs specific to UAC. The 
estimated costs fiscal year 2011 through fiscal year 2013 are as 
follows:

                                      FISCAL YEAR 2011 ESTIMATED UAC COSTS
----------------------------------------------------------------------------------------------------------------
                                                                   Man hour cost
                                       # UAC         Man hours          \2\       Transport cost    Total cost
----------------------------------------------------------------------------------------------------------------
Encounters......................           6,068  ..............  ..............  ..............  ..............
Local Transfer to HHS \3\.......           3,042           5,407        $249,277        $539,144        $788,421
Air Charter Transfer to HHS \4\.             980  ..............  ..............         514,730         514,730
Commercial Transfer to HHS \5\..           1,993           7,088         326,746       2,351,592       2,678,338
Transfer to ICE staging \1\.....             816  ..............         386,593  ..............         386,593
Air Charter Removal \4\.........              69  ..............  ..............          36,144          36,144
Commercial Removal \6,7\........              53           1,260          58,102          98,390         156,491
                                 -------------------------------------------------------------------------------
      Total.....................           6,068          13,755       1,020,718       3,540,000       4,560,718
----------------------------------------------------------------------------------------------------------------


                                      FISCAL YEAR 2012 ESTIMATED UAC COSTS
----------------------------------------------------------------------------------------------------------------
                                                                   Man hour cost
                                       # UAC         Man hours          \2\       Transport cost    Total cost
----------------------------------------------------------------------------------------------------------------
Encounters......................          11,997  ..............  ..............  ..............  ..............
Local Transfer to HHS \3\.......           6,014          10,691        $492,844      $1,065,937      $1,558,781
Air Charter Transfer to HHS \4\.           1,938  ..............  ..............       1,017,668       1,017,668
Commercial Transfer to HHS \5\..           3,941          14,013         646,007       4,649,316       5,295,324
Transfer to ICE staging \1\.....           1,613  ..............         784,455  ..............         784,455
Air Charter Removal \4\.........             136  ..............  ..............          71,460          71,460
Commercial Removal \6,7\........             104           2,492         114,872         194,526         309,398
                                 -------------------------------------------------------------------------------
      Total.....................          11,997          27,196       1,253,724       6,998,908       8,252,632
----------------------------------------------------------------------------------------------------------------


                                      FISCAL YEAR 2013 ESTIMATED UAC COSTS
----------------------------------------------------------------------------------------------------------------
                                                                   Man hour cost
                                       # UAC         Man hours          \2\       Transport cost    Total cost
----------------------------------------------------------------------------------------------------------------
Encounters......................          20,750  ..............  ..............  ..............  ..............
Local Transfer to HHS \3\.......          10,401          18,491        $852,389      $1,843,644      $2,696,033
Air Charter Transfer to HHS \4\.           3,353  ..............  ..............       1,760,158       1,760,158
Commercial Transfer to HHS \5\..           6,817          24,237       1,117,289       8,041,453       9,158,743
Transfer to ICE stagings \1\....           2,789  ..............       1,373,610  ..............       1,373,610
Air Charter Removal \4\.........             235  ..............  ..............         123,598         123,598
Commercial Removal \6,7\........             180           4,310         198,675         336,452         535,127
                                 -------------------------------------------------------------------------------
      Total.....................          20,750          47,038       3,541,964      12,105,305      15,647,269
----------------------------------------------------------------------------------------------------------------
Notes:
\1\ Man hour costs is detention cost requirement. Detention requirement based upon aliens booked into an ICE
  facility with subsequent bookout to an ORR facility; ALOS is assumed to be 3 days per PBNDS standards; fiscal
  year 2013 bed rate is $118.88 plus salary requirement of $45.29; fiscal year 2014 bed rate is $119.86 plus
  salary.
\2\ Cost per hour based on fiscal year 2013 actual payroll/5,972 officers/2,080 base hours.
\3\ Local transfers are effectuated on buses. Cost per bus seat is $177.26 based upon contract data.
\4\ Air charter costs are estimated at $525 per seat based upon contract costs.
\5\ Cost of commercial tickets estimated at $323; includes costs for two officers for every 2.25 aliens;
  includes $300 in other expenses (hotel, rental cars, etc.) per officer estimated from MCA.
\6\ Cost of commercial tickets estimated at $323; includes costs for two officers for every alien; includes $300
  in other expenses (hotel, rental cars, etc.) per officer estimated from MCA.
\7\ Assumes 50 percent 2-day trips and 50 percent 1-day trips.

    Question. Is ICE deliberately trying to prevent the removal of 
convicted criminals by such a deep cut in this program?
    Answer. U.S. Immigration and Customs Enforcement (ICE) prioritizes 
the removal of individuals who pose a danger to our national security, 
public safety, or border security. These priorities include individuals 
convicted of certain crimes, with a particular emphasis on violent 
criminals, felons, and repeat offenders. The President's fiscal year 
2015 budget requests funding for 30,539 immigration detention beds. The 
requested bed level of 30,539 accommodates the current fiscal year 2014 
mandatory detained population (22,417 year-to-date average as of March 
31, 2014) and provides for a sufficient number of beds to accommodate 
the high-risk, non-mandatory detainees who present a risk to public 
safety, while placing lower risk, non-mandatory individuals in lower 
cost alternatives to detention programs.
    As a result, ICE assesses that the President's budget request will 
allow it to continue to remove convicted criminals and other priority 
aliens who pose a risk to public safety and national security.
    Question. Does ICE not anticipate that its transportation costs for 
alien children will increase next year, because the rate of growth 
indicates just the opposite?
    Answer. Currently, the fiscal year 2014 apprehension trend reflects 
a significant increase in the removal of unaccompanied alien children 
from the fiscal year 2013 level, the transportation and removal program 
budget is based on the total number of removals that are projected for 
fiscal year 2015. The fiscal year 2015 President's budget assumes an 
average daily population (ADP) of 30,539 which is 3,461 below fiscal 
year 2014. At 30,539 ADP, we project a savings of $26 million in 
transportation and removal program costs.
                 funding for alternatives to detention
    Question. Your budget proposes to reduce detention bed capacity by 
more than 3,400 beds with a corresponding savings of $185 million. 
Supporting budget documents justify this cut by claiming, ``ICE will 
ensure the most cost-effective use of our appropriated funding by 
focusing the more-costly detention capabilities on priority and 
mandatory detainees, while placing low-risk, non-mandatory detainees in 
lower cost alternatives to detention programs.'' There clearly remains 
a large illegal alien population which needs to be placed in some kind 
of a detention capacity, yet you provide less than a $3 million 
increase to the Alternatives to Detention program. Many Members of 
Congress are skeptical that this Administration is serious about 
securing our borders so we can move forward with legislation to provide 
needed reforms to our broken immigration system. Unfortunately, this 
budget provides further support to immigration-reform opponents' 
beliefs that the Administration will permit illegal aliens to reside in 
our communities without any type of supervised release.
    Given the proposed reduction in detention beds, why is there not a 
higher level of funding requested for the Alternatives to Detention 
program?
    Answer. U.S. Immigration and Customs Enforcement (ICE) exercises 
its detention authorities in accordance with the requirements of 
immigration law, precedent decisions, policy and the Federal courts. 
ICE ensures the most cost-effective use of its funding by focusing 
detention capabilities on priority and mandatory detainees while 
placing lower risk, non-mandatory detainees in lower cost alternatives 
to detention. The Alternatives to Detention program is an important 
piece of ICE's immigration enforcement strategy. ICE considers 
alternatives to detention where appropriate and legally authorized. 
These include bond, order of recognizance, order of supervision, 
telephonic monitoring, or global positioning system monitoring. Funding 
for the program has exponentially increased since fiscal year 2012. In 
fiscal year 2013, the President's budget requested an additional $19 
million, from $72.4 million to $91.4 million (a 21-percent increase). 
ICE was operating under a continuing resolution through fiscal year 
2014, which limited ICE's resources. The President's fiscal year 2015 
budget requests $2.7 million above fiscal year 2013 and 2014 levels.
    Question. Does this funding level reflect the Administration's 
skepticism towards detention alternatives?
    Answer. The Alternatives to Detention program is an important and 
effective piece of U.S. Immigration and Customs Enforcement's (ICE) 
immigration enforcement strategy. To illustrate this, ATD's compliance 
court appearance rates are below.

                                         COMPLIANCE RATES BY FISCAL YEAR
                                              [Figures in percent]
----------------------------------------------------------------------------------------------------------------
                                  Fiscal year 2014 through       Fiscal year 2013           Fiscal year 2012
                                           March           -----------------------------------------------------
                                ---------------------------
                                    FS       TO     Total      FS       TO     Total      FS       TO     Total
----------------------------------------------------------------------------------------------------------------
Success Rate...................     92.9     85.3     90.5     93.5     89.5     92.3     93.0     88.0     91.5
Failure Rate...................      7.1     14.7      9.5      6.5     10.5      7.7      7.0     12.0      8.5
Absconder Rate.................      5.9      6.4      6.1      5.3      4.5      5.1      5.6      3.7      5.0
----------------------------------------------------------------------------------------------------------------


                                      COURT APPEARANCE RATES BY FISCAL YEAR
----------------------------------------------------------------------------------------------------------------
                                                              Fiscal year  2014     Fiscal year     Fiscal year
                                                                through March          2013            2012
                  Court Appearance Stats                   -----------------------------------------------------
                                                                     FS                 FS              FS
----------------------------------------------------------------------------------------------------------------
EOIR Attendance Rates (percent)...........................                  99.4            99.6            99.6
EOIR Non Attendance Rate (percent)........................                   0.6             0.4             0.4
No. of Attended...........................................                 6,757          17,822          16,043
No. of Scheduled..........................................                 6,795          17,897          16,101
EOIR Final Hearing Attendance Rates (percent).............                  94.3            96.7            97.6
EOIR Final Hearing Non Attendance Rates (percent).........                   5.7             3.3             2.4
No. of Attended...........................................                   626           2,185           2,353
No. of Scheduled..........................................                   664           2,260           2,411
----------------------------------------------------------------------------------------------------------------
Funding for the program has exponentially increased since fiscal year 2012. In fiscal year 2013, the President's
  budget requested an additional $19 million, from $72.4 million to $91.4 million (a 21-percent increase). ICE
  was operating under a continuing resolution through fiscal year 2014, which limited ICE's resources. The
  President's fiscal year 2015 budget requests $2.7 million above fiscal year 2013 and 2014 levels. The
  Administration is committed to ensuring alternate detention options are available for whom ICE has determined
  traditional detention is neither mandatory nor appropriate.
Data Notes:
  --FS = Full service, TO = Technology only
  --Compliance Rates are defined as the following--
    --Success Rate: The percent of participants who were terminated from ATD and were compliant during their
  time in ATD.
    --Failure Rate (Absconder and Violator Rate): The percent of participants who were terminated from ATD due
  to failure to comply with program policies or absconded from the program.
    --Absconder Rate: The percent of participants who absconded from the program.
  --Court data is only tracked for full service participants as it is contractually required. ICE cannot provide
  technology only participant court data. Data from Behavioral Interventions, Inc.

                         honoring ice detainers
    Question. A number of jurisdictions around the country have opted 
not to honor ICE requests to place a person in the custody of local law 
enforcement on detainer so that ICE can determine their legal status. 
At the same time, ICE claims that local authorities do not have the 
right not to honor these detainers.
    Recently, a senior ICE official testified that the increase in not 
honoring detainers has ``gotten to the point where it's a community 
safety issue.''
    Please quantify how these decisions are having a potential negative 
impact on public safety.
    Answer. Thus far in calendar year 2014, U.S. Immigration and 
Customs Enforcement (ICE) has identified nearly 1,300 aliens who were 
released from State and local jails because ICE detainers were not 
honored by law enforcement agencies. This has a serious potential to 
negatively impact community safety when criminals are released into the 
general public.
    These aliens are released into the community where they can 
recidivate and not only pose a danger to the public safety but also a 
risk to ICE officers as they attempt to locate and arrest them. 
Arresting these individuals outside of a secure environment like a jail 
when our detainers are not honored poses an increased risk to officer 
safety.
    Question. Also, please describe the impact on ICE resources, 
including agent workload, resulting from these local decisions.
    Answer. Immigration detainers are a crucial part of U.S. 
Immigration and Customs Enforcement's (ICE) efforts to remove criminals 
who are in Federal, State, or local custody and whose release into the 
community may undermine public safety. The form I-247, Immigration 
Detainer-Notice of Action, notifies a Federal, State, or local law 
enforcement agency that ICE intends to assume custody of an individual 
once he or she is no longer subject to detention by the law enforcement 
agency. To enable ICE to assume custody, a detainer requests that the 
law enforcement agency maintain custody of an alien for a period not to 
exceed 48 hours (excluding Saturdays, Sundays, and Federal holidays) 
after he or she would otherwise be released.
    Thus far in calendar year 2014, ICE has identified nearly 1,300 
individuals who were released from State and local jails because ICE 
detainers were not honored by law enforcement agencies. Arresting these 
individuals outside of a secure environment if our detainers are not 
honored poses an increased risk to officer safety, and equates to an 
additional cost of approximately $3,900 per at-large criminal arrest, 
requiring approximately 34 work-hours.
                    immigration data and priorities
    Question. One of things that the subcommittee would greatly benefit 
from would be more comprehensive and timely data about how the 
Department is managing its border and immigration enforcement 
responsibilities.
    How many individuals are being apprehended, where are they being 
apprehended, and how do they fit into the Department's enforcement 
priorities?
    Answer. Please reference the below chart reflecting U.S. 
Immigration and Customs Enforcement (ICE), Enforcement and Removal 
Operations (ERO) apprehensions in fiscal years 2013 and 2014 (year-to-
date).

     FISCAL YEAR 2013 ENFORCEMENT AND REMOVAL OPERATIONS APPREHENSION THREAT LEVEL BY AREA OF RESPONSIBILITY
----------------------------------------------------------------------------------------------------------------
                                                               Fiscal year 2013 arrests by threat level
                                                     -----------------------------------------------------------
               Area of responsibility                    ICE        ICE        ICE      Non-criminal
                                                        threat     threat     threat     immigration     Total
                                                       level 1    level 2    level 3      violator
----------------------------------------------------------------------------------------------------------------
Atlanta.............................................      5,988      3,429      3,434           4,749     17,600
Baltimore...........................................        731        267        475           1,105      2,578
Boston..............................................      1,474        356        478           1,640      3,948
Buffalo.............................................        889        204        107             511      1,711
Chicago.............................................      3,395      2,236      2,807           3,573     12,011
Dallas..............................................      6,422      3,124      4,405           2,022     15,973
Denver..............................................      1,786      1,366      1,100             625      4,877
Detroit.............................................      1,529      1,160      1,387           1,361      5,437
El Paso.............................................      1,195        415        553           1,106      3,269
Houston.............................................      4,827      2,786      2,622           3,716     13,951
Los Angeles.........................................      9,570      4,531      4,666           6,396     25,163
Miami...............................................      3,813      1,529      1,812           4,196     11,350
New Orleans.........................................      2,234      1,590      2,546           2,745      9,115
New York City.......................................      1,796        811      1,199           1,827      5,633
Newark..............................................      1,116        326        631           2,380      4,453
Philadelphia........................................      2,172        583        812           1,416      4,983
Phoenix.............................................      2,886      1,501      2,514           4,166     11,067
Salt Lake...........................................      1,959      1,356      1,863           1,035      6,213
San Antonio.........................................      4,172      3,787     13,262           4,513     25,734
San Diego...........................................      1,607        651      1,781           2,499      6,538
San Francisco.......................................      7,554      3,227      4,134           5,885     20,800
Seattle.............................................      2,183        994      1,430           2,558      7,165
St. Paul............................................      1,584      1,302      1,342           1,318      5,546
Washington..........................................      1,545      1,315      1,229           1,554      5,643
Fugitive Operations Support Center..................          8  .........  .........               5         13
Unassigned Area of Responsibility...................        275        116        183             942      1,516
----------------------------------------------------------------------------------------------------------------


   FISCAL YEAR 2014 YEAR-TO-DATE U.S. IMMIGRATION AND CUSTOMS ENFORCEMENT AND REMOVAL OPERATIONS APPREHENSION
                                     THREAT LEVEL BY AREA OF RESPONSIBILITY
----------------------------------------------------------------------------------------------------------------
                                                         Fiscal year 2014 year-to-date arrests by threat level
                                                     -----------------------------------------------------------
               Area of responsibility                    ICE        ICE        ICE      Non-criminal
                                                        threat     threat     threat     immigration     Total
                                                       level 1    level 2    level 3      violator
----------------------------------------------------------------------------------------------------------------
Atlanta.............................................      2,662      1,561      1,261           1,864      7,348
Baltimore...........................................        268        159        212             490      1,129
Boston..............................................        459        168        210             627      1,464
Buffalo.............................................        400         87         54             285        826
Chicago.............................................      1,441      1,194      1,226           1,461      5,322
Dallas..............................................      2,858      1,647      1,846             969      7,320
Denver..............................................        699        597        377             230      1,903
Detroit.............................................        751        519        540             570      2,380
El Paso.............................................        477        157        254             482      1,370
Houston.............................................      2,533      1,552      1,385           1,945      7,415
Los Angeles.........................................      4,390      2,224      1,827           2,794     11,235
Miami...............................................      1,393        715        724           1,581      4,413
New Orleans.........................................      1,087        828        841           1,031      3,787
New York City.......................................        800        454        552             829      2,635
Newark..............................................        513        180        259           1,041      1,993
Philadelphia........................................        984        284        311             820      2,399
Phoenix.............................................        972        643      1,048           1,495      4,158
Salt Lake City......................................        744        626        856             439      2,665
San Antonio.........................................      1,607      1,362      4,464           2,380      9,813
San Diego...........................................        862        431        850           1,393      3,536
San Francisco.......................................      2,893      1,079      1,249           1,601      6,822
Seattle.............................................        879        492        604             917      2,892
St. Paul............................................        653        567        461             436      2,117
Washington..........................................        575        546        473             523      2,117
FOSC................................................          4  .........  .........               3          7
Unassigned Area of Responsibility...................        148        139        121             452        860
----------------------------------------------------------------------------------------------------------------
The ``area of responsibility'' refers to the ERO field office to which the officer conducting the arrest is
  assigned. The arrests listed under ``FOSC'' are conducted by officers assigned to the Fugitive Operations
  Support Center in Williston, Vermont, although the arrests may take place in another location. The arrests
  listed under ``unassigned area of responsibility'' refer to arrests conducted by officers not assigned to an
  ERO field office in the ICE case management system.
Fiscal year 2014 year-to-date data was updated as of March 29, 2014, (ICE Integrated Decision Support (IIDS)
  v.1.16 as of March 31, 2014, ENFORCE Integrated Database (EID) Extract as of March 29, 2014). Fiscal year 2013
  data are historical and remain static.
Arrest criminality is based on apprehension threat level. The apprehension threat level is associated with the
  person's ICE arrest and it reports only on convictions for crimes occurring on or prior to the date of that
  ICE arrest. ICE began reporting this as of October 1, 2010. Threat levels reflect the priorities outlined in
  former Director John Morton's June 2010 memorandum entitled ``ICE Civil Immigration Enforcement Priorities
  effective October 1, 2010.'' Since fiscal year 2011, ICE has defined criminality as whether or not an alien
  has an ICE threat level (convicted criminal) or not (non-criminal immigration violator). For purposes of
  prioritizing the removal of aliens convicted of crimes, ICE personnel refer to the following offense levels:
  level 1, level 2, and level 3 offenders. Level 1 offenders are those aliens convicted of ``aggravated
  felonies'' as defined in section 101(a)(43) of the Immigration and Nationality Act, or two or more crimes each
  punishable by more than 1 year, commonly referred to as ``felonies.'' Level 2 offenders are aliens convicted
  of any other felony or three or more crimes each punishable by less than 1 year, commonly referred to as
  ``misdemeanors.'' Level 3 offenders are aliens convicted of misdemeanor crime(s) punishable by less than 1
  year.
Starting in fiscal year 2013, ERO arrests include all ERO programs. ERO programs include Detention and
  Deportation, Fugitive Operations, Alternatives to Detention, Criminal Alien Program, Detained Docket Control,
  Non-Detained Docket Control, Violent Criminal Alien Section, Joint Criminal Alien Response Team, Juvenile, Law
  Enforcement Area Response, and 287(g). Prior to fiscal year 2013, 287(g) data was not included.

    Question. How many meet ICE's statutory or policy criteria for 
detention?
    Answer. In fiscal year 2013, ICE Enforcement and Removal Operations 
(ERO) recorded encountered 193,357 encounters after a criminal arrest 
by law enforcement agencies criminal immigration violators. Of these 
individuals, 192,912 met one of ICE's enforcement priorities (e.g., 
criminal alien, repeat immigration violator, or recent border crosser) 
and were booked in for detention. The total average daily population in 
ICE detention in fiscal year 2013 was 33,788. Fifty percent of all 
fiscal year 2013 ICE book-ins derived from a Customs and Border 
Protection apprehension.
    In fiscal year 2014 (year-to-date), ICE ERO encountered recorded 
82,640 encounters after a criminal arrest by law enforcement agencies 
criminal immigration violators. Of these individuals, 77,765 met one of 
ICE's enforcement priorities (e.g., criminal alien, repeat immigration 
violator, or recent border crosser) and were booked in for detention. 
The total average daily population in ICE detention in fiscal year 2014 
year-to-date is 31,447. 56 percent of all fiscal year 2014 year-to-date 
book-ins derived from a Customs and Border Protection apprehension.
    Question. How many are put on Alternatives to Detention or some 
other non-detention form of supervision, and which enforcement priority 
levels do they fit into?
    Answer. Please reference the below chart reflecting Alternatives to 
Detention enrollments by priority status from fiscal years 2012-2014 
(year-to-date).

----------------------------------------------------------------------------------------------------------------
                                                                  Priority-- non- Non-priority--
                                                     Criminal        criminal      non-criminal        Total
                                                    enrollments     enrollments     enrollments     enrollments
----------------------------------------------------------------------------------------------------------------
Fiscal year 2014 thru Jan 2014..................           2,210           1,900             370           4,480
Fiscal year 2013 year-end snapshot \1\..........           7,268           6,462           1,150          14,880
Fiscal year 2012................................             n/a             n/a             n/a          15,997
----------------------------------------------------------------------------------------------------------------
In fiscal year 2012, criminality, priority--non-criminal, and non-priority--non-criminal enrollments were not
  captured. As a result, this information is designated n/a.
\1\ In fiscal year 2013, a total of 6,240 ``priority--non-criminal enrollments'' and ``non-priority--non-
  criminal enrollments'' were not captured between October 2012 and January 2013. As a result, this data is only
  available beginning in February 2013. Priority and criminality enrollment statistics were pulled on a monthly
  basis and combined to create fiscal year statistics. Monthly enrollments are counts of individuals, but
  individuals may have been re-enrolled in subsequent months.
Enrollment data is from ATD service providers. Participant Reports, criminal and priority enrollments are pulled
  on a monthly basis from ICE Integrated Decision Support (IIDS). IIDS is a data warehouse that contains dynamic
  data extracts from the Enforcement Integrated Database (EID).
Criminal designation is based on an alien's removal case threat level. ATD Enforcement Priorities are defined as
  a non-criminal alien with one of the following conditions: charged with a specific subset of IN A code 212 or
  237, has a final order, a recommended supervision case category of 3, 10, 11, 12, 16, 8C, 8E, 8F, 8G, 8H, or
  8I, was arrested by Border Patrol, or has a pending criminal charge.
Approximately 3.5 percent of submitted A-numbers fail to return a record, the status is unknown, and it is not
  included in the data set.

    Question. On average, how many days does it take to keep people on 
ATD before the cost benefits outweigh the average days of someone who 
is physically detained?
    Answer. With an average bed per day rate of $119.86 and an average 
length of stay in custody of 31.1 days, on average it costs U.S. 
Immigration and Customs Enforcement (ICE) $3,727.65 to detain an alien. 
The average cost per participant under the Intensive Supervision 
Appearance Program II (ISAP II) contract is $4.50 per participant per 
day on average. This translates into 828 \1\ days of alternatives to 
detention monitoring before the cost benefit is negated compared to 
that of detention.
---------------------------------------------------------------------------
    \1\ Based upon option year 4 ISAP II contract prices for legal 
stage, contract management, and assigned technology across both the 
full-service and technology-only components, and the use of high-low-
high reporting, which includes recurring case reviews that, depending 
on the participant's compliance with release conditions, may result in 
higher or lower levels of case management and technology assignment 
which in turn affects reporting and associated costs. These days can 
also be non-consecutive days of enrollment.
---------------------------------------------------------------------------
    Question. How many criminal vs. non-criminal aliens were removed in 
fiscal years 2009-2013? (Please provide both actual numbers and the 
percent of each).
    Answer. Please reference the below chart reflecting removals by 
criminality from fiscal year 2009 through fiscal year 2013.

                                 FISCAL YEARS 2009-2013 REMOVALS BY CRIMINALITY
----------------------------------------------------------------------------------------------------------------
                                                                                   Non-criminal
                                                   Convicted                        immigration
                                 Convicted         criminal        Non-criminal      violator
         Fiscal year             criminals       percentage of      immigration    percentage of       Total
                                                total removals       violator     total removals
                                                   (percent)                         (percent)
----------------------------------------------------------------------------------------------------------------
Fiscal year 2009............         136,343                  35         253,491              65         389,834
Fiscal year 2010............         195,772                  50         197,090              50         392,862
Fiscal year 2011............         216,698                  55         180,208              45         396,906
Fiscal year 2012............         225,390                  55         184,459              45         409,849
Fiscal year 2013............         216,810                  59         151,834              41         368,644
----------------------------------------------------------------------------------------------------------------
Data are historic and remain static. Removals include returns, which include voluntary returns, voluntary
  departures and withdrawals under Docket Control.
Starting in fiscal year 2009, ICE began to ``lock'' removal statistics on October 5th at the end of each fiscal
  year and counted only the aliens whose removal or return was already confirmed. Aliens removed or returned in
  that fiscal year but not confirmed until after October 5th were excluded from the locked data and thus from
  ICE statistics. To ensure an accurate and complete representation of all removals and returns, ICE will
  include the removals and returns confirmed after October 5th into the next fiscal year. [The number of
  removals in fiscal year 2009, excluding the ``lag'' from fiscal year 2008, was 387,790. The number of removals
  in fiscal year 2010, excluding the ``lag'' from fiscal year 2009, was 373,440. This number does not include
  76,732 expedited removal cases which ICE closed on behalf of CBP in fiscal year 2010. Of those 76,732 cases,
  33,900 cases resulted from a joint CBP/ICE operation in Arizona. ICE spent $1,155,260 on those 33,900 cases.
  The number of removals in fiscal year 2011, excluding the ``lag'' from fiscal year 2010, was 385,145. The
  number of removals in fiscal year 2012, excluding the ``lag'' from fiscal year 2011, was 402,919. Fiscal year
  data lag/case closure lag is defined as the physical removal of an alien occurring in a given month; however,
  the case is not closed in ENFORCE Alien Removal Module until a subsequent fiscal year after the data is
  locked. Since the data from the previous fiscal year is locked, the removal is recorded in the month the case
  was closed and reported in the next fiscal year removals. This will result in a higher number of recorded
  removals in a fiscal year than actual departures. ICE has defined criminality as whether or not an alien has a
  criminal conviction recorded in the Crime Entry Screen of its data system.]

  delays in processing applications for immigration benefits of u.s. 
                            citizen spouses
    Question. There have been recent media reports claiming Americans 
seeking ``green cards'' for their foreign spouses or immediate family 
members are experiencing delays in processing of these applications due 
in part to the focus of U.S. Citizenship and Immigration Services 
adjudicators on processing the Deferred Action for Childhood Arrivals. 
The stories claim that what used to take 5 months has now stretched to 
upwards of 15 months--keeping families separated far longer than should 
be necessary.
    What are the actual facts behind these claims?
    Answer. U.S. Citizenship and Immigration Services (USCIS) has 
experienced an increase in processing times for numerous benefit types, 
including petitions for spouses filed by United States citizens. In 
building capacity at USCIS Service Centers to handle the Deferred 
Action for Childhood Arrivals requests, the petitions for immediate 
relatives of U.S. citizens were transferred to the National Benefits 
Center (NBC) in Missouri. Soon thereafter, the NBC encountered a higher 
than anticipated vacancy rate resulting from as many as 50 percent of 
qualified job seekers declining offers of employment, which affected 
NBC processing times. USCIS has addressed these longer processing times 
by continuing to hire staff and by transferring cases to locations 
better able to handle additional work. This has improved USCIS's 
ability to adjudicate these immediate relative petitions in a timely 
manner and we now anticipate reducing the processing time of immediate 
relative petitions to an average of 5 months or less by this summer.
    While a relatively few cases may have had processing times of 15 
months, the average processing time for all immediate relative 
petitions filed by U.S. citizens has been well below this figure for 
many years.
    Question. Currently how long is it taking to process spousal/family 
green cards compared with March 2011?
    Answer. The current processing time for family-based form I-485 is 
6 months. In March 2011 the processing time was 4.6 months. The current 
processing time for immediate relative form I-130 is 7.4 months. In 
March 2011 the processing time was 5.8 months.
    Question. What is needed to reduce this backlog and provide the 
level of timely service deserved by people who are adhering to our 
immigration laws?
    Answer. USCIS has expanded its capacity to adjudicate backlogged 
petitions and applications by reallocating workload among our centers, 
hiring additional staff, and expanding the use of overtime. USCIS 
expects to reduce the processing time of immediate relative form I-130s 
to an average of 5 months or less by this summer.
           use of increased fees to pay for customs officers
    Question. Last year, the President's budget called for hiring 1,877 
new Customs and Border Protection officers (CBPOs) through an increase 
in the COBRA and immigration user fees and 1,600 new officers through 
direct appropriations. The Department made a strong case--validated by 
an independent study--for the need for more officers to expedite travel 
and trade. According to your budget request, an additional 2,000 CBPOs 
is projected to add nearly 66,000 new jobs, add $4 billion to gross 
domestic product, and result in 46,000 more seizures of illegal items, 
including potentially over $5.5 million in counterfeit and fraudulent 
goods.
    The Senate version of the fiscal year 2014 bill concurred in one of 
the fee proposals. However, due to extremely vocal opposition by 
outside special interests, the final fiscal year 2014 bill rejected any 
fee increase and ended up funding 2,000 new officers from direct 
appropriations. In fiscal year 2016, it will cost more than $350 
million just to sustain those 2,000 new officers. While I strongly 
support hiring more officers, clearly this Committee cannot afford to 
pay for any additional CBP officers through direct appropriations.
    As it did last year, your budget proposes to hire 2,000 additional 
CBP officers via the same increase in the COBRA and immigration user 
fees. Ultimately, Congress was unwilling to accept these increases last 
year. How can you convince the Congress to take a different position 
this year?
    Answer. U.S. Customs and Border Protection's cost of inspectional 
services has steadily increased while the rates for inspectional fees 
intended to support key parts of CBP's operations have not been 
increased since 2007 for the Consolidated Omnibus Budget Reconciliation 
Act of 1985 (COBRA) fees and 2001 for the Immigration User Fees (IUF).
    IUF fees are intended to fully support the cost of CBP's 
immigration inspectional activities. However, in fiscal year 2013, CBP 
only recovered 76 percent of its costs for immigration inspectional 
services from the IUF fees. Had IUF been adjusted annually for 
inflation since its creation, the air and commercial vessel passenger 
fees would have been $12.31 in fiscal year 2013. CBP is proposing a $2 
fee increase from the current $7 rate to $9 for IUF air and commercial 
vessel passengers, well below their inflationary level.
    While COBRA was not statutorily intended to be full cost recovery, 
given the hierarchical framework of those items the fees reimburse; CBP 
believes the percentage of cost recovery for COBRA is below what was 
originally intended. In fiscal year 2013, CBP only recovered 50 percent 
of the costs eligible to be reimbursed by COBRA fee revenue. For 
example, had the COBRA fees been adjusted annually for inflation since 
its creation, the air and commercial vessel passenger fee would have 
been $10.66 in fiscal year 2013. CBP is proposing an increase from the 
current rate of $5.50 to $7.50 for the COBRA commercial air passenger 
fee in fiscal year 2015, well below its inflationary level, with 
proportional increases for the additional fees governed by COBRA.
    Current deltas in CBP's cost recovery for the activities supported 
by COBRA and IUF fees are made up with CBP's annual appropriations. Not 
increasing the fees will continue to burden CBP's appropriated 
resources and will result in diminished capabilities for CBP as each 
year the buying power of these fees decreases. The proposed fee 
increases in the fiscal year 2015 budget, supporting up to an 
additional 2,000 CBPOs will not only support CBP's goal to apply the 
findings of the Workload Staffing Model identified CBPO requirement at 
U.S. Ports of Entry for fiscal year 2015, but will continue to do so 
with the goal of more efficiently and effectively accomplishing CBP's 
trade and travel facilitation mission, and position CBP to better 
address the growing needs associated with increasing trade and travel.
    To address these needs, the President's fiscal year 2015 budget 
requests funding for new hand-held screening equipment, resources to 
begin replacing large and small scale Non-Intrusive Inspection (NII) 
systems, and support for new CBPOs and support staff. While these 
requests are critical to increase efficiencies (e.g., hand-held 
inspection equipment) and prevent the loss of ground gained (e.g., 
replacement of aging NII equipment), the most notable step to address 
the workload need is additional CBPOs, along with the appropriate level 
of mission and operational support staff. These strategies and the 
resources necessary to accomplish this mission have been outlined in 
CBP's fiscal year 2014 Resource Optimization Strategy report. With 
these proposed fee increases, CBP could potentially recover 99 percent 
of current IUF eligible costs, 99 percent of current COBRA eligible 
costs for customs inspectional activity in the air environment, 19 
percent for COBRA eligible expenses in the land environment, and 98 
percent for COBRA eligible expenses in the sea environment in fiscal 
year 2015.
    The projected cost recovery in fiscal year 2015 assumes fiscal year 
2013 costs and service levels and does not take into consideration an 
estimated 3-4 percent growth in passenger volume in future fiscal years 
or infrastructure requirements assumed in CBP's Resource Optimization 
Strategy. Even with increasing volume and requirements in future fiscal 
years, the proposed increase in collections, with an increase in the 
air passenger environment alone assuming current service levels, will 
mean greater security, lower wait times, and increased services for 
those traveling to the United States.
    Question. What is the status of hiring and training the 2,000 new 
CBP officers we funded in the fiscal year 2014 act?
    Answer. U.S. Customs and Border Protection's (CBP) Office of Human 
Resource Management is planning to publish new CBPO Job Opportunity 
Announcements in late spring and summer 2014 to support hiring surge 
requirements. Additional vacancy announcements will be opened as 
necessary in 2015 to support remaining hiring requirements. A critical 
component in supporting this hiring initiative is the Office of 
Internal Affairs' (IA) role in conducting polygraph examinations and 
background investigations within the required timeframes. We estimate 
that IA will need to clear at least 4,300 applicants in total for 
fiscal years 2014 and 2015 to meet CBP's hiring requirements. CBP will 
meet this requirement and have sufficient candidates to place into 
academy classes, to onboard all 2,000 new CBP officers, as well as 
address attrition hiring goals by the end of fiscal year 2015.
    Question. Do you and FLETC have sufficient resources to perform 
polygraphs and background investigations and then train the 2,000 CBPOs 
from fiscal year 2014? If not, how much in additional resources do you 
and FLETC require?
    Answer. U.S. Customs and Border Protection (CBP) has developed a 
plan to have sufficient resources to place all 2,000 new CBPOs into 
academy classes and on board by the end of fiscal year 2015 through 
additional contract support. A request for proposal was announced on 
FedBizOpps on March 18, 2014, for certified polygraph support, and CBP 
expects to award the contract this summer. CBP is continuously 
monitoring resource needs and progress towards the hiring of the 2,000 
new CBPOs and will address any additional resource needs should they 
develop.
                     reduction in cbp flight hours
    Question. This Committee strongly supports border security and has 
consistently added more funds for critical air and marine assets as 
well as funds to operate them. We cannot adequately protect our borders 
when your budget cuts funds to fly planes and operate boats. In 2014, 
Congress specifically added funds to sustain 107,000 flight hours, 
returning you to the fiscal year 2010 level. But the funding level 
requested in this budget reduces flight hours to about 73,000 hours, 
equaling the unacceptably low fiscal year 2103 level.
    Given all of the border security efforts and the counterdrug 
mission, how can you justify a $33 million reduction to CBP flight 
hours?
    Answer. U.S. Customs and Border Protection's (CBP) air assets have 
become more effective and flexible as its 10-year strategic 
recapitalization effort has progressed, and the numbers of types of 
aircraft have been consolidated as the fleet has been standardized. The 
total aircraft population is declining as aged assets are retired. The 
flexibility, number, and types of assets are critical components of the 
flight hour equation, as are the priorities input to the flight hour 
allocation process. Over the years, CBP has noted that there is not 
always a consistent correlation between the flight hours allocated in a 
given year and mission results, but on average an increase in sorties 
can improve results and increase situational awareness across the 
borders and maritime patrol lanes. When faced with difficult budget 
decisions, CBP chose to manage fluctuating flight hour allocations so 
as to take full advantage of the enhanced capabilities of its assets. 
Missions with solid intelligence and the highest potential for gain are 
emphasized over missions that do not directly contribute to CBPs core 
needs, or may require more intensive effort to gain the added 
situational awareness. CBP's Office of Air and Marine (OAM) will always 
respond to missions where officer safety could be at risk and to 
humanitarian missions. However, within the overall CBP priorities that 
include the Southwest border, the drug source and transit zone, and 
counter-drug operations along the maritime approaches to Puerto Rico, 
sorties that strictly enhance intelligence, strictly support other 
Federal, State, and local not directly involved with Department of 
Homeland Security missions, provide logistical support, or are not 
reimbursed, will be limited or eliminated from the mix of missions.
                   p-3 service life extension program
    Question. Congress has supported CBP's long-term plan to extend the 
service life of the P-3 aircraft another 18-20 years. The P-3 patrol 
aircraft have been conducting counter drug missions in the source, 
transit, and arrival zones of the Caribbean and Eastern Pacific for 
over two decades. In fiscal year 2013 these patrol aircraft disrupted 
shipments of over 119,000 pounds of bulk cocaine transiting from South 
America to Mexico and the United States. For this fiscal year, CBP has 
allocated the P-3 program 200 flight hours in the Gulf of Mexico to 
address the specific threat to the Gulf Coast and Puerto Rico, and 300 
hours off the California coast and Baja to stem the flow of drugs to 
the California Coast.
    The P-3 plan--submitted to Congress in November 2008, and fully 
funded at the requested level each year--called for the service life 
extension of 14 P-3s, with final funding in fiscal year 2015. To date, 
nine P-3s have been completed, two aircraft have been partially 
completed, and three more remain to be completed through the first half 
of fiscal year 2016. I understand that a small amount of funding is 
needed to complete the remaining aircraft, yet no funds are included in 
the budget request. It seems pound-wise and penny-foolish to have spent 
so much time and money to procure the remaining wing-sets to upgrade 
these aircraft only to leave the last two to three unfinished.
    Why not complete the program?
    Answer. The effectiveness of the CBP P-3 long range patrol aircraft 
as a counter-drug asset is well-documented. Over the past 8 years, the 
P-3 wing has disrupted over 1.28 million pounds of bulk cocaine 
destined for Mexico and the United States, valued at over $96 billion. 
The P-3 Service Life Extension Program (SLEP) has proven the most 
efficient way to ensure that these valuable assets are available for 
the next 18-20 years.
    In recognition of the strong desirability to finish the SLEP and 
retain all 14 aircraft, and taking advantage of the tremendous 
efficiencies achieved by the program in the past year and a half, CBP 
is determined to find a way forward to complete work on the last three 
aircraft. The CBP OAM has been conducting a reconciliation of all SLEP 
obligations and expenses, and refining its estimates for the work to be 
completed on the last aircraft to ensure that full advantage is taken 
of the efficiencies gained to date. CBP expects to develop a potential 
way forward to fund the remaining work in fiscal year 2014, combining 
internal budget offsets and recoveries from prior year funded 
activities with reduced cost estimates and, provided it is successful, 
intends to consult with the Committees on the potential solutions.
    Question. What are the impacts to the total Federal Government 
effort in the counternarcotics mission in the source and transit zone 
if CBP reduces its assets?
    Answer. Currently CBP is the largest aerial Force Provider to the 
Joint Interagency Task Force South providing approximately 39 percent 
of the Multi-Role (Air and Maritime Interdiction) Patrol Aircraft. CBP 
P-3s were instrumental in 64 percent of the cocaine interdictions. CBP 
P-3s currently average over 22 pounds of cocaine seized per flight hour 
by tactically position aircraft in only the highest converging threat 
vectors within the source and transit zone via a fused intelligence 
approach and regional effort through the interagency and participating 
Partner and Allied Nations. These efforts to counter illicit 
trafficking are a big piece to the overall effort to aid in the 
stabilization and reduction of corrosive effects with Mexico, Central 
and South America.
                               dhs morale
    Question. Mr. Secretary, DHS continues to rate at the bottom of 
employee satisfaction surveys and suffers from low employee morale. The 
Office of Personnel Management's 2013 Federal Employee Viewpoint Survey 
showed that the Department's employees have little job satisfaction and 
limited faith in their leadership. The Department ranks at the bottom 
in both categories.
    How can we expect the Department to perform well when it greatest 
resource, its people, have little faith in their leaders? As you begin 
your tenure at DHS, what will you do to improve job satisfaction and 
instill leadership your employees can be proud of?
    Answer. I have assigned a high priority to providing the DHS 
workforce with the leadership that they need to perform the mission. I 
am bringing in a new leadership team, and have already filled the 
positions of Commissioner, Customs and Border Protection; the Under 
Secretary for National Protection and Programs Directorate; the 
Inspector General; Under Secretary for Intelligence and Analysis; and 
Under Secretary for Science and Technology. I am anxious to fill the 
remaining key leadership vacancies as quickly as I can.
    Despite low leadership scores, it is important to note that DHS 
employees have stayed focused on and committed to the DHS mission. The 
vast majority of employees report that they like their jobs; derive a 
sense of personal accomplishment from their jobs; when needed they put 
in extra effort to get the job done; and are constantly looking for 
better ways to do their jobs. Recent efforts to strengthen employee 
satisfaction and improve faith in leadership include a renewed emphasis 
on leader development and a robust communications strategy. The 
importance of frequent communication from DHS senior leadership across 
the Department in the effort to improve employee morale and engagement 
cannot be overstated. Our greatest asset as a Department is our people. 
I intend to foster a work environment that promotes the professional 
development of our employees, enhances workforce engagement, encourages 
innovation and creativity and connects employees to the mission, the 
Department and their co-workers.
    Since coming on board as Secretary I have been meeting with 
employees all over the country to get a sense of what their issues are 
and how much they know about efforts underway within the Department to 
improve engagement. Two-way communication is key. I also expect the 
highest levels of integrity from everyone on the senior leadership team 
and am holding them accountable for accomplishing results. Action 
planning across the Department has become more robust with a renewed 
focus on root causes in order to identify areas of challenge that need 
improvement. Once the areas are identified we are soliciting employee 
input, at the Component level, to collaborate on solutions.
                         cohesive dhs structure
    Question. In December 2013, the DHS Inspector General released a 
report describing management challenges facing the Department of 
Homeland Security. One of the major concerns in this report was the 
lack of cohesion and a ``stovepiping'' mentality which sometimes occurs 
as a result of the current DHS structure. This structure can cause 
confusion among the components, hindering the ability of the workforce 
to carry out its mission.
    While I recognize that you have not been on the job that long Mr. 
Secretary, have you noticed a ``stovepipe'' mentality at DHS during 
your brief tenure?
    Answer. One thing I have observed in my time as Secretary are the 
many strengths of the Department, starting with the professionalism, 
skill, and dedication of its people and the rich history and tradition 
of its Components. As the Secretary, it is my job to maintain these 
strengths, which have led to many successes over the Department's 
relatively short life, while identifying ways to enhance the cohesion 
of the Department as a whole. Although progress has been made, DHS has 
yet to reach its full potential as an organization.
    Question. If so, how do you plan to develop a cohesive environment 
within DHS that supports information sharing, communication and unity 
among the components and leadership to further reach the goal of ``One 
DHS?''
    Answer. Such potential is difficult to achieve and takes even the 
best organizations many years. Effective execution of operations is our 
goal, but the difficult budget environment provides a catalyst for us 
to build and mature our organization into one that is greater than the 
sum of its parts--one that operates with much greater unity of effort.
    The focus of my efforts is improving our planning, programming, 
budgeting, and execution processes through strengthened Departmental 
structures and increased capability. We must have better traceability 
between strategic objectives, budgeting, acquisition decisions, 
operational planning, and mission execution to improve Departmental 
cohesiveness and operational effectiveness.
    I intend to accomplish this not by centralizing the decisionmaking 
authority and processes within an opaque DHS Headquarters, but rather 
to transparently incorporate DHS components into unified decisionmaking 
processes and the analytic efforts that inform decisionmaking. My goal 
is better understanding of the broad and complex DHS mission space and 
empowering DHS components to effectively execute their operations.
    To accomplish this, I have directed actions ``Strengthening 
Departmental Unity of Effort'' in a memorandum to Departmental 
leadership on April 22, 2014, along four main lines of effort: 
inclusive senior leader discussion and decisionmaking forums that 
provide an environment of trust and transparency; strengthened 
management processes for investment, including requirements, budget, 
and acquisition processes, that look at cross-cutting issues across the 
Department; focused, collaborative Departmental strategy, planning, and 
analytic capability that support more effective DHS-wide decisionmaking 
and operations; and enhanced coordinated operations to harness the 
significant resources of the Department more effectively.
    These actions, when accomplished, will support the Department's 
primary objective, the effective execution of our missions, while 
helping us mitigate the impacts of the current fiscal austerity.
                          securing the cities
    Question. I am concerned about the Domestic Nuclear Detection 
Office's Securing the Cities (STC) program. Through this program, DHS 
works with State and local authorities to ensure that our adversaries 
cannot use uncontrolled nuclear material to threaten our cities. Your 
budget proposes a $10 million cut to STC, while at the same time 
suggesting an expansion into a third metropolitan area. I am concerned 
that this reduction in funding, which amounts to a 45-percent cut, will 
delay the implementation of this initiative in a third location.
    Can you provide me with some assurance that you have the necessary 
resources and a coherent plan for preventing the unimaginable tragedy 
of a nuclear weapon or dirty bomb detonation in one of our cities?
    Answer. In May 2012, DNDO delivered a congressionally mandated 
report titled Securing the Cities: Strategy and Evaluation. In addition 
to programmatic goals, objectives, performance measures and cost 
estimates, the report included a plan to implement the program in our 
highest risk urban areas using a phased approach. The fiscal year 2015 
President's budget reflects difficult choices, but includes funds to 
support the program's second implementation (in the Los Angeles/Long 
Beach area) and a third implementation (in a region to be selected in 
fiscal year 2014). The initiation of a fourth implementation will be 
delayed until fiscal year 2016.
    However, multiple programs across the United States Government 
contribute to reducing the risk of nuclear terrorism. Every program 
described in the recently submitted Global Nuclear Detection 
Architecture Joint Annual Review (2014) contributes towards protecting 
our Nation. As indicated in the review, the total investment for these 
programs was $823 million in fiscal year 2013. In addition, other 
Government efforts that are outside the scope of the review, contribute 
to the prevention of nuclear terrorism. These include: securing 
radiological and nuclear materials (e.g., through the Global Threat 
Reduction Initiative) and technical nuclear forensics efforts that 
deter nations from facilitating rouge actors.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                             cybersecurity
    Question. What plans exist or have been considered for the 
Department to establish a National Cyber Exercise Center to foster 
cross-sector and intergovernmental training and collaboration, share 
best practices for cyber exercises with the public and private sector, 
and develop high-quality training and exercises for use by defenders of 
critical infrastructure?
    Answer. As part of the DHS/NCCIC, the Cyber Exercise Program's 
mission, goals, and approach is to be a source to foster cross-sector 
and intergovernmental training and collaboration, share best practices 
for cyber exercises with the public and private sector, and develop 
high-quality training and exercises for five major constituencies 
(Federal Departments and Agencies; Internal DHS (including NCCIC); 
State, local, tribal, and territorial governments; private sector; and 
international partners). Over that time, we have conducted a 
significant number of national and State level exercises.
    The NCCIC conducted four major operational floor exercises in 
March, May, July, and September 2013 and has continued to do so once 
per quarter in fiscal year 2014. The NCCIC also conducted 38 no-notice 
floor exercises and three international communications tests in fiscal 
year 2013, in addition to 11 NCCIC partner Tabletop Top Exercises (TTX) 
(with partners such as DOE, ES-ISAC, TRANSCOM, a telecommunications 
company, DC3, GSA, Canada, HHS, NCCIC liaison officers, and others). As 
of April 15, 2014, there have been 39 no-notice exercise drills for 
NCCIC floor personnel in fiscal year 2014.
    Exercises help to better validate policies, plans, procedures, 
processes, and capabilities that enable preparation, prevention, 
response, recovery, and continuity of operations; and through 
exercises, the NCCIC can analyze media and/or malware to determine the 
cause and effect of probable intrusions into critical systems. 
Exercises also provide indicators to mitigate and prevent future 
intrusions.
                       i-130 application backlog
    Question. I understand that stand-alone I-130 applications for the 
immediate relatives of United States citizens have been seriously 
backlogged, causing very long waits for family reunification.
    I understand that USCIS needed to prioritize processing the DACA 
applications, but what is the Department's plan to alleviate the 
backlog for these other highly deserving applications where U.S. 
citizens sometimes have to wait almost a year to receive an 
adjudication of their petitions? And what changes to the process is the 
Department considering ensuring that once the backlog is eliminated 
that this doesn't happen again?
    Answer. USCIS is mindful of the need to process a U.S. citizen's 
form I-130 carefully and expeditiously. This need is defined by the 
immigration system's goal of preserving family unity. It is for this 
fundamental reason that USCIS has been focused on reducing delays in 
the processing of form I-130s for several months.
    Last October, in an effort to expedite the adjudication of these 
cases, USCIS began transferring stand-alone form I-130s filed by U.S. 
citizens for their immediate relatives from USCIS's National Benefits 
Center to its Nebraska, Texas, and California Service Centers. This 
shift has improved USCIS's ability to adjudicate the cases in a timely 
manner. USCIS expects the processing of form I-130s to return an 
average of 5 months or less by this summer.
    USCIS is committed to maximizing operational efficiency by 
maintaining a flexible and nimble organizational structure that shifts 
staff capacity and rebalances workloads to help mitigate the 
possibility of backlogs that could result from unforeseen changes in 
demand. As more benefit types are added to the Electronic Immigration 
System and are entirely paperless, the agency will be able to rebalance 
workloads much more quickly and without the shipping of paper files 
between field offices, service centers, and the National Benefits 
Center. USCIS will also apply lessons learned from its staffing 
experience under the DACA program to inform staffing strategies that 
may be necessary to handle workload surges or new immigration benefit 
types in the future.
                    comprehensive immigration reform
    Question. The Senate Judiciary Committee began debating S. 744, a 
comprehensive immigration reform bill, nearly a year ago. I chaired six 
hearings, followed by five markups spanning 3 weeks, to consider the 
bill, which the Senate passed last June with a strong bipartisan vote. 
The sweeping immigration reform legislation will help unite families, 
boost the economy, and bring millions out of the shadows and into our 
legal immigration system. Since then, the House of Representatives has 
drafted immigration reform principles that fall well short of the 
bipartisan bill we passed. Since then, our country has lost billions in 
potential tax revenue. And since then, more families continue to be 
torn apart every day by deportations.
    Do you feel as urgently as I do that the House of Representatives 
needs to take up the Senate-passed comprehensive immigration reform 
bill?
    Answer. Yes. As previously stated, the administration is committed 
to supporting commonsense reform that creates an earned path to 
citizenship, continues to strengthen our border security, holds 
employers accountable, and brings our immigration system into the 21st 
century.
    Question. Can you assure me and the rest of the Nation that 
reforming our broken immigration system is a top priority for you and 
the Department?
    Answer. Comprehensive immigration reform remains a top priority. 
The administration is committed to supporting commonsense reform that 
creates an earned path to citizenship, continues to strengthen our 
border security, holds employers accountable, and brings our 
immigration system into the 21st century.
                          use-of-force policy
    Question. On March 7, 2014, U.S. Border Patrol Chief Michael 
Fisher, released the agency's use-of-force policy and issued a 
directive on how personnel should respond to threats. The memorandum 
states that since 2010, agents have been assaulted with rocks 1,713 
times, and that deadly force was used 43 times, resulting in 10 deaths. 
Among them, was Jose Rodriguez, a 16-year-old who was shot multiple 
times, including in the back. I respect that there is an ongoing 
investigation in this case. However, as it relates to funding for use-
of-force training:
    Is the real impact of the directive? How is it different from the 
guidance previously in place that allowed deadly force to be used in a 
manner that resulted in 10 deaths?
    Answer. The Border Patrol agent position is a demanding job with 
great responsibility where agents are required to make split-second 
decisions in circumstance that are tense, uncertain, and rapidly 
evolving as they encounter not only illegal entrants, but also human 
and drug smugglers, cartel and gang members, as well as other 
transnational criminal organizations. The job is extremely dangerous 
and agents can be placed in life-or-death situations unexpectedly. This 
directive was implemented to provide further guidance to the Border 
Patrol workforce to lessen the likelihood of deadly force situations 
and reduce the risk of injury or death to agents and the public. 
Reiterate the directive clarifies existing policies and offers agents 
alternate courses of actions and tactics designed to decrease the 
likelihood of deadly force encounters.
    Question. How much does the Department actually spend on training 
Border Patrol agents?
    Answer. U.S. Customs and Border Protection has budgeted $23.2 
million from its National Training Plan account for basic and advanced 
training for Border Patrol agents.
    Question. With the change in the use-of-force policy, will all 
Border Patrol agents have to renew their training? If not, how are 
agents to be educated about the new policy to ensure compliance?
    Answer. Border Patrol agents train with their firearms and less-
lethal use of force weapons on a quarterly basis. U.S. Custom and 
Border Protection's Office of Training and Development is 
collaboratively working with the Office of Border Patrol (OBP) to 
design and implement new training scenarios and introduce new equipment 
in order to expand agents' readiness and minimize the risk to the 
agents, the public and subjects encountered by agents. OBP's 
supervisory cadre will continue to ensure that less-lethal equipment is 
available for use by line agents. Additionally, supervisors are 
implementing Chief Michael Fisher's memo during muster briefings and 
agents in training at the academy will receive added use of force 
scenarios.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
    Question. I am very concerned by reports that individuals held in 
short-term Customs and Border Protection custody, including in holding 
cells at Border Patrol stations, checkpoints, ports of entry, and 
secondary inspection areas, do not always receive basic protections, 
and regularly complain of verbal and physical abuse, inadequate food 
and water, denial of medical care and other basic human rights. This is 
fundamentally unacceptable. I know you share my commitment to ensuring 
anyone in Federal custody is treated with the dignity and respect every 
human being deserves.
    Will the Department consider developing and implementing 
enforceable short-term custody standards within the coming months? Is 
the Department able to commit to using resources to ensure that 
agencies collect and report statistics on the individuals detained in 
short-term custody facilities?
    Answer. U.S. Customs and Border Protection (CBP) is committed to 
ensuring anyone in Federal custody is treated with the dignity and 
respect every human being deserves.
    CBP is fully committed to promptly processing all persons in CBP 
custody and facilitating their transfer to another agency or entity or 
their release, as appropriate. Every effort is made to transfer a 
detainee out of CBP custody as soon as operationally feasible. CBP 
holds all detainees in rooms that are safe, secure, and clean. If 
anyone detained by CBP appears to be ill or injured, or medical 
attention is sought, CBP ensures the detainee has access to medical 
care. CBP ensures basic necessities, such as food, snacks, drinking 
water, properly equipped restrooms, and hygiene supplies are also 
available. Aliens are notified of communication privileges with 
consular or diplomatic officers of their country of nationality, and 
they are provided access to telephones for such purposes, if requested.
    The 2008 Hold Rooms and Short Term Custody directive is the 
national policy for the short term custody of persons arrested by 
Border Patrol agents and detained in hold rooms at Border Patrol 
stations, checkpoints, and processing facilities. It also contains 
requirements for the handling and processing of juveniles, family units 
and Unaccompanied Alien Children. The policy was reviewed by 
representatives from both the Department of Homeland Security (DHS) 
Office of Civil Rights and Civil Liberties and the DHS Inspector 
General. The policy is currently under review and efforts are underway 
to update and revise the policy as appropriate.
    U.S. Border Patrol uses the e3 database to process all 
apprehensions and to record all detainee custodial actions. The 
Enforcement Systems Branch, Statistics and Data Integrity Unit use the 
metrics captured by the e3 system to generate statistical reports. U.S. 
Customs and Border Protection is committed to using the necessary 
resources to capture, maintain and evaluate all available data from the 
e3 database. Body worn cameras have become a best practice among large 
police departments across the country. Evidence indicates these cameras 
serve to clear officers from false accusations, improve the judicial 
process, and reduce civil rights violations. These devices protect both 
law enforcement officers and those with whom they interact. I am 
confident our Federal officers and agents would benefit from that 
protection.
    Question. The number of unaccompanied immigrant children arriving 
in the United States continues to rise. As Federal officers and agents 
apprehend these children, it is crucial that we promptly identify those 
who are escaping persecution, are victims of trafficking, or are 
unaccompanied minors so that we can ensure they treated appropriately 
and receive the support they need.
    What is the Department doing to ensure that our Federal agents and 
officers in the Department receive proper training to accurately 
identify these individuals?
    Answer. Body worn cameras have become a best practice among large 
police departments across the country. Evidence indicates these cameras 
serve to clear officers from false accusations, improve the judicial 
process, and reduce civil rights violations. These devices protect both 
law enforcement officers and those with whom they interact. I am 
confident our Federal officers and agents would benefit from that 
protection.
    Question. Do you intend to use funds allocated to Customs and 
Border Protection or other agencies to implement the camera pilot 
program committed to by the agency? And, if so, when, where, and on 
what scale will Customs and Border Protection begin implementing a 
pilot program?
    Answer. U.S. Customs and Border Protection (CBP) is looking into 
the possibility of using body worn cameras on agents and officers. As a 
first step, CBP is preparing to conduct a ``proof of concept'' and has 
used funds allocated for this to determine the impact that body worn 
cameras have on operations (e.g., time off the line to don/doff/
download cameras; information technology storage requirements), the 
potential challenges in integrating body worn cameras into CBP's 
diverse work environments, and the technical requirements for those 
work environments. As part of this proof of concept, CBP will also 
engage in an analysis of other law enforcement agencies that have 
adopted the use of cameras. Such analysis will inform us of the 
benefits as well as the potential problems related to integrating such 
cameras into the operational environment. Many factors must be 
considered including privacy concerns related to our officers and 
agents as well as the subjects they encounter.
    If the proof of concept reveals acceptable/manageable impacts on 
U.S. Customs and Border Protection's (CBP) field operations, CBP will 
engage industry to identify those systems that meet our unique and 
varying environmental and operational needs. CBP will continue to keep 
you updated as this process proceeds.
    Question. Customs and Border Protection staffing shortages at 
international airports continue to cause lengthy and persistent delays 
for those entering the country. Last year Congress provided Customs and 
Border Protection with the resources to hire additional officers, and 
your budget request includes a proposal for additional hiring.
    What is the Department's plan to address the Customs and Border 
Protection staffing shortages at airports and how long will it take the 
Department to hire, train, and deploy additional officers?
    Answer. U.S. Customs and Border Protection (CBP) is committed to 
ensuring the security of our Nation's borders, while facilitating 
legitimate travel and trade. CBP has implemented new initiatives and is 
pursuing proposals to increase workforce capability by:
  --Maximizing the use of current resources through increased trusted 
        traveler enrollments; employing mobile technology to streamline 
        processes and relieve certain infrastructure constraints; 
        increasing risk segmentation through enhanced targeting/pre-
        departure initiatives, and through new automated scheduling 
        practices;
  --Implementing and effectively overseeing new authorities that 
        provide greater flexibility to work with stakeholders in 
        funding requests for service and addressing infrastructure 
        constraints; and
  --Continuing to implement business transformation initiatives to 
        reduce costs and mitigate staffing requirements.
    Based on a clear demonstration of staffing needs by CBP--with 
support from local governments, business groups and the trade and 
travel industry--the recently passed fiscal year 2014 omnibus includes 
funding for 2,000 additional CBP officers (CBPOs). Released on March 4, 
2014, the President's fiscal year 2015 budget proposes user fee 
increases that would fund an additional 2,000 CBPOs.
    The additional 2,000 officers provided in the fiscal year 2014 
omnibus were allocated based on needs identified by CBP's Workload 
Staffing Model across air, land and sea ports with the greatest 
demonstrated need, as well as the current operational environment at 
time of on-boarding (which involves the overall hiring process 
including recruitment, pre-employment vetting, selection, academy 
training, port assignment, etc.). CBP announced the allocation of these 
officers on March 31, 2014. Overall 44 ports in 18 States will receive 
additional staffing that will reduce wait times and help facilitate 
legitimate trade and travel.
    CBP has an aggressive plan to recruit, hire, and train the highest 
caliber individuals to get them to our frontlines by the end of 
calendar year 2015. This hiring process accounts for the strict and 
rigorous employment standards (medical, fitness, polygraph, and 
background investigation) for qualified applicants to become CBPOs. 
Additionally, once an applicant is hired, they will begin a training 
process that includes pre-academy, basic academy and post-academy 
requirements to provide them with the knowledge and skills to 
effectively carry out their duties as a CBPO.
    The additional CBPOs will make a positive impact for frontline 
operations; however, CBP continues to face operational challenges and a 
significant portion of the staffing shortage remains. While recognizing 
the success in business process improvements and increase in CBPOs, the 
Workload Staffing Model results continue to show a need for additional 
officers. The President's fiscal year 2015 budget request fully funds 
this need through a combination of increases.
    Question. The Coast Guard's 2011 High Altitude study determined the 
Coast Guard requires three heavy and three medium icebreakers to 
accomplish its Arctic missions. Today, the Coast Guard operates only 
one heavy icebreaker, Polar Star, and one medium icebreaker, Healy. 
Polar Star has between 6 and 9 years of service life remaining and 
Healy is aging as well. The Coast Guard's 2013 business case analysis 
study of the Polar Sea indicates the estimated cost to refit the Polar 
Sea for service is $99.2 million over 4 years. Conversely, the 
estimated cost to design and build a new icebreaker is $1 billion, and 
the new ship would not enter service for at least 8 years. I'm hoping 
you can comment on the path toward recapitalizing our polar fleet while 
maintaining a viable bridging strategy between our current fleet and 
the construction of a new heavy class icebreaker.
    The President's Implementation Plan for the National Strategy for 
the Arctic Region designated the Department of Homeland Security as the 
lead agency for several vital Arctic objectives. I am particularly 
interested in your leadership in sustaining Federal capability to 
conduct maritime operations in ice-impacted waters. While the Coast 
Guard is the primary provider of icebreaking capability, it is far from 
the only stakeholder in the Arctic. The Department of Defense, the 
National Science Foundation and other Federal agencies rely on the 
Coast Guard's icebreaking capability to accomplish their missions. In 
fact, the Department of Defense contributed $329 million of the $365 
million cost of constructing Healy.
    As the lead agency for sustaining our Nation's presence in ice-
impacted waters, what steps have you taken to explore options to spread 
the cost of both refits and new construction across the Federal 
agencies that rely on the Coast Guard's icebreaking capability?
    Answer. Given the importance of this asset, the functions it 
serves, the Coast Guard is working with stakeholders across Government 
to capture the input necessary to develop the requirements for a new 
polar icebreaker. The resulting Operational Requirements Document is 
expected to be completed in the spring of 2015. As the project 
develops, we will review the existing MOUs that underlie the current 
operational model for providing icebreaking services to the interagency 
stakeholders and other users.
                                 ______
                                 
               Questions Submitted by Senator Jon Tester
    Question. I introduced legislation to give recognized tribal 
governments the ability to request disaster relief directly from the 
President that was passed as a provision of the Sandy Recovery and 
Investment Act. However, Senator Begich and I are concerned that 
developing the implementation framework is taking too long. While back 
in Montana, I heard from tribal members who had participated in large 
teleconferences with FEMA, but were unable to provide meaningful input 
due to the size of the calls. We all know resources are tight 
throughout the Federal Government, but FEMA has emphasized their 
commitment to this provision. It's important that we get FEMA folks out 
to tribal lands to help these sovereign nations develop their emergency 
management capabilities.
    Can you commit to keeping an eye on FEMA in how they continue to 
implement this provision and make sure the outreach to our tribes is 
there?
    Answer. We are committed to engaging and supporting tribal 
communities in the areas of emergency management and preparedness. FEMA 
is in the process of finalizing a proposed Tribal Consultation Policy, 
which will build from the Department's Tribal Consultation Policy, to 
better provide guidance on how program offices should engage in regular 
and meaningful consultation and collaboration with tribal officials in 
the development of Federal policies that have direct, significant 
tribal implications, and to strengthen the government-to-government 
relationship between the United States and Indian tribes. FEMA has 
developed an extensive and inclusive outreach process to consult with 
tribes under both the proposed Tribal Consultation Policy and the Sandy 
Recovery and Improvement Act (SRIA) of 2013 initiated Declarations 
Guidance through face to face engagement with tribes, whenever and 
wherever practical, both from HQ and through the FEMA regions. Tribal 
input directly impacted how we are conducting outreach to the tribes 
for the draft Pilot Declarations Guidance consultation that began on 
April 3, 2014. Our efforts have been improved based on comments 
received from previous outreach efforts, and we will be closely 
monitoring all future consultations to ensure meaningful engagement.
    The SRIA amendment to the Stafford Act, allowing a tribe the option 
to request its own declaration, was a significant and historic step 
reflecting tribal sovereignty and self-determination. The continued 
implementation of this new authority remains a high priority for FEMA. 
Upon passage of the law, the Administration's goal was to enable tribal 
nations the immediate option of requesting emergency and major disaster 
declarations directly. For this reason, FEMA has been using its current 
declarations regulations, which govern declaration requests for States, 
to process declaration requests from tribal governments, while the 
agency developed tribal-specific declaration procedures. On March 1, 
2013, just over a month from the date of the Stafford Act amendments 
passing, the President signed the first declaration under this historic 
law, approving a major declaration for the Eastern Band of Cherokee 
Indians due to severe storms that impacted their reservation. To date, 
seven tribes have requested eight declarations using these regulations, 
and the President issued six disaster declarations under this new 
authority.
    The agency's ultimate goal is to develop regulations to govern 
declaration requests from tribes; however, the rulemaking process will 
be lengthy. FEMA is committed to, and has set aside resources, to 
conduct in person consultation sessions in Indian Country for this 
Sandy Recovery Improvement Act authority. FEMA, through our regional 
offices and the regional tribal liaisons, is working with individual 
tribes and tribal organizations to hold in-person meetings during the 
consultation over the next 120 days. In the coming weeks as the 
locations and dates are finalized, FEMA will be announcing these 
sessions and inviting tribal leaders and emergency management directors 
to discuss and consult on the current draft of the Tribal Declarations 
Pilot Guidance. We will also use the upcoming listening sessions to 
learn more about tribal concerns. This guidance, when final, will start 
the pilot phase of tribal declarations implementation eventually 
leading to the final rulemaking.
    Question. This budget proposes to consolidate almost all of FEMA's 
preparedness grant programs into a new, comprehensive National 
Preparedness Grant Program. We've seen similar grant consolidation 
proposals under education, Interior and elsewhere over the years. And 
we always hear the same two concerns: that some of these grant programs 
will simply wither away; they're tucked under a much larger program 
never to be seen again; and that rural applicants are almost always at 
a disadvantage when applying to comprehensive grant programs because 
they are competing against a large pool of applicants.
    Can you provide reassurance that critical grant programs like 
Operation Stonegarden aren't going to dry up under this proposal--
especially for northern border counties, where the Federal Government 
relies on local law enforcement to partner in border security? And what 
is being done to ensure that rural applicants aren't at a disadvantage 
when applying for grants?
    Answer. Maintenance and sustainment of core law enforcement 
prevention capabilities--including fusion centers, countering violent 
extremism and State, territory and local information sharing--remain 
key Administration priorities, and law enforcement activities 
previously funded under other grants, such as Operation Stonegarden and 
the Port and Transit grant programs will continue to be eligible 
activities under the proposed National Preparedness Grant Program.
    The National Preparedness Grant Program also will continue to 
support State, territory, and local law enforcement efforts to 
understand, recognize, and prevent pre-operational activity and other 
crimes that are precursors or indicators of terrorist activity, in 
accordance with applicable privacy, civil rights, and civil liberties 
protections. Such efforts include:
  --Maturation and enhancement of State and major urban area fusion 
        centers, including training for intelligence analysts and 
        implementation of Fusion Liaison Officer Programs;
  --Implementation of the Nationwide Suspicious Activity Reporting 
        Initiative, including training for frontline personnel on 
        identifying and reporting suspicious activities;
  --Continued implementation of the ``If You See Something, Say 
        Something <SUP>TM</SUP>'' campaign to raise public awareness of 
        indicators of terrorism and violent crime.
    As part of the fiscal year 2015 National Preparedness Grant Program 
proposal, FEMA transmitted a legislative proposal to authorize the new 
consolidated approach. The legislative proposal retains the requirement 
for grantees to allocate at least 80 percent of the total amount of 
grant funding to ``local units of government'', which ensures that 
resources are distributed to the frontline first responders.
    While FEMA cannot prescribe the makeup of any statewide governance 
structure, the agency has issued guidelines on how States should engage 
with their various partners to carry out their Threat and Hazard 
Identification and Risk Assessments and investment justifications. To 
ensure that States are adequately engaging with local governments, 
rural communities, port and transit agencies, urban areas, nonprofit 
organizations, and other ``whole of community'' partners, FEMA will 
require that the State Administrative Agency submit:
  --A detailed description of the Senior Advisory Committee's 
        composition and an explanation of key governance processes, 
        including how the Senior Advisory Committee is informed by the 
        State or territory's Threat and Hazard Identification and Risk 
        Assessment, State Preparedness Report data reflecting 
        capability shortfalls and the approach to address shortfalls in 
        core capabilities;
  --A description of the frequency with which the Senior Advisory 
        Committee will meet;
  --How existing governance bodies such as Urban Area Working Groups 
        and Transit Security Working Groups will be leveraged by the 
        Senior Advisory Committee; and
  --A detailed description of how decisions on programmatic priorities 
        are made and how those decisions will be documented and shared 
        with its members and other stakeholders as appropriate; and a 
        description of defined roles and responsibilities for financial 
        decisionmaking and meeting administrative requirements.
    Question. CBP has chosen not to extend a pilot program to expand 
the hours of operation at the Port of Wild Horse--a port of entry just 
north of Havre, Montana. They cite a lack of cost-effectiveness for 
doing so. But the problem is that they don't have accurate data because 
our Canadian counterparts didn't extend operating hours on their side 
of the border for the full duration of this pilot project. As you know, 
facilitating trade along the northern border and improving cross-border 
commerce is critical to our economic development and job creation. That 
is why former Commissioner Alan Bersin was a staunch proponent of this 
initiative. And it is why I strongly believe an extension of the 
current pilot project to a full 3-year study, in full coordination with 
our Canadian counterparts, is critical. I strongly encourage the 
Secretary to take another look at extending this pilot project at Wild 
Horse.
    Mr. Secretary, can you assure me that such a project would be 
completed in full, with close coordination with our Canadian 
counterparts?
    Answer. U.S. Customs and Border Protection (CBP) understands that 
this issue is important to the Bear Paw region and its business 
community. At the same time, CBP must carefully balance the needs of 
staffing at different locations throughout the United States.
    CBP's close collaboration with stakeholders has allowed us to 
strengthen the United States economy by facilitating legitimate trade 
and travel. Since fiscal year 2009, CBP has conducted annual extended 
hour pilots at Wild Horse, Montana, most recently in October 2013.
    During the past several years, CBP and the Canada Border Services 
Agency have extended the summer-hour season at Wild Horse in an effort 
to stimulate commercial traffic and assess the viability of an extended 
operational day. CBP joined with local stakeholders to actively promote 
extended summer hours in Montana and Canada, the brokerage community, 
and the U.S. and Canadian trucking associations. In addition, CBP 
changed the commercial permit requirements at Wild Horse in order to 
encourage increased use of the port.
    Despite these efforts, extended hours pilots have not increased 
commercial traffic at the port. In the October 2013 pilot, truck 
traffic during extended hours decreased 31.6 percent from the previous 
year, which was 39.7 percent lower than October 2011. Traveler volume 
during extended hours dropped 28.1 percent from October 2012, while the 
number of morning and afternoon travelers crossing from Canada 
increased by 9.9 percent and 2.8 percent, respectively. In addition, no 
trucks entered the United States during 83.1 percent of the pilot's 124 
added operational hours, and extended hour utilization by all travelers 
fell as the month progressed and daylight decreased.
    We share stakeholder disappointment that the pilot outcomes did not 
meet expectations. CBP had high hopes that the initiatives, which 
required CBP to reallocate resources from other ports, would tangibly 
benefit the regional economy. Based on these results and current 
resource availability, we are unable to pursue further pilots at Wild 
Horse at this time. I pledge that CBP will continue to explore 
initiatives with stakeholders, consistent with available resources that 
will sustain and grow future commercial traffic at Wild Horse.
                                 ______
                                 
              Questions Submitted by Senator Daniel Coats
                immigration and customs enforcement data
    Question. Provide for the record a chart showing the number of 
criminal removals, the number of non-criminal removals, and the total 
removals made in fiscal years 2012, 2013, and 2014 year-to-date. Please 
breakout the number of convicted criminals and non-criminals who were 
permitted to voluntarily depart, voluntarily return, or withdraw their 
application for admission for these time periods.
    Answer. Below, please find details for ICE removals and returns in 
fiscal years 2012, 2013, and 2014 year-to-date (YTD). Returns are 
further broken out by those ICE cases in which a voluntary departure 
was confirmed, a voluntary return (VR) was witnessed, and a withdrawal 
for admission was permitted (withdrawal permitted--I-275 issued).

                                         FISCAL YEARS 2012-2014 YEAR-TO-DATE REMOVALS AND RETURNS BY CRIMINALITY
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                  Fiscal year 2012                      Fiscal year 2013                Fiscal year 2014 year-to-date
                                       -----------------------------------------------------------------------------------------------------------------
             Removal type                           Non-criminal                          Non-criminal                          Non-criminal
                                        Convicted    immigration     Total    Convicted    immigration     Total    Convicted    immigration     Total
                                         criminal     violator                 criminal     violator                 criminal     violator
--------------------------------------------------------------------------------------------------------------------------------------------------------
Returns...............................     24,705          38,657     63,362     18,237          17,869     36,106      4,908           3,191      8,099
    Withdrawal Permitted--I-275 Issued        123           1,058      1,181         94             735        829         43             278        321
    Voluntary Departure Confirmed.....      9,205          10,445     19,650      6,845           4,977     11,822      2,535           1,601      4,136
    Voluntary Return Witnessed........     15,377          27,154     42,531     11,298          12,157     23,455      2,330           1,312      3,642
Removals..............................    200,685         145,802    346,487    198,573         133,965    332,538     82,142          58,935    141,077
                                       -----------------------------------------------------------------------------------------------------------------
      Total Removals..................    225,390         184,459    409,849    216,810         151,834    368,644     87,050          62,126    149,176
--------------------------------------------------------------------------------------------------------------------------------------------------------
Fiscal years 2012-2013 data are historical and remain static.
Fiscal year 2014 data are updated through 3/29/2014 (IIDS v1.16 run date of 3/31/2014; EID as of 3/29/2014).
Removals include returns, which include voluntary returns, voluntary departures and withdrawals under Docket Control.
ERO removals include aliens processed for expedited removal (ER) and turned over to ERO for detention. Aliens processed for ER and not detained by ERO
  are primarily processed by Border Patrol. CBP should be contacted for those statistics.
Starting in fiscal year 2009, ICE began to ``lock'' removal statistics on October 5th at the end of each fiscal year and counted only the aliens whose
  removal or return was already confirmed. Aliens removed or returned in that fiscal year but not confirmed until after October 5th were excluded from
  the locked data and thus from ICE statistics. To ensure an accurate and complete representation of all removals and returns, ICE will include the
  removals and returns confirmed after October 5th into the next fiscal year. The number of removals in fiscal year 2009, excluding the ``lag'' from
  fiscal year 2008, was 387,790. The number of removals in fiscal year 2010, excluding the ``lag'' from fiscal year 2009, was 373,440. This number does
  not include 76,732 expedited removal cases which ICE closed on behalf of CBP in fiscal year 2010. Of those 76,732, 33,900 cases resulted from a joint
  CBP/ICE operation in Arizona. ICE spent $1,155,260 on those 33,900 cases. The number of removals in fiscal year 2011, excluding the ``lag'' from
  fiscal year 2010, was 385,145. The number of removals in fiscal year 2012, excluding the ``lag'' from fiscal year 2011, was 402,919. The number of
  removals in fiscal year 2013, excluding the ``lag'' from fiscal year 2012, was 363,144.
Fiscal year data lag/case closure lag is defined as the physical removal of an alien occurring in a given month; however, the case is not closed in EARM
  until a subsequent fiscal year after the data is locked. Since the data from the previous fiscal year is locked, the removal is recorded in the month
  the case was closed and reported in the next fiscal year removals. This will result in a higher number of recorded removals in a fiscal year than
  actual departures.

    Question. Provide for the record a chart showing the total number 
of ICE detainees by priority category (level of criminality, recent 
border crosser, fugitive, non-criminal) in fiscal years 2012, 2013, and 
2014 year-to-date.
    Answer. The chart below contains fiscal years' 2012, 2013, and 2014 
year-to-date number of aliens booked into U.S. Immigration and Customs 
Enforcement (ICE) custody. ICE is unable to provide a further breakout 
of non-criminal book-ins by priority category.

   FISCAL YEARS 2012-2014 YEAR-TO-DATE INITIAL BOOK-INS BY CRIMINALITY
------------------------------------------------------------------------
                         Interior Versus Border
-------------------------------------------------------------------------
                                                            Fiscal year
            Criminality               Fiscal     Fiscal   2014  year-to-
                                    year 2012  year 2013       date
------------------------------------------------------------------------
Interior:
    ICE threat level 1............     77,968     72,753          31,112
    ICE threat level 2............     43,794     39,709          17,894
    ICE threat level 3............     62,015     48,627          18,046
    Non-criminal immigration           88,114     60,114          18,894
     violators....................
                                   -------------------------------------
      Total.......................    271,891    221,203          85,946
                                   =====================================
Border:
    ICE threat level 1............     11,685     12,043           4,640
    ICE threat level 2............     12,251     13,453           5,407
    ICE threat level 3............     42,167     49,983          17,942
    Non-criminal immigration          139,529    143,875          82,709
     violators....................
                                   -------------------------------------
      Total.......................    205,632    219,354         110,698
                                   =====================================
          Grand Total.............    477,523    440,557         196,644
------------------------------------------------------------------------
Fiscal years 2012-2013 data are historical and remain static. Fiscal
  year 2014 data are updated through 3/29/2014 (ICE Integrated Decision
  Support (IIDS) v1.16 run date of 3/31/2014; ENFORCE Integrated
  Database (EID) as of 3/29/2014).
Initial book-ins represents the initial book-in of a detention stay.
Detention data excludes those held in Office of Refugee and Resettlement
  (ORR) and Mexican Interior Repatriation Program (MIRP) facilities as
  well as U.S. Marshals prisoners.
Book-in criminality is based on removal case threat level. The ICE
  threat levels reflect the priorities outlined in Director Morton's
  June 2010 memorandum entitled ICE Civil Immigration Enforcement
  Priorities effective October 1, 2010. ICE has defines criminality as
  whether or not an alien has a criminal conviction. For purposes of
  prioritizing the removal of aliens convicted of crimes, ICE personnel
  refer to the following offense levels: level 1, level 2, and level 3
  offenders. Level 1 offenders are those aliens convicted of
  ``aggravated felonies,'' as defined in section 101(a)(43) of the
  Immigration and Nationality Act, or two (2) or more crimes each
  punishable by more than 1 year, commonly referred to as ``felonies.''
  Level 2 offenders are aliens convicted of any other felony or three or
  more crimes each punishable by less than 1 year, commonly referred to
  as ``misdemeanors.'' Level 3 offenders are aliens convicted of
  ``misdemeanor'' crime(s) punishable by less than 1 year.
Fiscal years 2012-2013 border initial book-ins are identified by the
  apprehension method associated with the arrest that led to ICE
  detention. Apprehension methods include: boat patrol, crewman/
  stowaway, patrol border, patrol interior, inspections, transportation
  check (aircraft, bus, freight and passenger trains). All other
  apprehension methods are considered interior initial book-ins.
For fiscal year 2014 year-to-date, an interior book-in is defined by
  individuals that are identified or apprehended in the United States by
  an ICE officer or agent. The ICE arresting agency includes the
  following Enforcement and Removal Operations (ERO) and Homeland
  Security Investigations (HSI) arresting agency programs: 287g Program,
  Alternatives to Detention, ERO Criminal Alien Program, Detained Docket
  Control, Detention and Deportation, Law Enforcement Area Response
  Unit, Non-Detained Docket Control, Juvenile, Fugitive Operations,
  Violent Criminal Alien Section, Joint Criminal Alien Response Team,
  Probation and Parole, Quick Response Team, User Fee Investigations,
  Joint Terrorism Task Force, Non-User Fee Investigations, HSI Criminal
  Arrest Only, and Intelligence. Interior book-in also includes the
  following United States Citizenship and Immigration Services (USCIS)
  and other arresting agency programs: Examinations, Adjudications,
  Asylum, Office of the Principal Legal Advisor, Default program area
  for interface records, and PICS Default value--for user initialization
  only. The USCIS and Other Programs make up 48 total cases for fiscal
  year 2014 year-to-date.
In support of the U.S. Border Patrol's Consequence Delivery System, ICE
  participated in the Alien Transfer Exit Program (ATEP) by detaining,
  transporting, and removing Mexican border crossers. In an effort to
  disrupt smuggling operations and deter future illegal entry, ICE
  transported and removed these subjects in a different area of the
  country from where they were apprehended by the U.S. Border Patrol.
  These cases required only short-duration detention stays. While ICE
  continues to participate in ATEP along the Texas/Mexico border, ICE
  scaled back its participation in ATEP in June 2013.
For fiscal year 2014 year-to-date, a border book-in is defined by
  individuals apprehended at the immediate border while attempting to
  unlawfully enter the United States. The CBP arresting agency includes
  the following programs: Border Patrol, Inspections, Inspections-Air,
  Inspections-Land, and Inspections-Sea.

    Question. Please provide the number of detainees by priority 
category (level of criminality, recent border crosser, fugitive, non-
criminal) who were removed or deported from the country in fiscal years 
2012, 2013, and 2014 year-to-date.
    Answer. Please see the below chart of U.S. Immigration and Customs 
Enforcement removals for fiscal years 2012-2014 (year-to-date).

                                  FISCAL YEARS 2012-2014 YEAR-TO-DATE REMOVALS
----------------------------------------------------------------------------------------------------------------
                                    Interior Versus Border
-----------------------------------------------------------------------------------------------
                                                                                       Fiscal
                                          Criminality/ICE        Fiscal     Fiscal   year 2014
             Criminality                     priorities        year 2012  year 2013   year-to-
                                                                                        date
----------------------------------------------------------------------------------------------
Interior:
    ICE Threat Level 1..............  Convicted Criminals....     59,202     52,935     22,377
    ICE Threat Level 2..............  Convicted Criminals....     31,639     26,203     11,483
    ICE Threat Level 3..............  Convicted Criminals....     44,441     30,977     11,289
    Non-Criminal Immigration          Immigration Fugitives..      5,131      2,742      1,000
     Violators.
    Non-Criminal Immigration          Repeat Immigration          19,043     10,358      4,045
     Violators.                        Violators.
    Non-Criminal Immigration          Other Removable Aliens.     21,514     10,336      3,604
     Violators.
                                                              --------------------------------------------------
      Total.........................  .......................    180,970    133,551     53,798
                                                              ==================================================
Border:
    ICE Threat Level 1..............  Convicted Criminals....     18,752     21,224      9,127
    ICE Threat Level 2..............  Convicted Criminals....     18,164     20,995      8,925
    ICE Threat Level 3..............  Convicted Criminals....     53,192     64,476     23,849
    Non-Criminal Immigration          Immigration Fugitives..      5,292      3,256      1,162
     Violators.
    Non-Criminal Immigration          Repeat Immigration          67,362     61,896     25,232
     Violators.                        Violators.
    Non-Criminal Immigration          Other Border Removals..     66,117     63,246     27,083
     Violators.
                                                              --------------------------------------------------
      Total.........................  .......................    228,879    235,093     95,378
                                                              ==================================================
          Grand Total...............  .......................    409,849    368,644    149,176
----------------------------------------------------------------------------------------------------------------
Fiscal years 2012-2013 data is historical and remains static.
Fiscal year 2014 data is updated through 03/29/2014 (ICE Integrated Decision Support (IIDS) v1.14 run date 03/31/
  2014; ENFORCE Integrated Database (EID) as of 03/29/2014).
An interior removal is defined by individuals removed by ICE that are identified or apprehended in the United
  States by an ICE officer or agent. A border removal is defined as individuals apprehended at or near the
  border by U.S. Customs and Border Protection (CBP) officials while attempting to unlawfully enter the United
  States.
Removals include returns, which include voluntary returns, voluntary departures and withdrawals under Docket
  Control.
Starting in fiscal year 2009, ICE began to ``lock'' removal statistics on October 5th at the end of each fiscal
  year and counted only the aliens whose removal or return was already confirmed. Aliens removed or returned in
  that fiscal year but not confirmed until after October 5th were excluded from the locked data and thus from
  ICE statistics. To ensure an accurate and complete representation of all removals and returns, ICE will
  include the removals and returns confirmed after October 5th into the next fiscal year. The number of removals
  in fiscal year 2009, excluding the ``lag'' from fiscal year 2008, was 387,790. The number of removals in
  fiscal year 2010, excluding the ``lag'' from fiscal year 2009, was 373,440. This number does not include
  76,732 expedited removal cases which ICE closed on behalf of CBP in fiscal year 2010. Of those 76,732, 33,900
  cases resulted from a joint CBP/ICE operation in Arizona. ICE spent $1,155,260 on those 33,900 cases. The
  number of removals in fiscal year 2011, excluding the ``lag'' from fiscal year 2010, was 385,145. The number
  of removals in fiscal year 2012, excluding the ``lag'' from fiscal year 2011, was 402,919. The number of
  removals in fiscal year 2013, excluding the ``lag'' from fiscal year 2012, was 363,144.
Fiscal year data lag/case closure lag is defined as the physical removal of an alien occurring in a given month;
  however, the case is not closed in EARM until a subsequent fiscal year after the data is locked. Since the
  data from the previous fiscal year is locked, the removal is recorded in the month the case was closed and
  reported in the next fiscal year removals. This will result in a higher number of recorded removals in a
  fiscal year than actual departures.
ERO removals include aliens processed for expedited removal (ER) and turned over to ERO for detention. Aliens
  processed for ER and not detained by ERO are primarily processed by Border Patrol. CBP should be contacted for
  those statistics.
The ICE threat levels reflect the priorities outlined in Director Morton's June 2010 memorandum entitled ICE
  Civil Immigration Enforcement Priorities effective October 1, 2010. Since fiscal year 2011, ICE has defined
  criminality as whether or not an alien has an ICE threat level (convicted criminal) or not (non-criminal
  immigration violator). For purposes of prioritizing the removal of aliens convicted of crimes, ICE personnel
  refer to the following offense levels: level 1, level 2, and level 3 offenders. Level 1 offenders are those
  aliens convicted of ``aggravated felonies,'' as defined in section 101(a)(43) of the Immigration and
  Nationality Act, or two or more crimes each punishable by more than 1 year, commonly referred to as
  ``felonies.'' Level 2 offenders are aliens convicted of any other felony or three or more crimes each
  punishable by less than 1 year, commonly referred to as ``misdemeanors.'' Level 3 offenders are aliens
  convicted of ``misdemeanor'' crime(s) punishable by less than 1 year. Prior to fiscal year 2011, ICE used SC
  levels 1, 2, and 3 for prioritization purposes.
If an alien was identified by more than one priority they were defaulted to the highest priority based on the
  following hierarchy (ordered highest to lowest): convicted criminal, immigration fugitives, repeat immigration
  violator, other border removals/other removable aliens.
Other Removable Aliens: This category includes those aliens who entered unlawfully or entered lawfully and
  violated conditions of admission; aliens who may also fall into the above priorities but cannot be verified in
  the data available to ICE (e.g., criminals with no conviction information recorded in ICE systems).

    Question. For fiscal years 2012, 2013, and 2014 to date, please 
provide the unique number of individuals encountered by ICE, booked 
into ICE custody, and then released, by forms of supervision and 
conditions of release, including bond, ICE supervision, orders of 
recognizance, or combination. Please also breakout these same 
individuals by ICE priority category and the number of days in 
detention.
    Answer. Please see the below chart of U.S. Immigration and Customs 
Enforcement for fiscal years 2012-2014 year-to-date.

                                               FISCAL YEAR 2014 RELEASES WITH AN ICE APPREHENSION PROGRAM
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                   Convicted criminals           Non-criminal immigration violators (NCIV)
                                                            ----------------------------------------------------------------------------------
                       Release reason                           ICE        ICE        ICE                                                        Total
                                                               threat     threat     threat      NCIV       NCIV         NCIV          NCIV
                                                              level 1    level 2    level 3     total    fugitives  reinstatements    other
--------------------------------------------------------------------------------------------------------------------------------------------------------
ATD--Alternatives to Detention.............................        183        284        354        599          7            28          564      1,420
Bonded Out.................................................      1,750      2,798      3,776      3,801          7            33        3,761     12,125
Order of recognizance......................................        594        626        996      2,119         26            11        2,082      4,335
Order of supervision.......................................      1,619        405        433        731         70           151          510      3,188
Paroled....................................................         12          5          7        492          2  ..............        490        516
Prosecutorial Discretion...................................         63         41         56        196          6             6          184        356
                                                            --------------------------------------------------------------------------------------------
      Total................................................      4,221      4,159      5,622      7,938        118           229        7,591     21,940
--------------------------------------------------------------------------------------------------------------------------------------------------------
Fiscal year 2014 year-to-date data updated through 3/29/2014 (ICE Integrated Decision Support (IIDS) v1.16 run date of 04/03/2014; ENFORCE Integrated
  Database as of 3/29/2014).
Book-out data excludes Office of Refugee Resettlement and Mexican Interior Repatriation Program facilities, as well as U.S. Marshals prisoners.
Releases reflect final book-outs with a case and release reasons of alternatives to detention, bond, order of recognizance, order of supervision,
  paroled, and prosecutorial discretion and excludes removals, deaths, and proceedings terminated.
The final book-out criminality is defined by whether or not an alien has the ICE threat level (convicted criminal) or not (non-criminal). ICE threat
  level is based upon the most serious convicted crime(s) (except overturned convictions) for the alien's case up until the point of departure. The ICE
  threat levels reflect the priorities outlined in Director Morton's June 2010 memorandum entitled ICE Civil Immigration Enforcement Priorities
  effective October 1, 2010. Since fiscal year 2011, ICE has defined criminality as whether or not an alien has an ICE threat level (convicted criminal)
  or not (non-criminal immigration violator). For purposes of prioritizing the removal of aliens convicted of crimes, ICE personnel refer to the
  following offense levels: level 1, level 2, and level 3 offenders. Level 1 offenders are those aliens convicted of ``aggravated felonies,'' as defined
  in section 101(a)(43) of the Immigration and Nationality Act, or two or more crimes each punishable by more than 1 year, commonly referred to as
  ``felonies.'' Level 2 offenders are aliens convicted of any other felony or three or more crimes each punishable by less than 1 year, commonly
  referred to as ``misdemeanors.'' Level 3 offenders are aliens convicted of ``misdemeanor'' crime(s) punishable by less than 1 year.
The ICE arresting agency includes the following Enforcement and Removal Operations (ERO) and Homeland Security Investigations (HSI) arresting agency
  programs: 287g Program, Alternatives to Detention, ERO Criminal Alien Program, Detained Docket Control, Detention and Deportation, Law Enforcement
  Area Response Unit, Non-Detained Docket Control, Juvenile, Fugitive Operations, Violent Criminal Alien Section, Joint Criminal Alien Response Team,
  Probation and Parole, Quick Response Team, User Fee Investigations, Joint Terrorism Task Force, Non-User Fee Investigations, HSI Criminal Arrest Only,
  and Intelligence.


                                               FISCAL YEAR 2013 RELEASES WITH AN ICE APPREHENSION PROGRAM
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                   Convicted criminals           Non-criminal immigration violators (NCIV)
                                                            ----------------------------------------------------------------------------------
                       Release reason                           ICE        ICE        ICE                                                        Total
                                                               threat     threat     threat      NCIV       NCIV         NCIV          NCIV
                                                              level 1    level 2    level 3     total    fugitives  reinstatements    other
--------------------------------------------------------------------------------------------------------------------------------------------------------
ATD--Alternatives to Detention.............................        639      1,004      1,509      1,763         51            85           85      4,915
Bonded Out.................................................      3,645      5,357      8,451      8,285        178            23           54     25,738
Order of recognizance......................................      1,635      1,838      3,478      7,103        275            33          269     14,054
Order of supervision.......................................      3,922        760        799      1,471         86           273            9      6,952
Paroled....................................................         34         11         25        141          6             3          132        211
Prosecutorial Discretion...................................        115         82        142        426          3             7          416        765
                                                            --------------------------------------------------------------------------------------------
      Total................................................      9,990      9,052     14,404     19,189        599           424       18,166     52,635
--------------------------------------------------------------------------------------------------------------------------------------------------------
Fiscal year 2013 data was rerun for program data (IIDS v1.16 run date of 4/03/2014; EID as of 3/29/2014).
Book-out data excludes Office of Refugee Resettlement and Mexican Interior Repatriation Program facilities, as well as U.S. Marshals prisoners.
Releases reflect final book-outs with a case and release reasons of ATD, bond, order of recognizance, order of supervision, paroled, and prosecutorial
  discretion and excludes removals, deaths, and proceedings terminated. The final book-out criminality is defined by whether or not an alien has the ICE
  threat level (convicted criminal) or not (non-criminal). ICE threat level is based upon the most serious convicted crime(s) (except overturned
  convictions) for the alien's case up until the point of departure. The ICE threat levels reflect the priorities outlined in Director Morton's June
  2010 memorandum entitled ICE Civil Immigration Enforcement Priorities effective October 1, 2010. Since fiscal year 2011, ICE has defined criminality
  as whether or not an alien has an ICE threat level (convicted criminal) or not (non-criminal immigration violator). For purposes of prioritizing the
  removal of aliens convicted of crimes, ICE personnel refer to the following offense levels: level 1, level 2, and level 3 offenders. Level 1 offenders
  are those aliens convicted of ``aggravated felonies,'' as defined in section 101(a)(43) of the Immigration and Nationality Act, or two or more crimes
  each punishable by more than 1 year, commonly referred to as ``felonies.'' Level 2 offenders are aliens convicted of any other felony or three or more
  crimes each punishable by less than 1 year, commonly referred to as ``misdemeanors.'' Level 3 offenders are aliens convicted of ``misdemeanor''
  crime(s) punishable by less than 1 year.
The ICE arresting agency includes the following Enforcement and Removal Operations (ERO) and Homeland Security Investigations (HSI) arresting agency
  programs: 287g Program, Alternatives to Detention, ERO Criminal Alien Program, Detained Docket Control, Detention and Deportation, Law Enforcement
  Area Response Unit, Non-Detained Docket Control, Juvenile, Fugitive Operations, Violent Criminal Alien Section, Joint Criminal Alien Response Team,
  Probation and Parole, Quick Response Team, User Fee Investigations, Joint Terrorism Task Force, Non-User Fee Investigations, HSI Criminal Arrest Only,
  and Intelligence.


                                               FISCAL YEAR 2012 RELEASES WITH AN ICE APPREHENSION PROGRAM
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                   Convicted criminals           Non-criminal immigration violators (NCIV)
                                                            ----------------------------------------------------------------------------------
                       Release reason                           ICE        ICE        ICE                                                        Total
                                                               threat     threat     threat      NCIV       NCIV         NCIV          NCIV
                                                              level 1    level 2    level 3     total    fugitives  reinstatements    other
--------------------------------------------------------------------------------------------------------------------------------------------------------
ATD--Alternatives to Detention.............................        282        283        581        981         65            19          897      2,127
Bonded Out.................................................      3,792      6,033     10,618     15,985        827            22       15,136     36,428
Order of recognizance......................................      1,002        884      2,215      5,949        581            32        5,336     10,050
Order of supervision.......................................      4,801        643        659      1,834         64           157        1,613      7,937
Paroled....................................................         29          8         12         59          5             2           52        108
Prosecutorial Discretion...................................         72         46         64        250          3             8          239        432
                                                            --------------------------------------------------------------------------------------------
      Total................................................      9,978      7,897     14,149     25,058      1,545           240       23,273     57,082
--------------------------------------------------------------------------------------------------------------------------------------------------------
Fiscal year 2012 data was rerun for program data (IIDS v1.16 run date of 04/03/2014; EID as of 3/29/2014). Book-out data excludes Office of Refugee
  Resettlement and Mexican Interior Repatriation Program facilities, as well as U.S. Marshals prisoners.
Releases reflect final book-outs with a case and release reasons of alternatives to detention, bond, order of recognizance, order of supervision,
  paroled, and prosecutorial discretion and excludes removals, deaths, and proceedings terminated.
The final book-out criminality is defined by whether or not an alien has the ICE threat level (convicted criminal) or not (non-criminal). ICE threat
  level is based upon the most serious convicted crime(s) (except overturned convictions) for the alien's case up until the point of departure. The ICE
  threat levels reflect the priorities outlined in Director Morton's June 2010 memorandum entitled ICE Civil Immigration Enforcement Priorities
  effective October 1, 2010. Since fiscal year 2011, ICE has defined criminality as whether or not an alien has an ICE threat level (convicted criminal)
  or not (non-criminal immigration violator). For purposes of prioritizing the removal of aliens convicted of crimes, ICE personnel refer to the
  following offense levels: level 1, level 2, and level 3 offenders. Level 1 offenders are those aliens convicted of ``aggravated felonies,'' as defined
  in section 101(a)(43) of the Immigration and Nationality Act, or two or more crimes each punishable by more than 1 year, commonly referred to as
  ``felonies.'' Level 2 offenders are aliens convicted of any other felony or three or more crimes each punishable by less than 1 year, commonly
  referred to as ``misdemeanors.'' Level 3 offenders are aliens convicted of ``misdemeanor'' crime(s) punishable by less than 1 year.
The ICE arresting agency includes the following Enforcement and Removal Operations (ERO) and Homeland Security Investigations (HSI) arresting agency
  programs: 287g Program, Alternatives to Detention, ERO Criminal Alien Program, Detained Docket Control, Detention and Deportation, Law Enforcement
  Area Response Unit, Non-Detained Docket Control, Juvenile, Fugitive Operations, Violent Criminal Alien Section, Joint Criminal Alien Response Team,
  Probation and Parole, Quick Response Team, User Fee Investigations, Joint Terrorism Task Force, Non-User Fee Investigations, HSI Criminal Arrest Only,
  and Intelligence.


 FISCAL YEARS 2012-2014 (YEAR-TO-DATE) AVERAGE LENGTH OF STAY (ALOS) FOR
                RELEASES WITH AN ICE APPREHENSION PROGRAM
------------------------------------------------------------------------
                                           ALOS (in days) for releases
                                             with an ICE Apprehension
                                                     Program
                                        --------------------------------
              Criminality                                        Fiscal
                                           Fiscal     Fiscal   year 2014
                                         year 2012  year 2013   year-to-
                                                                  date
------------------------------------------------------------------------
ICE Threat Level 1.....................      79.05      80.77     100.13
ICE Threat Level 2.....................      38.99      35.86      39.31
ICE Threat Level 3.....................      25.83      24.74      28.67
Non-Criminal Immigration Violator......      21.53      17.10      15.86
    Fugitives..........................      16.46      15.25      17.13
    Reinstatements.....................      68.85      79.00      62.26
    Other..............................      21.38      15.72      14.44
                                        --------------------------------
      Total............................      35.06      34.50     39.80
------------------------------------------------------------------------
Fiscal years 2012-2013 data was rerun for program data (IIDS v1.16 run
  date of 04/03/2014; EID as of 3/29/2014). Fiscal year 2014 data
  updated through 3/29/2014 (IIDS v1.16 run date of 04/03/2014; EID as
  of 3/29/2014).
Book-out data excludes Office of Refugee Resettlement and Mexican
  Interior Repatriation Program facilities, as well as U.S. Marshals
  prisoners.
Releases reflect final book-outs with a case and release reasons of
  alternatives to detention, bond, order of recognizance, order of
  supervision, paroled, and prosecutorial discretion and excludes
  removals, deaths, and proceedings terminated.
The final book-out criminality is defined by whether or not an alien has
  the ICE threat level (convicted criminal) or not (non-criminal). ICE
  threat level is based upon the most serious convicted crime(s) (except
  overturned convictions) for the alien's case up until the point of
  departure. The ICE threat levels reflect the priorities outlined in
  Director Morton's June 2010 memorandum entitled ICE Civil Immigration
  Enforcement Priorities effective October 1, 2010. Since fiscal year
  2011, ICE has defined criminality as whether or not an alien has an
  ICE threat level (convicted criminal) or not (non-criminal immigration
  violator). For purposes of prioritizing the removal of aliens
  convicted of crimes, ICE personnel refer to the following offense
  levels: level 1, level 2, and level 3 offenders. Level 1 offenders are
  those aliens convicted of ``aggravated felonies,'' as defined in
  section 101(a)(43) of the Immigration and Nationality Act, or two or
  more crimes each punishable by more than 1 year, commonly referred to
  as ``felonies.'' Level 2 offenders are aliens convicted of any other
  felony or three or more crimes each punishable by less than 1 year,
  commonly referred to as ``misdemeanors.'' Level 3 offenders are aliens
  convicted of ``misdemeanor'' crime(s) punishable by less than 1 year.
The ICE arresting agency includes the following Enforcement and Removal
  Operations (ERO) and Homeland Security Investigations (HSI) arresting
  agency programs: 287g Program, Alternatives to Detention, ERO Criminal
  Alien Program, Detained Docket Control, Detention and Deportation, Law
  Enforcement Area Response Unit, Non-Detained Docket Control, Juvenile,
  Fugitive Operations, Violent Criminal Alien Section, Joint Criminal
  Alien Response Team, Probation and Parole, Quick Response Team, User
  Fee Investigations, Joint Terrorism Task Force, Non-User Fee
  Investigations, HSI Criminal Arrest Only, and Intelligence.
The average length of stay represents the average amount of time from
  initial book-in to final book-out for an alien's detention stay.
In support of the U.S. Border Patrol's Consequence Delivery System, ICE
  participated in the Alien Transfer Exit Program (ATEP) by detaining,
  transporting, and removing Mexican border crossers. In an effort to
  disrupt smuggling operations and deter future illegal entry, ICE
  transported and removed these subjects in a different area of the
  country from where they were apprehended by the U.S. Border Patrol.
  These cases required only short-duration detention stays. While ICE
  continues to participate in ATEP along the Texas-Mexico border, ICE
  scaled back its participation in ATEP in June 2013.

    Question. For fiscal years 2012, 2013, and 2014 year-to-date, 
please provide a breakdown of individuals on the non-detained docket by 
forms of supervision and conditions of release, including bond, ICE 
supervision, orders of recognizance, or combination. For the same time 
period, please provide a breakdown of those individuals on the non-
detained docket enrolled in the Alternatives to Detention (ATD) program 
by type of ATD.
    Answer. The non-detained docket is fluid and changes on a daily 
basis as cases move onto the detained docket or are closed. Therefore, 
U.S. Immigration and Customs Enforcement (ICE) is providing information 
that can be found in the year-end snapshot of its database and the 
snapshot is current as of March 29, 2014.
    The chart below shows the latest release reason for those non-
detained docket cases that had a history of ICE detention. Most cases 
on the non-detained docket do not have a detention history and 
therefore do not contain requested details such as the form of 
supervision or condition of release.

                    FISCAL YEARS 2012-2014 YEAR-TO-DATE NON-DETAINED DOCKET BY RELEASE REASON
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year     Fiscal year
                         Release reason                           2012  year-end  2013  year-end  2014 as of 03/
                                                                      snapshot        snapshot    29/14 snapshot
----------------------------------------------------------------------------------------------------------------
Total Non-Detained Docket.......................................       1,681,862       1,781,368       1,841,810
                                                                 ===============================================
Bonded Out......................................................         242,055         262,447         276,991
Order of Recognizance...........................................         111,324         150,177         176,943
Order of Supervision............................................          60,149          69,836          75,546
Office of Refugee Resettlement..................................           2,256           4,639           5,342
Paroled.........................................................          36,106          40,028          43,399
Proceedings Terminated..........................................           1,660           1,686           1,871
Prosecutorial Discretion........................................             347             918           1,153
All Other Release Reasons.......................................          36,307          38,405          39,676
No Detention tied to the case...................................       1,191,658       1,213,232      1,220,889
----------------------------------------------------------------------------------------------------------------
Fiscal years 2012 and 2013 data represent snapshots of the non-detained docket at year end, and are historical
  and remain static. Fiscal year 2014 data updated through 3/29/2014 (ICE Integrated Decision Support v1.16 run
  date of 3/31/2014; ENFORCE Integrated Database as of 3/29/2014).
``All Other Release Reasons'' include release reasons such as ``Alternatives to Detention,'' and cases in which
  the alien may have been removed or departed the United States but whose case has not yet been closed in ICE's
  case management system. This category may also contain other release reasons such as ``Processing Disposition
  Changed Locally'' or other various reasons.


                      FISCAL YEARS 2012-2014 YEAR-TO-DATE ALTERNATIVES TO DETENTION BY TYPE
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year     Fiscal year
                                                                   2012 year-end   2013 year-end  2014 as of 03/
                                                                     snapshot        snapshot     29/14 snapshot
----------------------------------------------------------------------------------------------------------------
Total ATD.......................................................          23,121          22,977          21,919
                                                                 ===============================================
Full Service....................................................          12,828          12,253          11,137
Technology Only.................................................          10,293          10,742          10,782
----------------------------------------------------------------------------------------------------------------

    Question. For fiscal years 2012, 2013, and 2014 year-to-date, 
please provide information on the final case dispositions (e.g. 
removed, returned, granted voluntary departure, and/or granted another 
form of relief) for aliens on the non-detained docket by forms of 
supervision and conditions of release, including bond, ICE supervision, 
orders of recognizance, or combination. In addition, show the average 
number of days on the docket for these aliens in each type of 
supervision.
    Answer. ICE is unable to provide the final case dispositions for 
aliens on the non-detained docket by forms of supervision and 
conditions of release or the average number of days on the docket for 
aliens in each type of supervision without case specific information.
    ICE is providing information that can be found in the year-end 
snapshot of its database and the snapshot as of March 29, 2014.
    In fiscal year 2012, ICE conducted 346,487 removals and 63,362 
returns. In fiscal year 2013, ICE conducted 332,538 removals and 36,106 
returns.
    The below chart shows the latest release reason for those non-
detained docket cases that had an ICE book-in. Most cases on the non-
detained docket do not have a detention history that can be tied to the 
case and therefore do not contain the requested details as to the form 
of supervision or condition of release.

                    FISCAL YEARS 2012-2014 YEAR-TO-DATE NON-DETAINED DOCKET BY RELEASE REASON
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal year     Fiscal year     Fiscal year
                         Release reason                           2012  year-end  2013  year-end  2014 as of 03/
                                                                      snapshot        snapshot    29/14 snapshot
----------------------------------------------------------------------------------------------------------------
Total Non-Detained Docket.......................................       1,681,862       1,781,368       1,841,810
                                                                 ===============================================
Bonded Out......................................................         242,055         262,447         276,991
Order of Recognizance...........................................         111,324         150,177         176,943
Order of Supervision............................................          60,149          69,836          75,546
Office of Refugee Resettlement..................................           2,256           4,639           5,342
Paroled.........................................................          36,106          40,028          43,399
Proceedings Terminated..........................................           1,660           1,686           1,871
Prosecutorial Discretion........................................             347             918           1,153
All Other Release Reasons.......................................          36,307          38,405          39,676
No Detention tied to the case on the Non-Detained Docket--No           1,191,658       1,213,232      1,220,889
 Release Reason.................................................
----------------------------------------------------------------------------------------------------------------
Fiscal years 2012-2013 data represent snapshots of the non-detained docket at year end, and are historical and
  remain static. Fiscal year 2014 data updated through 3/29/2014 (ICE Integrated Decision Support (IIDS) v1.16
  run date of 3/31/2014; ENFORCE Integrated Database (EID) as of 3/29/2014).
``All Other Release Reasons'' include release reasons such as ``Alternatives to Detention,'' and cases in which
  the alien may have been removed or departed the United States but whose case has not yet been closed in ICE's
  case management system. This category may also contain other release reasons such as ``Processing Disposition
  Changed Locally'' or other various reasons.


  FISCAL YEARS 2012-2014 YEAR-TO-DATE ALTERNATIVES TO DETENTION BY TYPE
------------------------------------------------------------------------
                                                                 Fiscal
                                           Fiscal     Fiscal   year 2014
                                         year 2012  year 2013  as of 03/
                                          year-end   year-end    29/14
                                          snapshot   snapshot   snapshot
------------------------------------------------------------------------
Total ATD..............................     23,121     22,977     21,919
                                        ================================
Full Service...........................     12,828     12,253     11,137
Technology Only........................     10,293     10,742     10,782
------------------------------------------------------------------------

    Question. For fiscal years 2012, 2013, and 2014 year-to-date, 
please provide the final case dispositions (e.g. removed, returned, 
granted voluntary departure, and/or granted another form of relief) of 
participants in the ATD program.
    Answer. The table below displays final case dispositions for fiscal 
years 2012, 2013, and 2014 (through February).

------------------------------------------------------------------------
                                                                 Fiscal
                                           Fiscal     Fiscal   year 2014
         Final case disposition          year 2012  year 2013   through
                                                                February
------------------------------------------------------------------------
0--Withdrawal Permitted--I-275 Issued..          9          6          1
3--Voluntary Departure Confirmed.......      1,414      1,134        268
6--Deported/Removed--Deportability.....        503        546        131
8--Excluded/Removed--Inadmissibility...        909      1,213        347
9--Voluntary Return Witnessed..........          6          2          1
A--Proceedings Terminated..............        840        780        213
B--Relief Granted......................        462        451        140
E--Charging Document Canceled by               102        119         50
 Immigration and Naturalization Service
L--Legalization--Permanent Residence            60         56         12
 Granted...............................
Z--Z-Special Agricultural Worker--               6          2          1
 Permanent Residence Granted...........
                                        --------------------------------
      Grand Total......................      4,311      4,309      1,164
------------------------------------------------------------------------
Data Notes:
--Final case dispositions based on case status code pulled from ICE
  Integrated Decision Support (IIDS). IIDS is a data warehouse that
  contains dynamic data extracts from the Enforcement Integrated
  Database (EID).
--ATD Termination codes were not used in this analysis because they are
  not necessarily indicative of an individual's final case disposition,
  only an individual's reason for exiting the ATD program. Case status
  code is a more concrete indication of final case outcome.
--Data pulled by the Statistical Tracking Unit.
--Fiscal year 2012 case closure codes 0-9 pulled from IIDS 10/5/2012,
  EID as of 10/3/2012.
--Fiscal year 2013 case closure codes 0-9 pulled from IIDS 10/6/2013,
  EID as of 10/4/2013.
--Fiscal year 2014 case closure codes 0-9 pulled from IIDS 3/10/2014,
  EID as of 3/8/2014.
--Fiscal years 2012-2014 case closure codes A-Z pulled from IIDS 4/4/
  2014, EID as 4/2/2014.


--------------------------------------------------------------------------------------------------------------------------------------------------------
                Fiscal year 2012 terminations                          Fiscal year 2013 terminations              Fiscal year 2014 through February
------------------------------------------------------------------------------------------------------------                 terminations
                                                                                                            --------------------------------------------
            Termination code               Count     Percent      Termination code       Count     Percent      Termination code      Count     Percent
--------------------------------------------------------------------------------------------------------------------------------------------------------
A......................................      1,175        6.7  A.....................      1,445        5.4  A....................        413        4.7
B......................................        773        4.4  B.....................        942        3.5  B....................        309        3.5
C......................................        371        2.1  C.....................        560        2.1  C....................        266        3.0
D......................................        512        2.9  D.....................        800        3.0  D....................        271        3.1
E......................................        357        2.0  E.....................        544        2.0  E....................        279        3.2
F......................................        256        1.5  F.....................        166        0.6  F....................         40        0.5
G......................................     11,104       63.3  G.....................     19,249       71.5  G....................      6,023       68.4
H......................................        173        1.0  H.....................        269        1.0  H....................        113        1.3
I......................................        240        1.4  I.....................        207        0.8  I....................        125        1.4
J......................................        980        5.6  J.....................      1,267        4.7  J....................        519        5.9
K......................................        259        1.5  K.....................        259        1.0  K....................        102        1.2
L......................................      1,208        6.9  L.....................        969        3.6  L....................        238        2.7
M......................................        120        0.7  M.....................        131        0.5  M....................         63        0.7
Unknown................................         23        0.1  Unknown...............        130        0.5  Unknown..............         48        0.5
                                        ----------------------------------------------------------------------------------------------------------------
      Grand total......................     17,551      100.0  Grand total...........     26,938      100.0  Grand total..........      8,809      100.0
--------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ Data from BI Inc. Population Reports


                            TERMINATION CODES
------------------------------------------------------------------------
                  Type                             Description
------------------------------------------------------------------------
Favorable Outcomes:
    A..................................  Departure Verified (Final Order
                                          of Removal)
    B..................................  Relief/Benefit Granted
                                          (cancellation of Removal,
                                          Adjustment of Status, Asylum,
                                          or Admission)
    L..................................  Departure Verified (Voluntary
                                          Departure)
    M..................................  Departed the United States
                                          while in proceedings
Neutral Outcomes:
    G..................................  No Longer Required to
                                          Participate (As determined by
                                          ERO for various reasons)
    H..................................  Arrested by ICE for Removal
                                          (Final Order--Active
                                          Participant)
    I..................................  Pending Departure Verification
                                          (Final Order of Removal or
                                          Voluntary Departure)
    J..................................  Arrested by other Law
                                          Enforcement Agency
    K..................................  Other (No longer required to
                                          report: medical or deceased)
Unfavorable Outcomes:
    C..................................  Pre-Order Program Absconder
                                          (Terminated from ATD)
    D..................................  Post-Order Program Absconder
                                          (Terminated from ATD)
    E..................................  Pre-Order Program Violator
    F..................................  Post-Order Program Violator
------------------------------------------------------------------------

    Question. Please provide the analysis that underpins the 
Administration's assertion that there is only a need for 30,500 
detention beds. And please provide an assessment of the impact that 
lower detention rates will have on successful removal of illegal 
aliens, to include consideration of the total cost to the taxpayer over 
time, effect on border security effectiveness, impact on interior 
enforcement, and impact on the aliens themselves as they accumulate 
``equities'' on the non-detained docket.
    Answer. The President's fiscal year 2014 budget requests funding 
for 30,539 immigration detention beds. U.S. Immigration and Customs 
Enforcement (ICE) reviewed the historical average number of aliens 
apprehended who are subject to the Immigration and Nationality Act and 
mandatory detention provisions. The requested bed level of 30,539 
accommodates the current fiscal year 2014 mandatory detained population 
(22,417 year-to-date average as of March 31, 2014) and provides for a 
36-percent increase in detention population to accommodate the higher 
risk, non-mandatory detainees who present a risk to public safety. 
Lower risk, non-mandatory individuals may be placed by ICE in lower 
cost alternatives to detention programs.
                 transportation security administration
    Question. The Screening Partnership Program supports airports that 
opt to have private sector screening companies rather than TSA 
operations. Under this program, TSA still oversees security by 
contracting for screening services. Congress has spoken repeatedly 
about the value of this program in providing an avenue for innovation 
and competition. At the same time, it has been difficult for airports 
that want to participate to actually get through the process. One 
reason why seems to come down to technicalities in cost calculations. 
While I understand that this program will likely always be 
controversial, the actual cost of these two options should not be up 
for debate--this is a knowable feature of the landscape. This 
subcommittee directed TSA to undertake an independent assessment over 
the coming year to take this cost issue off the table.
    What is the status of this review, and will you ensure that TSA 
makes any changes necessary to its processes to ensure a fair and open 
competition for private sector screening?
    Answer. As directed by the Fiscal Year 2014 Consolidated 
Appropriations Act, the Transportation Security Administration (TSA) 
released a request for quote on April 16, 2014, to solicit an 
independent analysis of the Screening Partnership Program's Federal 
cost estimate methodology. Once the contractor delivers the final 
report, the Government Accountability Office has 90 days to review and 
brief Congress on the results. TSA is committed to ensuring a fair and 
open application process.
                                 ______
                                 
             Questions Submitted by Senator Lisa Murkowski
   coast guard recapitalization plan--national security cutters and 
                        offshore patrol cutters
    Question. Secretary Johnson, I want to thank you for your support 
of DHS operations in and around my State, including, but not limited to 
the United States Coast Guard. I hope you will have the opportunity to 
soon visit Alaska and see the hard working men and women of the 
Department of Homeland Security.
    As we discussed a few months ago, the recapitalization of the Coast 
Guard's assets is a priority that we both share and I am happy to see 
that you requested funding for the eighth national security cutter 
(NSC) in this year's budget request. The national security cutter is 
the Coast Guard's most sophisticated ship, and they continue to deploy 
to the Bering Sea. These national security cutters are filling the role 
of the older high endurance cutters that have past their useful life.
    Currently, one high endurance cutter, the Munro is homeported in 
Alaska. Cutters from California or Hawaii conduct all other Alaska 
patrol deployments. The Munro is over 40 years old and there is no 
planned replacement for it in Kodiak.
    Would you consider taking another look at the Coast Guard's 
homeporting strategy and locating a national security cutter in Kodiak?
    Answer. Homeporting of the national security cutters (NSCs) was 
carefully evaluated by the Commandant of the Coast Guard to ensure 
greatest operational efficiency in supporting the Coast Guards multiple 
missions.
    In addition to the NSC, the Coast Guard is also designing the 
offshore patrol cutter (OPC). I see this year's budget request includes 
$20 million to continue the preliminary design evaluation of this ship.
    Question. Are there plans to use the offshore patrol cutter in 
Alaska?
    Answer. Yes, the Coast Guard plans to use the OPC year-round in 
Alaskan waters.
    Question. If so how many national security cutters, if any, does 
the Coast Guard plan to homeport in Alaska? And when are they expected 
to begin coming online and start operating?
    Answer. There are currently no plans to homeport a national 
security cutter in Alaska.
                           polar icebreakers
    Question. We also need to talk about our icebreaking capability. 
The Coast Guard High Latitude Study in 2011 identified that to fulfill 
the statutory missions the Coast Guard needed three heavy and three 
medium icebreakers. Right now there is only one operational heavy 
icebreaker in our national fleet with one recently taken out of 
service. This year's request includes $6 million to continue to study 
and plan for a new polar icebreaker. We don't appear to be moving very 
quickly to build a new icebreaker, while other countries including 
Russia, China, and Canada are all building new icebreakers.
    How many heavy icebreakers are needed keep us safe and protect our 
Arctic interests?
    Answer. Current Arctic seasonal icebreaking demands and national 
needs can be met with existing Coast Guard assets.
    Question. Does the Coast Guard have plans for additional 
icebreaking capability as a part of an Arctic strategy?
    Answer. Per the Coast Guard's 2013 Arctic Strategy, the Coast Guard 
will continue to monitor evolving Arctic activities, and re-invest, 
where funding allows, to overcome potential gaps and shortfalls. The 
current icebreaking capability is sufficient to meet current 
operational demands.
    Question. Are there any plans to recapitalize and return the non-
operational Polar Sea to service?
    Answer. There are no plans to recapitalize and return the non-
operational Polar Sea to service.
                                 arctic
    Question. Secretary Johnson, the President released the 
Implementation Plan for the National Strategy for the Arctic Region in 
January. This plan lists the Department of Homeland Security as the 
lead agency for seven objectives as well as a supporting agency for 
many others. Your budget requests $2.1 million for Arctic operations.
    What level of priority are these Arctic objectives?
    Answer. Ensuring that the Coast Guard is prepared to meet its 
statutory mission obligations in the Arctic is a priority for the 
Service and the Coast Guard is taking a measured approach in this 
regard. The Coast Guard is working to support the implementation of the 
National Strategy for the Arctic Region in conjunction with the 
implementation of the Coast Guard's Arctic Strategy. These strategies 
are complementary to each other and both recognize that the intensity 
of Coast Guard activity in the Arctic will be developed commensurate 
with changes in Arctic activity.
    Question. How will you implement your Arctic plan in the next 
fiscal year?
    Answer. There are a number of actions that are taking place in 
fiscal year 2015 to support implementation of the National Strategy for 
the Arctic Region and the Coast Guard Arctic Strategy. These include:
  --Conducting annual Arctic Shield Operations;
  --Establishment of the (International) Arctic Coast Guard Forum;
  --Establishment of an Arctic Policy Board under the rules of the 
        Federal Advisory Committee Act;
  --Continue support within the International Maritime Organization for 
        the development of a mandatory Polar Code;
  --Continue development of the interagency polar icebreaker 
        Operational Requirements Document;
  --Work towards finalizing the Bering Strait Port Access Route Study;
  --Provide support to the Department of State to development priority 
        for U.S. Chairmanship of the Arctic Council (2015-2017).
                  coast guard operational efficiencies
    Question. Secretary Johnson, I am concerned with the planned 
reduction of $15 million in the Coast Guard budget for what is referred 
operational efficiencies. This reduction seems to contradict the Coast 
Guard's drive to increase proficiency across the service.
    Can you please describe what the operational efficiencies that are 
being reduced?
    Answer. The $15 million operational efficiency scales cutter, boat, 
and aircraft resource hours using risk-based prioritization of patrols 
and operational activities to achieve savings in fuel and variable 
maintenance. This proposal will preserve search and rescue, urgent 
security activities, and operational hours to meet minimum proficiency 
standards.
    Question. How will this reduction affect Coast Guard operations in 
Alaska?
    Answer. Operational Commanders will maintain the flexibility to 
shift resources to address the greatest risks and threats in the 
maritime environment. This reduction is not expected to impact the 
Coast Guard's response posture in and around Alaska.
                         national ocean policy
    Question. The April 2013 National Ocean Policy Implementation Plan 
directs DHS (as a National Ocean Council member) to implement what has 
been described as a ``fundamental shift'' in the way that the Federal 
Government manages ocean, coastal, and Great Lakes resources by 
adopting an ``ecosystem-based management'' (EBM) approach. 
Specifically, EBM must be incorporated into environmental planning and 
review processes by 2016. In addition, the National Ocean Council 
(which includes DHS) is directed to ``complete formal interagency 
partnership agreements . . . regarding coordination and leveraging 
efforts to achieve EBM.''
    In addition, in regions where all States decide not to participate 
on a regional planning body to carry out the marine planning 
initiative, Federal agencies are nonetheless directed to ``identify and 
address priority science, information, and ocean management issues 
associated with marine planning as described in the Executive Order.''
    Alaska is a State that has decided not to participate in a regional 
planning body, and I am concerned that Federal agencies, including DHS, 
are pushing forward without due regard to Alaska's prerogative to opt 
out of a regional planning body.
    Could you please describe in detail any DHS actions that have been 
or will be taken in Alaska in response to the National Ocean Policy 
Implementation Plan's directive to incorporate EBM into environmental 
planning and review processes and complete formal interagency 
agreements in furtherance of EBM?
    Answer. The Coast Guard is working with other Federal, State, 
local, and tribal experts to improve Arctic environmental incident 
prevention and response to ensure coordinated agency action, minimize 
the likelihood of disasters, and expedite response activities. The 
Implementation Plan includes the ongoing efforts of the Coast Guard to 
conduct a Waterway Analysis and Management System assessment and Port 
Access Route Study for the Bering Strait, ports, and other navigable 
waterways in western and northern Alaska as one of its priority 
actions. When completed, this action will lead to improved navigational 
safety, efficiency, and environmental stewardship for the region.
    Another initiative in which DHS/Coast Guard is involved is 
interagency cooperation to better coordinate domestic energy 
development and permitting in Alaska under Executive Order 13580 
(Interagency Working Group on Coordination of Domestic Energy 
Development and Permitting in Alaska), of July 12, 2011. That Executive 
order makes specific reference to the need to promote orderly and 
efficient decisionmaking regarding the issuance of permits and the 
conduct of environmental reviews for both onshore and offshore energy 
development. This interagency coordination is leading to integrated 
Arctic management, which is a key component of EBM.
    Question. Could you please describe in detail any DHS actions that 
have been or will be taken in Alaska in response to the National Ocean 
Policy Implementation Plan's directive for Federal agencies to 
participate in the marine planning initiative?
    Answer. The Coast Guard District 17 Commander took the lead early 
on in organizing Federal agencies in the Alaska region to prepare for 
the development of marine planning initiatives. This includes reaching 
out to other Federal agencies to identify subject-matter experts, 
leaders, and resources to enhance coordination and implementation of 
Federal programs designed to enhance the safe, secure, and prudent 
management of Federal waters and missions in the region. This was done 
in consultation with experts and leaders across the Federal Government, 
the State of Alaska, local communities, tribes, academia, industry, and 
the general public to promote mutual understanding and cooperation 
across a wide range of relevant initiatives. Additionally, the 17th 
Coast Guard District has reached an informal agreement with the 
National Ocean Council and the State of Alaska to work within existing 
processes and mechanisms to further National Ocean Policy objectives in 
Alaska.
                              fema/galena
    Question. On June 25, 2013, the President issued a major disaster 
declaration in response to flooding that devastated the Yukon River 
community of Galena and severely impacted other river villages in the 
Tanana Chiefs Conference (TCC) and Association of Village Council 
Presidents (AVCP) regions. FEMA established a Disaster Field Office in 
Anchorage and mobilized staff from around the country. Most had no 
understanding of the short building seasons and geographic constraints 
associated with responding to a rural Alaska disaster. During a July 
meeting at the Disaster Field Office we also came to learn that FEMA HQ 
was not affording the Federal coordinating officer with the flexibility 
to address these unique conditions and to some extent was micromanaging 
the disaster. In response to that meeting, I wrote FEMA Administrator 
Fugate and DHS Acting Inspector General Edwards asking that they send 
senior teams to Galena. The DHS Inspector General's office sent a 
three-person senior team in September while FEMA sent some HQ managers. 
Neither the FEMA Administrator, the Deputy Administrator nor the 
Associate Administrator in charge of the Recovery Division visited 
Galena last summer. We lost much of the 2013 construction season 
because FEMA was not prepared. While FEMA has done substantial planning 
for the 2014 season, DHS oversight is necessary to ensure that the plan 
is properly executed.
    When you visited with me before your confirmation we discussed 
FEMA's response to the May 2013 flooding disaster that devastated the 
Athabasca Indian village of Galena on the Yukon River and surrounding 
Native villages. By July it became apparent to me that FEMA was not 
well prepared to address a disaster in a remote Native village. Many of 
the reservists on the ground were poorly trained and we heard that FEMA 
headquarters was micromanaging the recovery and not in a good way. I 
wrote a letter to Administrator Fugate and to the DHS Inspector General 
asking that the ship be righted. A copy of this letter was provided to 
your staff. To their credit, senior Inspector General officials 
traveled to Galena to inspect the situation. Senior FEMA HQ officials 
did not. The 2014 construction season is upon us.
    My question is: Can we expect that FEMA will do better in 2014 than 
it did in 2013. The recovery in Galena is as important to me like the 
recovery from Katrina and Rita is to Senator Landrieu, and the Sandy 
recovery is to the New York and New Jersey delegations. Can we get some 
high level attention and remove the obstacles that stand in the way to 
the recovery of these traditional Native communities?
    Answer. Each Stafford Act declaration is important to FEMA. 
Throughout the process of response and recovery efforts in Alaska, FEMA 
took rigorous and innovative actions to provide housing assistance to 
eligible applicants to include implementing Permanent Housing 
Construction (PHC). FEMA quickly deployed its Direct Housing Assessment 
Team (DHAT) which identifies the most appropriate means of providing 
temporary housing assistance, taking into account the needs of the 
eligible applicants, availability of temporary housing resources in the 
community, and the unique logistical considerations associated with 
providing housing assistance in a remote village like Galena. The DHAT, 
in coordination with the State-Led Disaster Housing Task Force (SLDHTF) 
and the U.S. Army Corps of Engineers (USACE), evaluated potential 
construction options and determined PHC was the most appropriate 
housing assistance option for some applicants. PHC was implemented in 
phases to fill gaps due to additional costs associated with bringing in 
building material (direct shipping) and labor to support the repair of 
individual homes.
    In addition, FEMA engages early with our Grantees (States/tribes/
local governments) in preparation of a disaster. An example of this is 
the Other Needs Assistance (ONA) provision of our Individuals and 
Households Program. ONA Administrative Option Selection form (FEMA form 
010-0-11) contains a ``standard personal property line item list'' for 
States/tribes to approve or modify. States and tribes are provided an 
opportunity to ``add-on'' any additional items that are prevalent in 
their State/tribe and are not included in the standard list. The 
additional items requested by the State of Alaska included various 
items, such as a fish wheel, rifle, fishing gear, hunting gear, etc. to 
support subsistence activities. For example, the ``hunting gear'' 
included a sleeping bag, tent, tarp, knife, camp stove, food storage 
and game storage bags. These were approved in February 2013, 5 months 
before the disaster. FEMA had the ability to pay for those items under 
ONA at the time of the disaster, within 3 days of the declaration. 
Therefore, ONA was awarded without delay and provided an opportunity to 
supply food for the winter.
    Due to the remoteness of some traditional Native communities such 
as Galena, FEMA's Public Assistance program funded a responder support 
camp last summer. The responder camp remains operational, and it houses 
40 individuals. FEMA and State staff, along with FEMA and State-
sponsored volunteers, utilized the camp. It provides washing and drying 
capabilities along with showers and three meals. Due to the number of 
volunteers assisting in the rebuilding of the community and the lack of 
infrastructure capabilities of Galena, the camp will be expanded in 
June to support an additional 60 volunteers. The camp is expected to be 
available through September 1, 2014.
                                 ______
                                 
           Questions Submitted by Senator Barbara A. Mikulski
                     visa waiver program and poland
    Question. Secretary Johnson, I was pleased to speak with you 
following your visit to Krakow this past February. I appreciate that 
you took the time to discuss the importance of expanding the Visa 
Waiver Program with your Polish counterpart. Poland is an important 
strategic ally to the United States. It is important to show faith with 
a longtime friend that has shown faith with us, standing by us in Iraq 
and Afghanistan.
    President Obama has repeatedly expressed his commitment to bringing 
Poland into the Visa Waiver Program.
    Secretary Johnson, how important is it to the Department of 
Homeland Security (DHS) to bring our close ally and friend Poland into 
the Visa Waiver Program?
    Answer. As you mention and as the President has noted, Poland is a 
strong ally of the United States. The President and I support Poland's 
accession to the Visa Waiver Program. Unfortunately, Poland does not 
yet meet the strict eligibility requirements of the Visa Waiver Program 
contained in current law. Poland's nonimmigrant visitor visa refusal 
rate remains above the statutory threshold of 3 percent. Additionally, 
Poland has not yet signed all of the information sharing agreements 
required for Visa Waiver Program eligibility.
    DHS places great importance on bringing Poland into the Visa Waiver 
Program once it meets the eligibility requirements. In the meantime, 
DHS cannot bring Poland into the program because DHS's authority to do 
so is constrained by current law.
    Question. How many other countries are in line to join the program?
    Answer. No countries not already in the Visa Waiver Program (VWP) 
currently fulfill all of the statutory requirements for VWP 
designation. DHS has been working with a very small group of countries 
on the VWP's security and information sharing requirements in 
anticipation that they will become eligible for designation at some 
point in the future. These countries also need to meet the nonimmigrant 
visitor visa refusal rate threshold of 3 percent. DHS cannot begin the 
designation process until this and all the additional eligibility 
requirements are met. Based on the Department of State's fiscal year 
2013 visa refusal data, DHS does not anticipate designating any 
countries into the Visa Waiver Program during the remainder of this 
fiscal year.
    Question. Opponents of VWP expansion argue that it is a risk to 
American Security. Can you outline the security agreements Poland will 
enter into with the United States prior to joining? How will these 
agreements enhance American Security? What has the Polish Government 
already done to ensure Poland is not an entry point for terrorists into 
the United States?
    Answer. There are three information sharing instruments that 
countries conclude prior to the start of the Visa Waiver Program 
designation process in order to meet VWP statutory requirements for 
information sharing. The first is the Agreement on Preventing and 
Combating Serious Crime. This agreement provides for the reciprocal 
exchange of biographic and biometric data, along with any relevant 
underlying information, for purposes of preventing, detecting, and 
investigating serious criminal activity. Poland and the United States 
concluded substantive negotiations on this agreement in July 2012.
    The second is the Homeland Security Presidential Directive 6 (HSPD-
6) arrangement (Integration and Use of Screening Information). Under 
this arrangement, the United States provides the foreign partner with 
access to an extract of the Terrorist Screening Database in exchange 
for the foreign partner's list of known and suspected terrorists. 
Poland has already signed an HSPD-6 arrangement with the United States.
    The third is an agreement to report information to INTERPOL on lost 
and stolen passports. To fulfill this requirement, countries must 
complete a memorandum of understanding or an exchange of diplomatic 
notes documenting their intent to report information on lost and stolen 
passport through INTERPOL. VWP countries are expected to report lost 
and stolen passport data on a daily basis. Poland has completed the 
exchange of diplomatic notes, and reports data on lost/stolen passport 
to INTERPOL on a daily basis.
    These agreements enhance American security by increasing the 
quantity and the quality of data available for identifying foreign 
travelers of potential concern. Primarily as a result of the Visa 
Waiver Program requirement to report lost and stolen passport 
information, over 65 percent of the records contained in INTERPOL's 
travel document database are provided by Visa Waiver Program countries. 
The Agreement on Preventing and Combating Serious Crime has already 
resulted in the identification and incarceration of serious criminals 
based on the exchange of biometric information with Visa Waiver Program 
partners. Information gathered through the HSPD-6 arrangement has 
resulted in the confirmation of several terrorist identities, made 
existing watch list profiles more accurate, and added new identities to 
our watch list holdings.
    Poland employs a broad range of tools to diminish the risk that 
terrorists would use its territory as a transit point for travel to the 
United States. These tools include standardized risk-based screening 
procedures at border crossings, use of the European Union's Schengen 
Information System database to screen inbound travelers against 
derogatory information held by European governments, vetting of all 
applicants for asylum and refugee status against a common European 
database, and use of targeted advance passenger information to identify 
travelers of interest before they arrive at Polish ports of entry. 
Polish law enforcement and security officials frequently exchange 
information with their counterparts in the United States Mission to 
Poland, ensuring that any known travelers of concern are identified 
well in advance of any potential travel to the United States.

                         CONCLUSION OF HEARING

    Senator Landrieu. And without further business, the 
subcommittee is adjourned.
    [Whereupon, at 3:48 p.m., Wednesday, March 12, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]
</pre></body></html>
